<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2015 Tuesday, April 8, 2014.</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                                
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                   MICHAEL K. SIMPSON, Idaho, Chairman
                   
 RODNEY P. FRELINGHUYSEN, New Jersey  MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi           PETER J. VISCLOSKY, Indiana
 KEN CALVERT, California              ED PASTOR, Arizona
 CHARLES J. FLEISCHMANN, Tennessee    CHAKA FATTAH, Pennsylvania
 TOM GRAVES, Georgia
 JEFF FORTENBERRY, Nebraska         
 
NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
 Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
 Committee, are authorized to sit as Members of all Subcommittees.

             Rob Blair, Angie Giancarlo, Loraine Heckenberg,
                      Ben Hammond, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 6

                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management, FY 2015 Budget.........................    1
 Applied Energy Funding, FY 2015 Budget...........................   71
 Science, FY 2015 Budget..........................................  251

                                ________

         Printed for the use of the Committee on Appropriations
      
      
      
      
      
      
      
      
      
      
      
      
      
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                                
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                   MICHAEL K. SIMPSON, Idaho, Chairman
 RODNEY P. FRELINGHUYSEN, New Jersey  MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi           PETER J. VISCLOSKY, Indiana
 KEN CALVERT, California              ED PASTOR, Arizona
 CHARLES J. FLEISCHMANN, Tennessee    CHAKA FATTAH, Pennsylvania
 TOM GRAVES, Georgia
 JEFF FORTENBERRY, Nebraska         
  
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Rob Blair, Angie Giancarlo, Loraine Heckenberg,
                      Ben Hammond, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 6
                                 
                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management, FY 2015 Budget.........................    1
 Applied Energy Funding, FY 2015 Budget...........................   71
 Science, FY 2015 Budget..........................................  251

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                                
                     U.S. GOVERNMENT PRINTING OFFICE
                     
 91-276                     WASHINGTON : 2014
 
 
 
 
 
 
 

                        COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                SAM FARR, California            
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania        
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington    
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California
 ANDY HARRIS, Maryland
 MARTHA ROBY, Alabama
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah                
   
                            WILLIAM L. OWENS, New York

               William E. Smith, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2015
__________________________________________________________________
 
                                            Tuesday, April 8, 2014.

                ENVIRONMENTAL MANAGEMENT FY 2015 BUDGET

                                WITNESS

DAVE HUIZENGA, ACTING ASSISTANT SECRETARY, ENVIRONMENTAL MANAGEMENT, 
    DEPARTMENT OF ENERGY
    Mr. Simpson. I would like to call the hearing to order.
    Sorry, we are about five minutes late starting, but good 
morning, everyone.
    We have before us today David Huizenga, Senior Advisor for 
Environment Management to the Secretary of Energy. We welcome 
you back to this Subcommittee.
    Mr. Huizenga, we greatly appreciate the work you have done 
over the past two years. Leading a program that is fraught with 
such daunting technical, management, and regulatory challenges 
is no easy task. We look forward to your testimony on these 
important cleanup activities.
    The budget request for the Office of Environmental 
Management totals $5.6 billion, $209 million, or a 3.5 percent 
decrease below the fiscal year 2014 enacted level. I do not 
include in those figures the $463 million for a federal 
contribution to the Uranium Enrichment Decontamination and 
Decommissioning Fund that has served to mask the reductions in 
the request for the department's cleanup activities.
    The department is currently facing some very difficult 
challenges in its cleanup program. What has been proudly 
referred to in the past as the nation's only operating 
repository, the Waste Isolation Pilot Plant, is currently not 
operating. The recent activities at WIPP are very serious, and 
by all accounts are likely to have a significant impact on 
conduct of the operations there. We hope to hear more from you 
today on how you are ensuring the safety of the public and our 
workers, as well as how the events at WIPP will impact cleanup 
plans there and at other sites. The public's faith and 
confidence in the department's ability to protect public health 
and the environment as it carries out its mission is at stake.
    That confidence will be particularly important as the 
department enters into negotiations to modify its cleanup 
agreements. The department has either already missed, or is 
poised to miss, cleanup milestones at a number of sites. As a 
result, the department is looking to change the terms of its 
cleanup agreements so that it can move forward with more 
feasible plans. If those proposals are to be considered 
credible, the department must address an embedded culture that 
has allowed poor project management and weak quality practices 
to impact progress.
    We are eager to hear what progress you have made to change 
the course of this program so that the department can safely 
and reliably meet its commitments.
    Please ensure for the hearing record that responses to the 
questions for the record and any supporting information 
requested by the Subcommittee are delivered in final form to us 
no later than four weeks from the time you receive them. I also 
ask that if members have additional questions they would like 
to ask, to submit them to the Subcommittee for the record, and 
that they do so please by 5 p.m. tomorrow.
    With those opening statements, I would like to yield to our 
ranking member, Ms. Kaptur for any opening comments that she 
might have.
    Ms. Kaptur. Thank you, Mr. Chairman, and welcome, Mr. 
Huizenga for being here today. It is good to see you again. And 
thank you for taking time to discuss the environmental program 
with us.
    Obviously, your program has massive challenges and 
responsibilities, and the legacy of the Manhattan Project is an 
obligation we, as a country, must continue addressing. One of 
the supplements to our hearing notes this morning, obviously, 
showed the historical cleanup sites and the sites remaining, 
and I think overall we have to say the country has made 
enormous progress, and we want to hear about that progress 
today. You are one of the stewards of that effort, and a most 
important one.
    The recent shutdown, however, of the Waste Isolation Plant 
and the changes the department is pursuing at Hanford are 
illustrative of not only the dangers posed by remaining 
materials, but also the technical and budgetary challenges that 
further complicate the eventual success of your department's 
efforts.
    Further, I have lingering concerns about the department's 
safety culture. With such a critical mission at stake, the work 
environment at your sites must ensure employee concerns are 
addressed in a timely manner and without fear of retribution, 
for heaven's sake.
    Given the constrained fiscal environment, it will be 
crucial that all resources are employed to their fullest 
potential. In this austere budget setting, issues of project 
management and corporate governance are increasingly vital to 
the success of the department's mission. The department must 
follow through with strong leadership and fundamental 
management reform, and failing to do so will significantly 
inhibit the execution of this mission, as well as the 
department's credibility.
    I hope that you will take some time today to update us on 
your actions in this regard, and I look forward to our 
discussion today.
    Finally, Mr. Huizenga, I would like to thank you, your 
staff, and OMB--and yes, you heard that correctly, OMB--for 
partially addressing my concerns about Portsmouth funding. Last 
year, the site had a $44 million shortfall, in large part 
because of reduced proceeds from uranium tailings. And I worked 
with the chairman and our Senate colleagues to ensure that 
layoffs due to funding shortfalls in 2014 would not occur. The 
budget request for 2015 has increased appropriated funding for 
the site by $22 million in recognition of the softness in the 
uranium market.
    As you know, the site is not in my district, but it is in 
my state, in one of the highest unemployment counties in the 
country. Ohio cannot afford additional job losses, and I 
appreciate your attention to these concerns as we move forward 
on many fronts, certainly in the strategic battles arena.
    Thank you, Mr. Chairman, for the time, and we look forward 
to your testimony.
    Mr. Simpson. Thank you.
    Mr. Huizenga.
    Mr. Huizenga. Thank you, Mr. Chairman. Good morning to you 
and to Ranking Member Kaptur and other members of the 
Subcommittee. I am pleased to be here today to represent the 
Department of Energy's Environmental Management Program, to 
discuss the many positive things that we have been doing under 
this program, what we have achieved, and what we plan to 
accomplish with the 2015 budget request.
    The request of $5.62 billion will allow the Environmental 
Management Program to continue the safe cleanup of the 
environmental legacy brought about from five decades of nuclear 
weapons development and government-sponsored nuclear energy 
research. The request, as you noted, Mr. Chairman, includes 
$4.865 billion for defense cleanup activities and $463 million 
for the defense contribution to the UED&D fund, should Congress 
reauthorize the fund. The request also includes $531 million 
for the Uranium Enrichment Decontamination and Decommissioning 
cleanup activities, and $226 million for nondefense 
environmental cleanup activities.
    EM continues to pursue its cleanup objectives guided by 
three overarching principles. Most importantly, we will 
continue to discharge our responsibilities by conducting 
cleanup with a safety-first culture that integrates 
environmental, safety, and health requirements and controls 
into all of our work activities. After safety, we are guided by 
a commitment to comply with our regulatory and our legal 
obligations. And finally, to be good stewards of the financial 
and natural resources entrusted to us.
    This year marks the 25th anniversary of the Environmental 
Management Program, and we have achieved a great deal in that 
time. When EM was created in 1989 as Representative Kaptur has 
just pointed out, it was charged with cleaning up 107 sites 
across the country with a total area equal to Rhode Island and 
Delaware combined. In the 25 years since, EM has completed 91 
of those sites and made significant improvements and progress 
on the remaining 16. Sites like Rocky Flats in Colorado and 
Fernald in Ohio, both of which were once housing large 
industrial complexes, are now wildlife preserves that are also 
available for recreational use.
    In December, at the East Tennessee Technology Park in Oak 
Ridge, we completed the demolition of the K25 building. With 
the congressmen, we were able to spend some time together 
seeing the progress we made on what was once the largest 
building under one roof in the world.
    The President's 2015 budget request will allow us to 
continue to make significant progress in our ongoing cleanup 
mission. To provide just a few specific highlights of what we 
will do with the 2015 request, with these funds we will 
complete the treatment of 900,000 gallons of high-level liquid 
waste in Idaho. They will allow us to empty the four remaining 
sites' aging waste storage tanks. We will continue construction 
of the waste treatment immobilization plant which will allow 
progress to immobilize the Hanford tank waste into a solid 
glass form for permanent disposal.
    Consistent with the department's objective to immobilize 
that waste as soon as practicable the 2015 budget includes 
funding for the preliminary design of the low activity waste 
pretreatment system. We will also complete clean up of the bulk 
of the more than 500 facilities along the Columbia River. At 
Oak Ridge in Tennessee, we will complete the preliminary design 
for outfall 200 mercury treatment facility, while continuing to 
develop the technologies needed to ultimately characterize and 
remediate mercury in the environment. And at the Savannah River 
site in South Carolina, we will immobilize and dispose of over 
a million gallons of liquid tank waste and bring the site's 
high-level waste mission to approximately 50 percent 
completion.
    Before I close, I would like to update you on the situation 
at WIPP. I'm sure you know, we have had two recent safety 
events at the facility. The first occurred on February 5, when 
flammable residues on the surface of a salt truck did catch 
fire. The second occurred late in the night of February 14th. 
It was a radioactive contamination event in which some 
contamination became airborne underground. Although no one has 
been harmed by either event, we take both very seriously and 
are committed to identifying, acknowledging, and fixing any 
underlying shortfalls in our policies or practices. In the 
meantime, the contamination event does have the potential as 
you noted to potentially affect other sites where they are 
currently packaging transuranic waste for disposal at WIPP. We 
are working to assess potential impacts and make contingency 
plans to mitigate those impacts when necessary.
    In closing, I am honored to be here today representing the 
Office of Environmental Management. EM is committed to 
achieving our mission and will continue to apply innovative 
cleanup strategies to complete our work safely, on schedule, 
within cost, thereby demonstrating a value to the American 
taxpayers. We have made significant progress in the last 
quarter century, and our 2015 budget request will allow us to 
capitalize on our past investments and successes.
    Thank you, and I will take any questions that you may have.
    [The information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Mr. Simpson. Thank you. And I appreciate you being here 
today, and I appreciate the work you have done at the 
department in EM. You have done some great things. You are 
right; we have cleaned up a lot of sites. I jokingly, or half-
jokingly, told them when I was down at Rocky Flats that we did 
not really clean up Rocky Flats, we just shipped it to Idaho. 
But, I mean, that is what we do, and we are doing the work 
there to get it to its----
    Mr. Huizenga. At the time it made sense.
    Mr. Simpson. That is right. And it still does. It is a 
great job to see Rocky Flats now versus what it was some time 
ago, and those are expensive and long-term projects to get 
those done.
    Let us talk a little bit about WIPP. Can you give us an 
update on where we are on that? Any indication yet of what 
happened? Any indication of how long it might be closed down, 
and more specifically, for this Committee, any indication on 
what it is going to cost us? Because I suspect there is going 
to be an additional cost that is going to come to this 
Committee that is not reflected in the current budget because 
obviously this happened after the budget submission. What is 
the outlook for that? And also in that question, what will the 
impact be on state agreements that we have with a variety of 
states?
    Mr. Huizenga. Well, in terms of the status, you know, we 
have been down in the mine twice. We went down the air intake 
shaft and down the salt shaft, and we have established in a 
sense a clean zone in the mine. If you can kind of imagine, the 
contamination event happened over where the waste was being 
emplaced, or at least we believe that is where it was likely to 
happen. And the ventilation pulled the air through a specific 
drift, up the exhaust shaft, through the HEPA ventilation 
filters. So there are other areas where we had hoped would be 
uncontaminated, and indeed, we have gotten down into those 
areas and they are uncontaminated. There are other doors and 
ventilation ducts and systems that could have vented that 
contaminated air up the shaft. So there will be some part of it 
that is probably contaminated, but so far we have been able to 
enter places that are not contaminated. We are going in now, 
probably in the next week or two, go down and proceed to the 
waste face and try to actually understand what happened. Until 
we really get there, we are not going to know for sure how long 
it is going to take us to recover from the incident. So I do 
not have a good answer for you right now, but in the next week 
or two, we should actually be able to go down, understand what 
happened. We are already drawing up contingency plans, such 
that if we see that there was some partial roof collapse or 
something happened to puncture one of the drums, we will be 
able to understand what to do with that. We are working with 
the Idaho National Laboratory, as a matter of fact, to look at 
decontamination activities and possible techniques that we can 
use to either put shotcrete on the walls to fix any 
contamination that might be there or some other ways to clean 
it up. So we are progressing in a safe and responsible manner 
to basically understand what the problem is.
    What that might do to overall regulatory commitments that 
we have in the state of Idaho or the state of Tennessee and 
other places, I do not know exactly again because we do not 
know the cause. We do not know exactly how difficult it is 
going to be to recover, but I do know that in Idaho, we have 
been working with the contractor and with the federal managers 
there. They are continuing to package transuranic waste right 
now. They have several months' worth of storage capability 
onsite. Should we find ourselves in a situation where they are 
going to run short on space, we hope to be able to make the 
case to the regulators to allow us some additional permitted 
space to continue to store at Idaho. I have been working with 
the leadership down there in Tennessee. They are continuing to 
package contact-handled waste. It is likely to have some impact 
on our ability to package the remote-handled waste, and that is 
because the contact-handled waste, you know, we can package it 
up and we can store it onsite. The remote handled waste, 
generally, we like to package that up and send it to WIPP as 
soon as possible. So we are looking at the possibility of 
juggling the schedule there a little bit. We will have to work 
with the regulator. But again, all of this will be clear in the 
next week or two when we get down to the waste phase and 
understand what the real situation is.
    Mr. Simpson. So we do not know yet or have any idea yet 
about what the potential cost is--bigger than a bread box, 
smaller than a space shuttle, somewhere in there?
    Mr. Huizenga. It is going to be bigger than a bread box.
    Mr. Simpson. Will you have to submit anything--because, I 
mean, we are in a stage here where we are going to probably be 
marking up our bill in a month, month and a half, something 
like that, six weeks or so from now. Do you think you will have 
some estimates on what the cost is? Or will you have to submit 
a reprogramming request to the Committee? If so, how will that 
reprogramming request, if it is for however much, affect the 
other programs at the other sites?
    Mr. Huizenga. Because we expect to get down there in the 
next couple weeks, I would think that we should be able to 
start to formulate an estimate of what it will cost. It is 
going to take some time, but within this time period and while 
you are marking up, we should be able to get back to you.
    Mr. Simpson. Well, I would encourage you, and I know you 
are very good at this, so it probably does not need the 
encouragement, but keep the Committee informed and the staff 
informed when you get down there and find out what the 
challenges are that we face and what we might have to do and 
what the potential costs might be so that we can address it 
together.
    Mr. Huizenga. Sure.
    Mr. Simpson. I appreciate that.
    Mr. Huizenga. Absolutely.
    Mr. Simpson. Marcy.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Huizenga, I wanted to ask you first if you could 
explain in terms the American people can understand the nature 
of the cleanup that has already been done. I need the big 
frame. The nature of the cleanup that has already been done 
since the program started, I think, in 1989, 107 sites down to 
16 sites now. But I am interested in the volume of material in 
key categories that has been transferred and properly stored or 
disposed of and what remains to be done. There are some that 
say that the worst of the cleanup remains ahead of us, not 
behind us. And my second question really is after talking about 
the transuranic material and other major categories of material 
that are necessary to move and accommodate, I am interested in 
a time horizon. At your current level of funding, how long 
would it take us to, by your best guestimate, deal with the 
remaining cleanup sites, the 16 sites that you have outlined. 
Your testimony, essentially, and the backup material I have 
goes by site but it really does not group it by material. You 
do give the miles, the square miles figure, reducing--in your 
testimony today I think you said--oh, and I have to go back 
here--931 square miles down to 300 square miles, but there 
could be a lot of material on those 300 square miles. And so I 
am wondering if you could put it in more of a summary context 
for those who are listening and for the record, please.
    Mr. Huizenga. Okay. I will give it a whirl. It is 25 years' 
worth of a lot of stuff. But, I mean, I can tell you that we 
started, for instance, with the Rocky Flats material and other 
materials that were at Idaho and Tennessee and other--Savannah 
River. We started packaging up the plutonium and the uranium 
early on to make sure that it could be stored safely.
    Ms. Kaptur. So those were the two top categories first?
    Mr. Huizenga. Those are the two top categories, and those, 
that plutonium and uranium, is 100 percent safely stored now. 
So it is packaged up in stainless steel containers and safely 
stored. So we completed that.
    Ms. Kaptur. And can you state for the record the volume? If 
you do not have it, supply it.
    Mr. Huizenga. Yeah. There are 5,089 containers, but I will 
have to get for the record what volume that would actually be 
in. Of the uranium, there are 107,000 kilograms of bulk 
material.
    So that was one important--from a safety standpoint, we 
needed to take care of that early on, and that is taken care 
of. Now, we are in the process of packaging up transuranic 
waste. From a transuranic waste standpoint, from the contact, 
there's contact-handled and remote-handled. From a contact-
handled standpoint, we are roughly 60-ish percent through 
packaging up the legacy contact-handled transuranic waste.
    Ms. Kaptur. Is that on several sites?
    Mr. Huizenga. That is across the complex. Yeah. Some sites 
are farther along than others. The Savannah River site, we hope 
to complete the legacy material later on this fiscal year or in 
Fiscal Year 2015, and the chairman's home state will be 
packaging transuranic contact-handled waste up I think 
somewhere in the 2018 timeframe with the legacy contact-handled 
waste. And I will have to check, Congressman Fleischmann, on 
the exact schedule for Tennessee. But we are in this, you know, 
we are closing in on the contact-handled. The remote-handled is 
a little bit further behind. The remote-handled, as a matter of 
fact, we are probably only on the order of 10 percent complete. 
So from that standpoint of the category, the transuranic waste 
is 50 to 60 percent to 10 percent depending on the type of 
waste. For the high-level waste, the liquid waste, for 
instance, that we are working on at Hanford, the 56 million 
gallons of high-level waste, we are working on a new phased 
strategy to bring that facility online. I can talk a little bit 
more about that. So we have not actually solidified any of 
those 56 million gallons. At West Valley, we solidified all of 
the high-level waste. And at Savannah River, we have solidified 
almost 50 percent of the high-level waste.
    Ms. Kaptur. Are those the only two places you have it?
    Mr. Huizenga. There are four places where we have liquid 
high-level waste. West Valley is done. Savannah River is 
roughly half done. Idaho, we are going to finish the 900,000 
gallons of liquid waste later on this year or in early fiscal 
2015, and Hanford would be in a sense the long pole in the 
tent, and we will be working on that for probably the next 40 
or more years.
    In that respect, from timing you asked to overall 
schedules, it varies. In Tennessee, we are about done cleaning 
up the gaseous diffusion plants. We will be done in the 2020 
timeframe, I think, someplace in that ballpark. And in 
Portsmouth, your home state, we are not as far along because we 
got that facility back from USEC later than we got the 
facilities in Tennessee. And in Paducah, in Kentucky, you know, 
we are about to transfer the Paducah gaseous diffusion plant 
back to the Department of Energy later on this year or early in 
Fiscal Year 2015. So we really have been making some progress 
on groundwater cleanup and soil contamination cleanup at 
Paducah, but we have not really started our D&D activity. And 
that is likely to take several years, maybe a decade or more to 
actually complete those activities at Portsmouth and Paducah.
    Ms. Kaptur. So plutonium, uranium, transuranic high-level 
waste. Any other categories?
    Mr. Huizenga. Low-level waste is another category. So we 
dispose of low-level waste. Oftentimes, we dispose of that 
onsite, and sometimes we ship that to our site in Nevada. And 
we are on the order of 75 percent or so completed with a 
disposition of our low level waste.
    Ms. Kaptur. I think that it would be very helpful, and I am 
sure you have the material, I just do not have it, if you could 
supply that information to the record.
    Mr. Huizenga. I certainly could.
    Ms. Kaptur. Okay. And we will proceed. I will let Mr. 
Fleischmann speak and then I have another question.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman, and Mr. Huizenga, 
thank you for being here with us today.
    Let me say this to begin. Thank you. Dave, you took over at 
a tough time. This is a very difficult job. You have been 
exceedingly hands-on at Oak Ridge. Our community appreciates 
this. I appreciate this. Mr. Whitney, the gentleman on the 
ground there who works with you, is always very responsive. And 
as you know, we have decades' worth of work to do at Oak Ridge, 
and I am committed, I am passionate about getting environmental 
cleanup of our legacy waste done. So I thank you.
    You alluded to, Dave, in your opening remarks about the K25 
plant. In December, we gathered to see what was, at one time, 
the largest building in the world, the K25 plant, where 
thousands of folks came and won World War II, won the Cold War, 
and we saw that building come down. That was a historic 
occasion, and it was very meaningful for us.
    I have some questions following up. UCORP is well on its 
way to removing the highly contaminated buildings so that the 
site can be turned into productive use. I have been briefed by 
the contractor--I am sorry, UCORP is the contractor--I am 
briefed by them that the closure of the cleanup site is within 
reach.
    My first question though is why did the budget request cut 
funding at a time when so much progress is being made, sir?
    Mr. Huizenga. Well, in a sense we did make the progress on 
K25 and that allowed us to produce the funding. You know, we 
are going to turn our attention now to K31 and K27, but we have 
also worked with the contractor and recognize that we can make 
a smooth transition of the workers from K25 into K31 and 
ultimately onto the bigger facility, K27, perhaps later on in 
2015 or early in 2016. And so we are trying to actually work on 
a long-term smooth opportunity to transition workers from one 
facility to the other.
    Mr. Fleischmann. Sir, does it not make sense though to fund 
the D&D work at the prior year level and have a major site 
completed? Will this not save money in the long run by reducing 
the overhead costs? Clearly, if you short fund it and it takes 
longer to get done, ultimately, the project is going to cost 
more. I would like you to respond to that, please.
    Mr. Huizenga. You are right. Absolutely, we could reduce 
our life cycle costs if we had some additional funding, but we 
are trying to--we have got regulatory commitments and 
agreements across the complex, and with the resources that we 
have, we are trying to make an equitable distribution to make 
sure that we are making steady progress at all the sites.
    Mr. Fleischmann. Okay. My distinguished colleague, the 
ranking member, had asked about plutonium and uranium. I would 
like to talk about a very serious problem at Oak Ridge--
mercury. Mercury is a very serious problem. By some estimates, 
as a legacy waste, there may be as much as two million pounds 
of unaccounted for mercury at Y12. And this is a major cleanup 
mission. That obviously is one of the areas if we could get 
additional funds for ETTP and get that cleaned up, we could 
move into long-term mercury cleanup at Y12. Could you please 
give the Committee some background on this project and explain 
the timetable for this project, please?
    Mr. Huizenga. For the work that we are going to do on 
mercury?
    Mr. Fleischmann. Yes, sir.
    Mr. Huizenga. Sure. You know, we had an opportunity one of 
the times when I visited the site to announce the development 
of the 200 area outfall of the mercury treatment facility. In a 
sense, what we are trying to do is before we start major 
cleanup activities at the Y12 facility where the mercury 
contamination exists, we want to make sure that if we disturb 
the groundwater or the soil in that area, that we are able to 
capture any mercury should it get into the environment. So this 
outfall is in a sense a trap that will be put in place at a 
specific collection point so that the water that would flow 
down gradient would ultimately be trapped in here and treated. 
The mercury would be captured in the treatment facility and 
properly disposed of. So we are in a sense laying the 
groundwork for the long-term cleanup mission that you indicate 
is so important to you and to us.
    Mr. Fleischmann. Thank you, sir.
    I need to talk about building 3019. Again, for the 
Committee's benefit, we have legacy sites across the entire 
campus at Oak Ridge. And this is particularly frustrating 
because 3019 Building is at ORNL. It's been frustrating, Mr. 
Huizenga, to have a clear path forward on Building 3019 at ORNL 
and then see those plans disintegrate. Where does the 
Department stand in negotiations with Nevada?
    Mr. Huizenga. We are continuing our discussions with the 
governor and his representatives. I think we are making steady 
progress. We recently had a group of folks from Nevada go up to 
a transportation tabletop simulated exercise in the State of 
Colorado so we are working with them to help them understand 
that we do know how to transport materials; we have been 
transporting these materials safely for decades and, you know, 
we would intend to transport this material in a similarly safe 
fashion. So there are a number of things that they have asked 
for to have them become more comfortable with our proposal and 
we are working through one by one each one of these activities. 
And we are going to have, you know, continued discussion with 
them so that we can hopefully reach resolution and start 
shipping, you know, later this year.
    Mr. Fleischmann. Okay. So we are looking at later this year 
as the time frame for beginning the shipments?
    Mr. Huizenga. That is certainly our desire.
    Mr. Fleischmann. Good. Thank you. Mr. Chairman, I will 
yield back. Thank you.
    Mr. Simpson. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Good morning, 
sir.
    Mr. Huizenga. Morning.
    Mr. Fortenberry. A question for you that I have is not just 
in regard to what we have defined as clean up admission for 
your agency, but what about what we don't know? Can you give an 
estimate of what might be out there that is potentially 
harmful, environmentally impactful but is not yet identified?
    Mr. Huizenga. We got 25 years focus on this and to be 
honest with you I--of course I don't know what I don't know but 
I do know that----
    Mr. Fortenberry. But you know more than I do.
    Mr. Huizenga. And in that regard we have done extensive 
characterization at all of our sites so we know what is in the 
groundwater and we know that we got pump and treat systems in 
place at some facilities, many facilities to actually capture 
and suck these contaminated waters up and treat them and 
inject, you know, clean water back into the system. As I 
mentioned to Ranking Member Kaptur that we have packaged up our 
plutonium and our uranium; it is safely stored so we know that 
it can be stored safely for, you know, we put it in 50 year 
storage containers. We have a pretty good sense of how to 
actually solidify the glass waste at our Savannah River Plant 
and are making steady progress there. We just issued a test 
plan last week and what we hope to do from scope and schedule 
to solve the remaining technical problems on the Hanford 
Vitrification Plant. So we are starting to bring some focus and 
hopefully some closure to solving the mixing issues that have 
been plaguing us up there for the last couple of years. So I 
think we have the environment pretty well characterized, the 
material pretty safely stored that we knew, you know, might 
cause issues. And at this point the mercury issue that 
Congressman Fleischmann was talking about, there still is 
research and development that needs to be done to ultimately 
understand how to better treat and deal with mercury. So 
there's the technology development area there that we are going 
to have to spend some time and effort on.
    Mr. Fortenberry. So, by and large, in terms of the respect 
from a potential problem across the country, they are 
identified, there is a fairly clear understanding of the 
inventory of hazardous material that would fall under your 
purview and mitigation steps under way? Is that a fair 
assumption?
    Mr. Huizenga. Yes, sir. That's absolutely right. And one of 
the things that Congressman Fleischmann was pointing out is 
that, you know, there are several large facilities at the Y12 
Plant in Tennessee that we haven't actually taken over yet. So 
when we start taking those facilities apart we might learn new 
things about the mercury and how much mercury there is and on 
where it is. So there might be, you know, some issues that need 
to be dealt with in that regard.
    Mr. Fortenberry. All right. So no surprises lingering out 
there?
    Mr. Huizenga. There will be some surprises I am sure, sir.
    Mr. Fortenberry. All right. Thank you.
    Mr. Simpson. There are always surprises in this business. 
Have we pretty much completed or how far do we have to go? The 
issue is transferring facilities that need to be D&D'd to EM--
as in Idaho, the lab operations were taking care of some of 
those functions and we have been trying to transfer those 
facilities over to EM. So do we know across the country the 
scope of what EM is going to be responsible for, or is that 
still an expanding universe?
    Mr. Huizenga. We have someplace north of 5,000 facilities, 
you know, in our inventory and I forget exactly how many we are 
done with but, you know, probably in order of 3,000 of them and 
there are more. So the Y12 facilities--actually NNSA still is 
responsible for those. There are as mentioned, there are 
facilities in Idaho that the nuclear energy folks are 
responsible for. I mean it is a little hard to say how many 
more there are because for instance we were working just 
recently with senior leadership with Assistant Secretary Lyons 
to talk about the facilities in Idaho. Some he wants to keep, 
some he wants to actually take back from EM----
    Mr. Simpson. Right.
    Mr. Huizenga [continuing]. And some he wants to give to us. 
So there has been a give and take. So we know that there will 
be some back and forth at some sites and some sites the NNSA 
clearly is and will be in a position over the next few years to 
try to transfer those facilities to EM.
    Mr. Simpson. Okay. The final fiscal year 2014 budget 
provided an additional $208 million above the budget request 
for environmental cleanup activities. What has the extra 
funding been used to accomplish? And several sites have 
reported the DOE has been holding back fiscal year 2014 funds. 
Are you holding back any of these funds and if so where and 
why?
    Mr. Huizenga. We are not intentionally holding back funds 
that could actually be usefully spent----
    Mr. Simpson. Are you unintentionally?
    Mr. Huizenga. No. No, we are not doing that either. No, I 
am just trying to be truthful in that regard. Some sites are 
going to be able to--even in Idaho for instance where you gave 
us I think an additional 20 million or so and that was 
extremely appreciated, that we need to carryover a certain 
amount of money into the '15 to be able to, you know, to keep 
going at the start of the fiscal year. So we are planning on 
carrying over about the same amount next year as we did the 
last couple of years. So there will be some of those funds that 
are kind of in a normal carry over mode, but we are not trying 
to, you know, withhold any of the additional funding that you 
appropriated to get work done in this particular year.
    Mr. Simpson. Could you say what has been accomplished with 
those additional funds?
    Mr. Huizenga. I can if I can find it in this pile of paper 
here. You mean the specific--across the----
    Mr. Simpson. Across the complex.
    Mr. Huizenga. Across the complex?
    Mr. Simpson. Just generally.
    Mr. Huizenga. Well, I know that at LANL for instance we are 
using some of the funding to help us with getting the 3706 
cubic meters off the mesa, there was additional money at 
Richland and we are using that to help clean up along the 
Columbia River. There was work at Savannah River site. We are 
actually working on additional progress on the federal 
facilities cleanup activities there and there is a Facilities 
Agreement. At Portsmouth you know we are going to actually 
continue to decommission and cut and cap one of the major 
facilities. We are taking the compressors and the large 
equipment out and packaging it up and sending some of that to 
the State of Nevada for disposal. So we are using some of the 
additional funds for that as well. I think those are the major 
areas that account for the, you know, additional work that we 
are being able to do as a result of the plus out.
    Mr. Simpson. Let me talk to you for a few minutes about 
Hanford. The Department issued a draft Hanford Tank Waste 
Retrieval Treatment and Disposal Framework which describes a 
path forward for meeting Hanford's tank waste mission. You 
recently met with the State of Washington to discuss this 
framework but the State said it would need considerably more 
detail. The Department and the State of Washington have each 
put forward new proposals to modify the 2010 Consent Decree 
that governs the cleanup of the Hanford tank waste. What are 
the main differences between the Department's proposal and the 
State of Washington's proposal?
    Mr. Huizenga. Well if you don't mind if I would start with 
the main similarity which I think is extremely important.
    Mr. Simpson. Okay.
    Mr. Huizenga. We both believe that it makes sense to start 
up the large facility in a phased manner and by that I mean the 
original baseline that we had signed up to in 2010 in the 
Consent Decree was to start the entire facility up at one time, 
five major facilities starting up at one time. We now believe 
it makes sense to phase the startup. So we will start up the 
Low Activity Waste facility first because we don't really have 
any technical issues associated with that facility. The more 
complicated Pretreatment Facility and High Level Waste facility 
would be started up later in the phased nature of the proposal. 
So the State and DOE both agree it makes sense to start on the 
Low Activity Waste first and then start up the Pretreatment and 
High Level Waste facility. So in that regard there is a 
similarity.
    The State is focused on, you know, when we are going to 
start up the Pretreatment Facility and we also want to know 
when but we wanted to make a prediction and a commitment to 
starting up that facility when we have solved the technical 
problems. We think in the past we didn't clearly enough 
understand the technical complexities of mixing this 
complicated high level waste. And because we ran into some 
issues with making sure we could mix that waste safely and 
ensure that the facility was going to work over the 40 years 
design lifetime of the plant we had to take a step back. And 
now we are going to actually take a new approach, perhaps 
standardize some of the vessels in this complicated facility, 
some of the ones that haven't been installed already, and make 
them smaller. And standardization we can actually test that 
vessel to make sure that the mixing will take place effectively 
in the vessel and that way we can put the complicated mixing 
issues behind us once and for all. That is our intention right 
now.
    The State also agrees that that is, you know, important for 
us to do that; to make sure that we understand the technical 
issues and work through them in a methodical manner. So we are 
working closely with the Governor and, you know, we are hoping 
to reach some, you know, compromise perhaps between their view 
of how this should be done and ours. But fundamentally we agree 
on the strategy.
    Mr. Simpson. One of the questions that has come up is the 
fact that we have discovered new leaking tanks that are out 
there. I understand that there is a debate about whether to 
build new tanks; that the State may want us to put new tanks 
in. The Department is not necessarily in favor of that, as I 
understand, and there is concern by some members that if you do 
that then it is going to cost a lot of money and it is going to 
slow down actual cleanup process at Hanford. What is your view 
on that?
    Mr. Huizenga. Our view is that we should stay focused on 
the mission at hand. That being said part of our proposal does 
include building some new tanks; it's called the tank waste 
characterization and staging facility. These tanks would be 
useful to actually mix the waste before it is sent into the 
Pretreatment Facility. So there is some additional tank 
capability in our proposal as well and we think that the waste 
that is currently stored in the double shell tanks can be 
safely stored for the foreseeable future. We have an active 
monitoring program in place so we, you know, we put cameras 
down in the tanks in the annulus between the inner and the 
outer liner. We are watching. We do have one tank that has 
some, you know, limited seeping in this annulus but we are 
keeping a close on that and we believe that the best approach 
is to keep monitoring it and stay focused with our long term 
approach of making glass.
    Mr. Simpson. Assuming I live to the average lifespan of the 
American male will I ever see any glass manufactured there?
    Mr. Huizenga. I certainly hope so because I am not very far 
behind you and I plan on seeing some glass.
    Mr. Simpson. Appreciate it. Marcy.
    Ms. Kaptur. Thank you, Mr. Chairman. I wanted to go back to 
my first round of questioning, Mr. Huizenga. On that little 
chart you have there I see blue and I see green. We don't have 
that in our materials.
    Mr. Huizenga. You should, and I can get this to you.
    Ms. Kaptur. All right. I don't have it in mine.
    Mr. Huizenga. I am sorry.
    Ms. Kaptur. Maybe they just didn't put it in here, I don't 
know. Or maybe I haven't found it.
    Mr. Huizenga. No, I might not have given it. I'll make sure 
you get a copy.
    Ms. Kaptur. Okay. Explain what is on that chart.
    Mr. Huizenga. Explain what it is?
    Ms. Kaptur. Yes.
    Mr. Huizenga. This lists these different categories of 
material that you were talking about. It is the plutonium 
oxide, plutonium and uranium.
    Ms. Kaptur. By volume?
    Mr. Huizenga. Yes, by volume. By containers or by 
kilograms.
    Ms. Kaptur. So that is really the target? This is where we 
have----
    Mr. Huizenga. This is my scorecard.
    Ms. Kaptur. Okay.
    Mr. Huizenga. I am going to give this to you.
    Ms. Kaptur. And what is it telling us?
    Mr. Huizenga. It is telling us as I indicated we are making 
pretty steady progress in some areas. So in packaging up, 
safely storing this material, the low level waste, the contact 
handled waste. This is kind of, you know, more than half done. 
But there is also more work to be done on the high level waste 
at Hanford as we know. And you actually alluded to this year 
and last year, yes we completed 91 sites and we have got 16 to 
go but there is some tough stuff left to do at the 16 so that 
is why there is still some work to be done here on the high 
level waste side.
    Ms. Kaptur. What happens with contaminated groundwater?
    Mr. Huizenga. The contaminated groundwater is for the most 
part being either pumped and treated like a big 200 West Pump 
and Treat facility on the Hanford plateau where in a sense we 
encircle the ground water plume and put extraction wells out to 
suck up the contaminates and then to clean the water and re-
inject the water basically down into to drive stuff into the 
extraction well. So we have a process that is in a sense 
containing the ground water plumes. In Savannah River I know 
they have found ways to actually do this with passive systems, 
a way to not actually have to use the groundwater treatment all 
the time. But they have put in some french drains and different 
drainage systems to be able to actually shunt the water over 
into collection pits or collection areas or treatment 
facilities.
    Ms. Kaptur. As you look forward, and interpreting from your 
chart there, how much of the cleanup of these sites still 
remains before us? As you look at the magnitude of this, you 
must be one of the few persons in the world that would even 
understand this. How much more do we have to do?
    Mr. Huizenga. Well, in terms of years or dollars or 
kilograms?
    Ms. Kaptur. All.
    Mr. Huizenga. Okay.
    Ms. Kaptur. All of the above.
    Mr. Huizenga. Well, at Hanford we are building and have yet 
to start a facility that we are designing to run for 40 years. 
And it will have to run for 40 years in order to get the job 
done. In Idaho we are making steady progress on advanced mix 
waste treatment facility. You know, they will complete their 
work well before that.
    Ms. Kaptur. But we are not concerned about uranium and 
plutonium at Hanford.
    Mr. Huizenga. Well, we have spent fuel, uranium, plutonium 
stored safely in the canister storage building. There is a 
uranium plume that we are going to treat with a pump and treat 
system so----
    Ms. Kaptur. So when you said in your earlier testimony that 
the uranium and plutonium are pretty much put to bed, but not 
at Hanford?
    Mr. Huizenga. Well, the uranium that could be packaged is 
packaged and safely stored. The plutonium is safely stored. 
There is some uranium in the groundwater and that needs to be 
dealt with. So there are some things of nuclear materials that 
can be packaged up, but if some of these contaminants have 
gotten into the soil----
    Ms. Kaptur. Well, the greater clarity you could provide on 
the materials that need to be cleaned up that would be very 
valuable I think for us to understand more clearly and where 
that needs to be cleaned up so we can make a judgment as to 
whether it is true that over half of this has been cleaned up 
or whether it hasn't.
    Mr. Huizenga. Sure.
    Ms. Kaptur. And it lacks a little clarity at this point. I 
don't know, maybe others would disagree with me. But then it 
also permits us to think about the future and budgeting for 
what might be necessary. The figures look kind of rosy, the 
square mile figures look really rosy. Then when you get down 
into it you go from, you know, you have got 16 sites left.
    Mr. Huizenga. Yeah, I don't want to misrepresent the fact 
that those 16 sites are the easy ones. There are some 
challenges.
    Ms. Kaptur. Quite more involved.
    Mr. Huizenga. Yes.
    Ms. Kaptur. And that is what I am trying to understand, the 
magnitude of what is left.
    Mr. Huizenga. They are telling me something I already know 
but. We have on the order we think, over $200 billion in to go 
costs. If we look at each one of our sites and factor in how 
much it will cost to actually to completely D&D, the Portsmouth 
facility and that Paducah facility which we haven't even really 
taken over yet, wrap things up in Tennessee, do our work in 
Idaho, at Hanford, Savannah River, and in Tennessee, so these 
are the big sites. Then there is probably over $200 billion of 
work to be done.
    Ms. Kaptur. Okay. Can you give us an update on what you are 
doing and your progress on ensuring workers can raise safety 
issues without fear of retribution? For example in the wake of 
the termination of Donna Busche as a nuclear safety manager at 
Hanford, the Department has ordered the inspector General to 
look into these allegations. Do you know if the Department 
plans to release the results of that investigation?
    Mr. Huizenga. I honestly don't know the answer to that. I 
can check. But I do know that a serious investigation that is 
ongoing, you know--I hope that we can convince you and others 
that the Department does not tolerate retaliation. We have had 
this discussion with our contractors at the Hanford site at the 
most senior levels, with the contractor community and they know 
and they understand their contractual obligations and 
commitments to us to provide a work environment where people 
can raise issues without fear of retaliation.
    Ms. Kaptur. And how will the Department actually make--if 
in fact when the Inspector General completes the report and 
there is a report what is the process inside of DOE to release 
it or not to release it? Do you know what the process is?
    Mr. Huizenga. I honestly don't know what the process would 
be to deal with the findings. I don't know whether they would 
be confidential in nature or not, but I can check on that and I 
will definitely get back to you.
    Ms. Kaptur. We would greatly appreciate that for the 
record. I wanted to just turn again to Portsmouth. As I look at 
the funding request though the administration has increased 
funding it appears that the funding is expected to go down 
actually at that site because DOE does not plan to generate as 
much cleanup funding as last year from its Uranium Transfer 
Agreements. Could you comment on the funding that you expect to 
generate from uranium transfers at that site and how does that 
compare to the amount generated in 2014?
    Mr. Huizenga. Yeah, we hope to be able to barter a similar 
amount of, somewhere over 2,000 kilograms. But you are right, 
the price is now a function of the market and the prices for 
uranium have indeed gone down. So we won't know exactly what 
the prices are going to be. We will continue to monitor that 
and, you know, to the extent that the prices go down we will 
perhaps try to barter a little more. We have a limit on what we 
are allowed to barter within the Secretarial determination 
because we want to make sure that we are sensitive overall to 
the market impacts. But we have the ability to make some 
adjustments if needed.
    Ms. Kaptur. All right. And could you explain at the 
Portsmouth facility it appears there is a 33 percent cut in 
security funding from $12.5 million to $8.5 million for this 
next fiscal year and actually we have had a transition as you 
know from security at USEC to the Department of Energy itself. 
Do you know why there would be such a steep reduction in 
funding for safety and security?
    Mr. Huizenga. I do know we are working closely with the 
contractor. The request for safeguards and security is similar 
actually to our '14 request. So you are able to give us a 
little bit more in the '14 appropriate than we actually had 
initially requested. So our '15 request is similar to our '14 
request and we are taking advantage of the additional funding 
to beef up some of the security issues. But in the long run we 
think we are going to be fine with our '15 request level. We 
are actually looking at maybe adjusting some of the fence lines 
and the guard posts if possible. And although we haven't made 
final decisions on ways to actually make that less expensive if 
possible but still secure.
    Ms. Kaptur. Thank you for that clarification. My last 
question will be a homework assignment and that is if you would 
kindly prepare an addendum to your testimony that could explain 
to the American people in language they can understand what we 
have accomplished in terms of cleanup and what lies ahead with 
all the factors we discussed, the square miles, the actual 
volume of which material. Mr. Fleischmann mentioned mercury. I 
don't know if mercury is on your list but if you could kindly 
give us a greater clarity. Not 100 pages of reply, 3 at the 
most.
    Mr. Huizenga. Okay. That is a challenge.
    Ms. Kaptur. Then I think we would better be able to--you 
mentioned $200 billion looking down the road over what period 
of time. I think that big picture summary would be very 
valuable to the community.
    Mr. Huizenga. We have, in that regard, had some other 
discussion with folks about this, we have binned the $200 
billion to go costs into various bins so we do already have a 
sense of about 60 percent of that money would be spent on 
finishing the high level waste, making glass logs out of the 
liquids, and the associated D&D work that would be done at 
Portsmouth and Paducah and wrapping up the major 
decommissioning work at Tennessee. So we have some granularity 
on that already and so I will make sure that we include that 
into the record.
    Ms. Kaptur. And give yourself credit and all those 
associated with you and all contractors for what has been 
accomplished. I think has got to be made a little more clear as 
well.
    Mr. Huizenga. Excellent.
    Ms. Kaptur. Thank you. Thank you very much. That ends my 
questioning.
    Mr. Nunnelee. The Chairman stepped out, so let me drive the 
train. So I get to recognize myself. Mr. Huizenga, the 
Department submitted a request for interest for use of DOE 
facilities and stockpiles of depleted uranium to support new 
emissions at Paducah. Last fall you announced you had selected 
a reuse proposal submitted by GE Hitachi. So under what general 
terms would GE Hitachi reinvest in Paducah and can you give me 
an outline for how this arrangement is going to function?
    Mr. Huizenga. Well, sir, we are in the process of 
negotiating the contracting details with GLE right now. As you 
noted we did enter into these discussions I think just shortly 
before Thanksgiving of last year and we are now currently 
discussing things with state and local government relative to 
ultimately where the facility will be placed, what land will be 
placed. Probably next to the actual DOE site and there are some 
land use issues that we are working through in that regard 
right now to make sure that the proper use of the--the land is 
set aside for use in some manner and we want to make sure it is 
well preserved or we swap some land that maybe if we take that 
land we use some other land for preservation. So those 
discussions are ongoing right now.
    Mr. Nunnelee. All right. So based on all that, in what 
timeframe could a laser enrichment facility become operational 
in Paducah?
    Mr. Huizenga. I will have to get back to you for the exact 
date of when--when the facility will actually be up and 
running? Is that what you are----
    Mr. Nunnelee. Yeah.
    Mr. Huizenga [continuing]. Trying to clarify? I don't have 
that date in my head.
    Mr. Nunnelee. If you could get us that.
    Mr. Huizenga. Yes.
    Mr. Nunnelee. All right. So if this doesn't go through 
right away, will you begin the decontamination work or where 
will that leave you?
    Mr. Huizenga. At Paducah in general?
    Mr. Nunnelee. Yes.
    Mr. Huizenga. Well, we hope to do these things in parallel.
    Mr. Nunnelee. Okay.
    Mr. Huizenga. So let us be clear. We have got three things 
going on, or ultimately we will have three things going on 
parallel. We will start the surveillance and maintenance of the 
facilities once we take them over which will ultimately lead to 
the D&D of those major facilities. We will be pursuing this 
work with GLE so that we can take some of the TALEs and re-
enrich them, and we will continue probably with the very low 
assay TALEs that are not of interests to GLE. We will continue 
to process those through the DUF6 conversion plant which is up 
and running on site both there and at Portsmouth. So we will 
have the three parallel activities going on. GLE will 
ultimately need to license this facility with the NRC and I 
don't suspect that there will be problems with that but that 
will take some time and that will have to be factored into when 
the facility will ultimately be up and running.
    Mr. Nunnelee. Miss Kaptur.
    Ms. Kaptur. My question is complete.
    Mr. Nunnelee. Do we have anybody else? Let me check on the 
Chair. Oh, there we go.
    Mr. Simpson. We are back. Who is next? Marcy, do you have 
anything else you would like to ask?
    Mr. Huizenga. She gave me a homework assignment, Mr. 
Chairman.
    Mr. Simpson. I want to make him sweat somehow.
    Mr. Huizenga. You do this every year, sir.
    Mr. Simpson. Okay. Back to WIPP. In 2014 the omnibus 
provided additional funding above the request specifically to 
address deferred maintenance at WIPP yet your budget 
justification states you plan to spend only $10 million total 
on maintenance in 2014, $2 million less than last year's plans 
despite having those additional funds. The accident 
investigation of the salt truck fire concluded that failure to 
conduct adequate periodic maintenance on the truck was the root 
cause of the fire. The Department has still not completed all 
corrective actions it said it would in response to a letter 
sent by the Defense Nuclear Facilities Safety Board back in 
2012 identifying poor maintenance practices at WIPP. What are 
your plans to address the maintenance problems in the site and 
do you think there are needs for a greater emphasis on 
improving maintenance at the site?
    Mr. Huizenga. Yes, I do think that we need to improve 
maintenance at the site. I mean you are correct, the accident 
report for the fire investigation indicated that we need to 
improve our practices. We have had discussions with the 
contractor. They clearly understand and acknowledge this and 
are in the process of already implementing changes to their 
procedures. Overall as you know, a percentage of the WIPP 
budget we have actually increased, from 2009 to 2013 we have 
increased our relative spending by about 32 percent on 
maintenance. So I think we are trending in the right direction 
and you might be right that in light of what we are finding now 
we may have to increase our spending somewhat in the remainder 
of '14 and in '15.
    Mr. Simpson. Press reports have stated that the Department 
is continuing to negotiate the terms for the commissioning and 
start up of the salt waste processing facility at the Savannah 
River site that must be done before a new performance baseline 
for the project can be established. Previous reviews of the 
project have included warnings that DOE's failure to negotiate 
the contract by now past deadlines would have serious impacts 
on the project. Why have there been so many delays on 
finalizing the contract and establishing new baselines? How 
much have these extended negotiations cost the DOE in terms of 
schedule slippage? You've been negotiating for several years--
years now. Do you have a timeline of when you expect to have an 
agreement?
    Mr. Huizenga. Well, we broke the negotiations into two 
phases. So we renegotiated the construction part of the 
contract which is the active phase that we are in right now. 
And we wrapped those up with the ultimate construction complete 
date of December 2016 and the actual construction itself is 
going quite well at the moment and we hope to actually beat 
that date. The contract negotiations that we are currently 
involved in are for the next phase post construction in the 
commission phase and in the initial start up and operation of 
the facility. So we haven't actually lost anything on schedule 
because we are taking our time to negotiate this next phase of 
the contract.
    Mr. Simpson. Okay.
    Mr. Huizenga. And we are trying to make sure that we are 
striking the right balance between having a contractor being 
able to make a profit but taxpayers being able to not bear an 
unnecessary burden of the ultimate cost.
    Mr. Simpson. The original performance baseline projected 
that construction would be completed in 2014 at a cost of $1.3 
billion. That included the construction portion as well as the 
start up and commissioning. In the budget request you report 
that the Deputy Secretary approved a growth in contract cost of 
$330 million. Do you anticipate further growth beyond the $330 
million?
    Mr. Huizenga. That is what we are in the thick of right 
now, sir. I mean we are trying to actually figure out that was 
for the construction aspects and you know that was in part due 
to the 10 large vessels that we have procured and were 
delivered late. So we had to recover from that. I can't give 
you a sense of how this next phase is going to turn out because 
we are really making the sausage right now.
    Mr. Simpson. Yeah. You done, Marcy?
    Ms. Kaptur. Yes.
    Mr. Simpson. If there is nothing else then I thank you for 
being here today. We have kind of taken it easy on you.
    Mr. Huizenga. Thank you.
    Mr. Simpson. But you have a very important job and you have 
done a very important job over the last two years and we thank 
you for the work that you have done for the country and for the 
EM portion of the Department of Energy. And I do think we are 
moving forward. There are challenges and there will always be 
challenges as we learn new things in this arena. But I look 
forward to--that new Undersecretary has been nominated?
    Mr. Huizenga. Okay. A new Undersecretary has been nominated 
and a new Assistant Secretary has actually been nominated for 
the EM job.
    Mr. Simpson. And those nominations are?
    Mr. Huizenga. Taken through appropriate time.
    Mr. Simpson. In the body across the rotunda I guess.
    Mr. Huizenga. Yeah.
    Mr. Simpson. We actually get things done over here. I 
shouldn't say that--but anyway I appreciate it and thank you 
for being here today. I look forward to working with you as we 
try to complete this budget process.
    Mr. Huizenga. Yeah.
    Mr. Simpson. And make sure you keep us informed of what is 
going on at WIPP and what the potential impacts on our budget 
are going to be.
    Mr. Huizenga. It has been an honor. I have worked with you, 
Mr. Chairman, and, you know, Representative Kaptur it's almost 
three years, it is not two years, it is almost three years now.
    Mr. Simpson. Yeah, that is true.
    Mr. Huizenga. So we have got a lot done with your support 
and there is more to do and we certainly appreciate your 
continued focus on the EM program. Thank you.
    Mr. Simpson. Thank you. We are adjourned. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                           Tuesday, March 25, 2014.

                 APPLIED ENERGY FUNDING FY 2015 BUDGET

                               WITNESSES

DAVID DANIELSON, ASSISTANT SECRETARY, ENERGY EFFICIENCY AND RENEWABLE 
    ENERGY, U.S. DEPARTMENT OF ENERGY
PETE LYONS, ASSISTANT SECRETARY, NUCLEAR ENERGY, U.S. DEPARTMENT OF 
    ENERGY
CHRISTOPHER SMITH, ACTING ASSISTANT SECRETARY, FOSSIL ENERGY, U.S. 
    DEPARTMENT OF ENERGY
PATRICIA HOFFMAN, ASSISTANT SECRETARY, ELECTRICITY DELIVERY AND ENERGY 
    RELIABILITY
    Mr. Simpson. Welcome this morning to the hearing. The 
hearing will come to order. Let me just state that there is 
about five or six other hearings going on at the same time for 
Appropriations Committee members, so I suspect that you will 
see people running in and running out and back and forth during 
the hearing.
    But I would like to welcome our witnesses, Dr. David 
Danielson, Assistant Secretary for Energy Efficiency and 
Renewable Energy; Dr. Pete Lyons, Assistant Secretary for 
Nuclear Energy; Pat Hoffman, Assistant Secretary for 
Electricity Delivery and Energy Reliability; and Christopher 
Smith, Acting Assistant Secretary for Fossil Energy.
    But before I begin, and before we get started, I would like 
to take a moment to say how much I look forward to working with 
Ranking Member Kaptur and all the other members of this 
subcommittee. I have been a member of this subcommittee for 
about 10 years, and I have great appreciation for the 
importance of the issues under its jurisdiction. This is the 
first hearing that I have actually chaired as chairman of this 
subcommittee, so it is a new role for me. And I look forward 
to, as I said, working with our ranking member and for her 
valuable input on this Department.
    Your programs account for more than $3.8 billion of the 
Department's budget request for fiscal year 2015. I must note 
that while the request is more balanced than last year, the two 
accounts, Nuclear and Fossil, which Congress increased last 
year, received reductions. To the extent that the President is 
serious about an ``all-of-the-above'' energy strategy, I would 
hope that this is the last year we see this imbalance in the 
request. Not surprisingly, I know the work funded by Nuclear 
Energy the best, but I also know the importance that these 
programs hold, not just for the American industrial 
competitiveness but also for the comfort, safety, and well-
being of all of our constituents.
    As Assistant Secretaries, you have both managerial and 
leadership roles to the people and programs under your 
responsibilities. I am sure you will agree that these can be 
distinct from each other, but both require a strong vision of 
your mandate and operation. Unfortunately, simply reading your 
budget request does not give me much insight into the vision 
each of you has for your programs. This is a question which I 
will ask Secretary Moniz to cover for the Department overall, 
but I expect that you will be able to provide us with your 
answers today.
    Given the number of opening statements which we have before 
we get into questions, I will keep this short, and I will ask 
that each of you do the same. Please ensure that the hearing 
record, questions for the record that include supporting 
information requested by the subcommittee are delivered in 
final form to us no later than 4 weeks from the time you 
receive them. Members who have additional questions for the 
record will have until close of business tomorrow to provide 
them for the subcommittee office.
    And I will say that this is kind of an accelerated hearing 
schedule that we are having throughout all of the appropriation 
bills, because we are going to actually try something new this 
year in both the House and Senate, and that is to do our job 
and do it on time, and try to get appropriations done so that 
you know what your budget is going to be when the first of the 
fiscal year rolls around. So we are having accelerated hearings 
in all of the subcommittees, which brings a lot of conflicts 
going on for members as we try to get this done.
    But I think the hearing schedule should be complete by the 
middle of April and we will be done with that and then we will 
start marking up appropriation bills and try get them to the 
floor. And, of course, a lot of it depends on the floor time 
that is available in the House and the Senate.
    So with that, I will turn to my ranking member, Ms. Kaptur, 
for her comments.
    Ms. Kaptur. Thank you, Mr. Chairman. And I must say that it 
is a pleasure to work with a regular-order member who wants to 
get the job of this subcommittee, full committee, and the 
Congress done on schedule. And perhaps even early.
    It is a distinct honor to welcome Dr. Danielson. It is good 
to see you again. Thank you for your hard work.
    And, Dr. Lyons, thank you so very much for being here 
today.
    And Secretaries Smith and Hoffman, thank you all for coming 
today and updating our subcommittee on your programs.
    I have long cited America's reliance on foreign energy as a 
grave economic and primary national security concern. Over the 
last decade, the people of our Nation have spent $2.3 trillion 
on importing and consuming foreign oil, predominantly, 
diverting our wealth and job creators to some of the worst 
global players at the expense of our own citizens and nation. 
The recent events in Ukraine provide an abject lesson, lest we 
forget our own country's challenges on the strategic importance 
of reliable energy in defending the borders of sovereign 
nations. The dependence of Ukraine and much of Europe on 
Russian energy imports have complicated the international 
response to Russia's illegal invasion of Crimea.
    With this in mind, Secretary Smith, I hope that you can 
help us understand the circumstances surrounding the 
availability of our country's resources and the implications of 
exporting these assets. And we will have more in the question 
period on that.
    And further, somewhat parochially, I would like to explore 
what you can tell us about the coastal infrastructure for 
export, including in the Great Lakes region; that coastline, 
the longest in our country, actually.
    I represent a part of the Nation that has worked very hard 
to develop all sources of energy, from the photovoltaic silver 
manufacturing in the Toledo region, including launching the 
first solar company that is doing quite well right now; oil 
refining at Oregon Nuclear Energy in Oak Harbor; and offshore 
wind, hopefully, in Lake Erie, advanced batteries in Cleveland. 
And our State is now experiencing a boom of natural gas 
exploration in eastern Ohio. But by and large, our region 
competes in the harshest of free markets. It is a merchant 
economy with no historic record of Federal subsidy for either 
energy or power. We lack the directed manages and engagement of 
a national lab driving regional development and innovation or a 
power authority providing subsidized power to our homes and 
businesses.
    For my district and State, energy supplies a significant 
financial strain on the citizens and businesses striving to get 
through each day. So I am particularly interested in policies, 
expert innovation, investment, and drive down costs and support 
regional energy equity.
    I suspect today you will address how each of your programs 
is meeting Nation's challenges related to our energy sector in 
an era of budget austerity. I am focused on understanding the 
technological challenges that face each of these sectors so 
that collectively, we can make informed and wise decisions to 
shepherd our resources towards those areas with the largest 
return.
    Dr. Danielson, finally--and I just left a meeting of the 
Steel Caucus. The Advanced Manufacturing Office came up during 
the question period. You are at the forefront of reinvigorating 
our country's manufacturing capability, an issue of intense 
national importance. As our Nation has lost about a third of 
its manufacturing jobs and the middle class shrinking because 
of it, I am very concerned about indications that America is 
losing her competitive advantage in many emerging energy 
technologies. And interested to hear about opportunities to not 
only remain competitive, but restore our position as the global 
leader in new energy technology.
    So we look forward to hearing how we can protect our 
investments in research and development, intellectual property 
poaching to protect our investments in research and development 
for intellectual property poaching and ensure that our efforts 
further domestic manufacturing rather than commercialization 
overseas.
    I thank you, Mr. Chairman, for the time and look forward to 
the testimony.
    Mr. Simpson. Thank you. And before we turn to you for your 
testimony, let me make an announcement. We have had an addition 
to our Energy and Water staff born last week. Rob is a new 
father of Afton Riggs, and we are very proud to have a new 
Energy and Water Appropriations staff member here. And we 
actually had a flag flown over the Capitol in his honor so that 
when he gets to be 20, 25 years old you can say, yeah, the old 
man did that. So congratulations.
    Mr. Blair. Thank you very much.
    Mr. Simpson. Dr. Lyons, we will start with you first.
    Mr. Lyons. Thank you. Chairman Simpson, Ranking Member 
Kaptur, and members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the 
President's fiscal year 2015 budget request for the Office of 
Nuclear Energy at the Department of Energy. This past year has 
been an historic one for nuclear energy. Construction of the 
first new nuclear builds in this country in more than 30 years 
continued with completed base map foundations for two new 
reactor units at V.C. Summer in South Carolina and two new 
plants at Plant Vogtle in Georgia.
    Last month, the Secretary announced that two of the owners 
of Plant Vogtle would receive a $6.5 billion loan guarantee. 
New nuclear builds, in addition to the currently operating 
nuclear power fleet, play an important role in President 
Obama's Climate Action Plan to reduce greenhouse gas emissions 
as well as achieving American energy independence.
    While we are celebrating new nuclear construction in South 
Carolina and Georgia, we must also look ahead to the future of 
nuclear reactor technology. In 2013, the Office of Nuclear 
Energy announced a second funding opportunity announcement, or 
FOA, to execute cost-shared, first-of-a-kind engineering and 
design development work to help accelerate the timelines for 
commercialization of small modular reactors.
    In December, we selected NuScale power under this FOA for a 
licensing technical support award. For this FOA, we solicited 
innovations that can improve safety, operation, and economics 
through lower core damage frequencies, longer post-accident 
coping periods, enhanced resistance to hazards presented by 
natural phenomena, and potentially reduced emergency 
preparedness zones, or workforce requirements.
    These new small modular reactors, as well as the 
Westinghouse AP 1000 reactor, are designed with passive safety 
features to minimize any requirement for prompt operator 
action, and prevent auxiliary system failures from contributing 
to future accidents. Passive safety further enhances the safety 
of nuclear power plants.
    Another essential research development on the horizon in 
fiscal year 2015 is the planned restart of the Transient Test 
Reactor, or TREAT at the Idaho National Laboratory. Transient 
testing will enable our programs to understand fuel performance 
as well as provide a capability to screen advanced fuel 
concepts, including accident-tolerant fuels, which allows for 
early identification of the limits of fuel performance.
    Finally, although this year has brought many exciting 
developments in new nuclear power construction and 
technologies, it has, unfortunately, also been a year of 
unprecedented nuclear power plant closures. The shutdown of 
these power plants is a significant loss of low carbon 
electricity. Beyond emission, these closed nuclear power plants 
are a considerable loss of base load electricity supply and a 
loss of energy diversity. America's nuclear power fleet is a 
national asset on many fronts, and our programs continue to 
ensure nuclear power remains a key player in America's clean 
energy future.
    In summary, the President's fiscal year 2015 budget 
requests 863 million for the Office of Nuclear Energy, a 
decrease of 2.8 percent from the fiscal year 2014 enacted 
budget and an increase of 17 percent above the fiscal year 2015 
request.
    I look forward to responding to your questions.
    Mr. Simpson. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Dr. Danielson.
    Mr. Danielson. Mr. Chairman, Ranking Member Kaptur, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today. The Office of Energy Efficiency 
and Renewable Energy, known as EERE, seeks to ensure American 
leadership in the transition to global clean energy economy. 
EERE's goals are to dramatically reduce U.S. Reliance on oil, 
reduce energy costs for American families and businesses, 
create American jobs, and reduce pollution. At EERE, we focus 
on three distinct energy sectors: Sustainable transportation, 
renewable power, and energy efficiency. We support research 
development and demonstration activities with the explicit goal 
of making clean energy technologies directly competitive 
without subsidies with the energy technologies in broad use 
today.
    Our Nation stands at a critical point in time with regard 
to the opportunity in clean energy. Americans continue to spend 
almost $1 billion a day overseas for foreign oil, and every 
year we are wasting hundreds of billions of dollars in energy 
costs through inefficient buildings and factories.
    In addition, while $254 billion was invested globally in 
clean energy in 2013, with trillions more to be invested in the 
years ahead, the energy industry has systematically 
underinvested in innovation, investing just 0.4 percent of its 
sales in R&D.
    For these reasons, there continues to be an important and 
appropriate role for stable, targeted government investment in 
innovation in the clean energy sector. After decades of EERE 
support for American clean energy innovation, we are now in the 
unique position where a wide array of technologies are truly 
within 5 to 10 years of being cost competitive without 
subsidies. This presents us not only with the opportunity to 
address America's strategic energy challenges, but also with 
one of the most significant economic development opportunities 
of the 21st century.
    We can either make the necessary and appropriate 
investments to ensure that the clean energy technologies of 
today and tomorrow are invented and manufactured here in 
America, or we can surrender global leadership in important new 
technologies from nations like China, India, South Korea, and 
Japan.
    In fiscal year 2015, EERE is requesting a budget of $2.3 
billion from Congress. I would like to briefly highlight recent 
successes and key proposed activities for fiscal year 2015 from 
across our portfolio. We will start with our sustainable 
transportation portfolio. In fiscal year 2015, EERE will seek 
to build upon an already strong track record in this area. For 
example, from 1976 to 2008, more than $900 million in EERE 
supported combustion engine research yielded economic benefits 
totaling more than $70 billion, a more than 70-to-1 return on 
investment. And just last year, EERE achieved a high-volume 
model cost for advanced batteries of $325 per kilowatt hour, a 
more than 60 percent reduction since 2008.
    EERE's fiscal year 2015 supports R&D to advance more 
efficient combustion engines and increase the use of natural 
gas and drop in biofuels, and will continue to support R&D to 
achieve the EV Everywhere Grand Challenge's goal of driving 
down advanced battery costs to $125 per kilowatt hour by 2022.
    We will also continue our focus on driving innovation in 
fuel cell systems to reduce their costs to $40 per kilowatt by 
2020. And we will continue to develop innovative processes to 
convert cellulosic and algal-based feedstocks to bio-based 
fuels to demonstrate the technology required to achieve a cost 
of $3 per gallon by 2017 to 2022.
    In our renewable power portfolio, EERE's fiscal year 2015 
request will build on our SunShot initiatives 60 percent 
progress today towards its goal of making solar energy directly 
cost competitive by 2020. We propose to launch the HydroNEXT 
initiative to double U.S. Hydropower by 2030, and we will 
continue to support offshore wind advanced technologies 
demonstration projects and the Frontier Observatory for 
research in geothermal energy, an important new site for the 
comprehensive and synergistic development of cutting-edge new 
EGS technologies.
    Finally, in our energy efficiency portfolio, EERE's fiscal 
year 2015 request emphasizes cutting edge R&D in next-
generation building technologies, like LEDs and high efficiency 
cooling technologies has increased emphasis on appliance 
standards and national building energy codes and increased 
support for next-generation manufacturing R&D to lower energy 
costs for American manufacturers.
    We will support manufacturing R&D facilities to provide 
small- and medium-sized American manufacturers access to 
cutting-edge emerging manufacturing technologies that will help 
them compete globally with continued support for existing 
facilities, like the manufacturing demonstration facility at 
Oak Ridge National Lab and our Manufacturing Innovation 
Institute on additive manufacturing in Youngstown, Ohio, in 
addition to supporting the launch of at least one new 
manufacturing innovation institute in fiscal year 2015.
    I want to close my prepared remarks today by emphasizing 
EERE's continued commitment to be a good steward of taxpayer 
investments. And fiscal year 2014 EERE has taken strong steps 
to protect taxpayer-funded innovation from being manufactured 
overseas, requiring negotiated manufacturing commitments in all 
new funding agreements.
    In addition, EERE remains committed to active project 
management. Over the past 2 years, EERE has uniformly 
implemented enhanced active project management practices across 
the board, including exclusive use of cooperative agreements, 
not grants, and uniform implementation of rigorous annual go/no 
go project milestones.
    In my budget hearing before this subcommittee last year, I 
noted that from 2005 to March 2013, EERE discontinued more than 
50 projects that were not achieving key technical milestones, 
allowing it to save or redirect more than $113 million. And 
EERE's new approach appears to be working. Over the past year, 
EERE has initiated a process of discontinuing more than 17 
projects, representing almost $25 million in savings, which is 
more than double EERE's average annual rate of early project 
terminations over the last decade.
    In closing, I would look forward to continuing to work with 
this committee to maximize the impact of every taxpayer dollar 
spent at EERE and to ensure that it is the United States that 
wins the global race for the clean energy manufacturing 
industries and jobs of the future.
    Thank you, and I look forward to your questions.
    Mr. Simpson. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Ms. Hoffman.
    Ms. Hoffman. Good morning, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
today to discuss the President's fiscal year 2015 budget for 
the Department's Office of Electricity Delivery and Energy 
Reliability. OE's mission is to lead national efforts to 
modernize the electric grid and enhance the security and 
reliability of our Nation's energy infrastructure as well as 
facilitate recovery from disruptions to the energy supply.
    A modern grid is vital to the Nation's economy and 
security. It provides a foundation for critical services that 
Americans rely on every day. This is especially true now. 
America's energy landscape is being redefined. Power outages 
resulting from extreme weather events, such as Superstorm 
Sandy, are disrupting lives and costing billions of dollars. A 
resilient energy infrastructure that can recover quickly from a 
severe weather event is critical. While climate change is a 
significant risk to the resiliency of the energy system, there 
are other risks as well. Manmade threats, such as the physical 
attack on the Metcalf electric substation in California, are 
evolving.
    Cybersecurity for the energy sector is now one of the 
Nation's most serious grid modernization and infrastructure 
protection issue. The infrastructure itself is aging. 
Technology is also changing rapidly, as are customers' 
expectations and the demands for energy. We are at a pivotal 
point. The Nation's grid must evolve and adapt to these changes 
and to those we can't yet see.
    The fiscal year 2015 budget request for OE is $180 million 
and affirms the Administration's commitment to modernizing the 
Nation's electricity system. OE takes a broad, multi-
dimensional approach that spans the breadth of issues necessary 
to ensure a reliable, secure, and resilient system one that is 
flexible enough to accommodate all types of generation--
consistent with the Administration's ``all-of-the-above'' 
strategy. From operational support during energy emergencies to 
technical assistance with policy and regulatory issues, to 
deployment of advanced solutions in the near term as well as 
advanced technologies in the long-term, OE's activity focuses 
on complex issues and opportunities in a rapidly changing 
energy landscape. Given the challenges that we face, the 
request reflects an urgent need for building in resiliency to 
strengthen our ability to help secure the U.S. energy 
infrastructure against all types of hazards and respond and 
reduce the impact of disruptive events.
    The request of $22.6 million for the Infrastructure 
Security and Energy Restoration Program includes funds for 
enhanced emergency response and restoration capabilities. As 
part of our all-
hazards approach to the protection of critical infrastructure, 
the request also includes 42 million in support of our efforts 
to address cybersecurity threats. We are accelerating 
innovative research and development for the long term while 
addressing the immediate need for information sharing with the 
energy sector and mitigating cybersecurity events as well as 
advanced capabilities.
    To better understand the potential impacts to the energy 
infrastructure in the near term and long term, we are working 
on improvements that will advance resiliency and security. With 
the request of $36 million for the Clean Energy Transmission 
and Reliability Program these investments will allow us to 
build an energy system analytical capability that will include 
criticality and risk analysis, interdependency, and support for 
emergency events.
    We are also investing in research in modeling and 
computational mathematical advancements that will turn the 
real-time synchrophasor data into actionable information which 
will allow grid operators not only to understand what is 
currently happening, but also what could happen.
    The request of $24 million for our Smart Grid program 
expands our investments in the transformation of the grid at 
the distribution level through the development of innovative 
technology and concepts.
    Energy storage is also critical to the reliability and 
resilience of the system, enabling a greater adoption of 
renewable energy resources and more effective utilization of 
the existing system. The request of $19 million for energy 
storage focuses on and addresses challenges related to cost 
reduction, system engineering, and performance improvement, as 
well as increased emphasis on safety and reliability of energy 
storage.
    In conclusion, we are living in a time that demands a broad 
perspective and that considers the urgent needs of today and 
anticipates the future. The fiscal year 2015 budget request 
invests in activities that will allow us to address some of the 
ongoing challenges of modernizing the Nation's electric grid 
and continues moving us towards a more resilient and secure 
energy future.
    This is my statement. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    [The information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Chairman Simpson, 
Ranking Member Kaptur, and members of the subcommittee, I 
appreciate this opportunity to discuss the President's fiscal 
year 2015 budget request for the Office of Fossil Energy 
programs. The Office of Fossil Energy's primary mission is to 
ensure that we are able to use our fossil energy resources in 
the most efficient and sustainable ways possible. Technologies 
evolvement is critical to this mission, and the Office of 
Fossil Energy Research and Development is focused on 
technologies that promote a reliable and environmentally sound 
use of fossil fuels, particularly coal and unconventional 
natural gas.
    Our office also manages the Nation's Strategic Petroleum 
Reserve, the Northeast Home Heating Oil Reserve, and the Naval 
Petroleum Reserves.
    President Obama's fiscal year 2015 budget seeks a total of 
$711 million for the Office of Fossil Energy. So beginning with 
the Fossil Energy Research and Development Program, I would 
like to provide a very brief highlight of the President's 
request.
    This year's budget includes $475 million for the Fossil 
Energy Research and Development Program, $277 million of that 
funding is focused primarily on advancing carbon capture and 
storage, or CCS. This research and development is targeted at 
carbon capture technology development, CO<INF>2</INF> storage 
and utilization options, as well as CO<INF>2</INF> monitoring, 
verification, and accounting, advanced power systems that 
support CCS, and cross-cutting research.
    Our CCS research is centered primarily on coal-fired power 
plants and industrial facilities. But we are also dedicating 
resources to capturing carbon pollution from natural gas power 
plants.
    This year's request includes $25 million for a new natural 
gas carbon capture and storage demonstration program. This 
program will build on our ongoing CCS demonstration program.
    We also conduct research and development on the prudent 
development of domestic unconventional oil and gas resources. 
With the budget request of $35 million, the natural gas 
technologies research and development program will focus on 
developing technologies to enable the safe and responsible 
development of our unconventional domestic natural gas 
resources. This request includes $15.3 million to contribute to 
continue our collaborative research and development with the 
Environmental Protection Agency and with the U.S. Geological 
Survey to minimize the potential impact of shale gas 
development; $4.7 million to fund a new program focused on 
technologies to detect and mitigate methane emissions from 
natural gas systems; and $15 million for methane hydrates 
research.
    Turning to our Office of Petroleum Reserves, this year's 
budget includes $205 million for the Strategic Petroleum 
Reserves to fund a major maintenance program to reduce the 
backlog of deferred maintenance projects as well as ongoing 
projects to ensure the readiness of the Strategic Petroleum 
Reserve.
    It also includes $1.6 million for the Northeast Home 
Heating Oil Reserve, which includes funding for continued 
storage of the 1 million barrels of ultra low sulphur diesel 
that is stored in the Northeast Home Heating Oil Reserve.
    The President is also requesting nearly $20 million for the 
Naval Petroleum and Oil Shale Reserves to carry out 
environmental remediation and disposition activities at NPR 1 
in California, and the Rocky Mountain Oilfield Testing Center 
in Wyoming.
    Finally, the budget includes $15.6 million for the final 
payment to the Elk Hills School Lands Fund, which was a result 
of the settlement with the State of California with respect to 
its longstanding claim that title to two sections of land 
within NPR 1.
    The Office of Fossil Energy is committed to developing the 
science and technology that will allow the Nation to use its 
abundant fossil energy resources in a way that balances our 
energy needs with our environmental responsibility. The fiscal 
year 2015 budget request will help maintain DOE's leadership 
role in addressing issues of energy and environmental security. 
We believe this budget will provide resources that we need to 
achieve those goals.
    With that, Mr. Chairman, I would be happy to answer any 
questions that you have at this time.
    Mr. Simpson. Thank you. Thank all of you. You were very 
efficient. I appreciate that.
    [The information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Let me first turn to Dr. Lyons. I suspect you 
might have suspected this question was coming. I was surprised 
to hear the rumors that Babcock and Wilcox might be reassessing 
its participation in the SMR licensing technical support 
program. Can you provide us with an update on how the 
Department is progressing with this program? And has the 
Department conducted a business-case analysis for the SMR 
reactors in the United States?
    Mr. Lyons. Thank you, Mr. Simpson.
    First, the Department remains committed and enthusiastic 
about the future of the small modular reactors. We see them as 
an important contribution to American competitiveness, American 
jobs, and American clean energy. We, too, have read the 
announcements that B&W has made. But we have yet to hear a 
definitive proposal from B&W mPower. So I do not know what 
their plans are at this time. However, we have reminded both 
B&W, with whom we have the cooperative agreement, and mPower, 
as well as the negotiations that are in progress with NuScale, 
that the intent of this program remains U.S. manufacture, U.S. 
intellectual property, and U.S. competitiveness. And we expect, 
if there is any proposals forthcoming, they would have to 
comply with those criteria in order for us to accept any 
proposal. But we don't know what they are going to propose at 
this time.
    As far as business case, yes, we completed a review done by 
the University of Chicago on the business case for SMRs. There 
have been a number of other papers written on SMRs that were in 
somewhat less detail. That University of Chicago report is 
being updated and will be available later this summer.
    Our enthusiasm in the SMRs is an important contributor to a 
new generation of nuclear power remains as it was.
    Mr. Simpson. Following up on one of the things you 
mentioned, as you know, one of the challenges we have with 
large nuclear reactors is that we don't build a lot of the 
materials here in the United States like the reactor vessels 
and so forth. One of the hopes of SMRs is that we would create 
a supply chain of manufacturing within the United States. Is 
there any evidence that any of that is starting to occur yet?
    Mr. Lyons. Both mPower and NuScale have been working with a 
number of U.S. companies and are proceeding to develop that 
supply chain. And from a technical standpoint, I am not aware 
of any issues in the mPower, B&W work.
    Mr. Simpson. Okay. You mentioned during your testimony that 
we have shut down nuclear power plants. How many have we shut 
down?
    Mr. Lyons. Four have shut down this year, with an 
announcement that one more, Vermont Nuclear, will shut down 
next year.
    Mr. Simpson. Have they been shut down because of age and so 
forth? Or is the price of natural gas having something to do 
with that and making them less competitive?
    Mr. Lyons. Each of the plants would have a somewhat 
different story. But the economics of each plant has led to the 
shutdown. Now, in some cases, there were also major equipment 
issues at some of the plants that, of course, could have been 
fixed if the economics had been appropriate.
    Certainly, natural gas prices are part of the issue. But so 
is a flat demand for electricity and probably other factors 
such as renewable mandates that also enter in. It depends very 
much on the market.
    Mr. Simpson. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Dr. Lyons, I wanted to 
ask you, on those shutdowns of nuclear power plants, are they 
in any particular region of the country or were they in all 
regions?
    Mr. Lyons. They are widely spread around the country, but 
they are all in deregulated environments. I could list them if 
you want.
    Ms. Kaptur. Which States?
    Mr. Lyons. California, Florida, Wisconsin, and Vermont will 
shut down next year.
    Ms. Kaptur. All right. I am very concerned about how 
nuclear will fare in light of the current and projected natural 
gas prices in regions like my own, which is not in a regulated 
environment.
    The possibility of thousands of lost jobs hang in the 
balance as well as the capacity. And I am wondering how nuclear 
will fare in light of the current and projected natural gas 
prices. And what you might be able to tell us about the outlook 
being different for regulated plants receiving cost of service 
rates than for unregulated merchants plants compensated market-
based rates. How do we, particularly from a part of the country 
where we have no energy umbrella, how is the Department of 
Energy looking at this situation and helping these companies to 
adjust to this new reality? Or what should we be doing to help 
them to adjust?
    Mr. Lyons. First let me note that the locations of new 
construction in the United States are in regulated 
environments, where public utility commissions can evaluate a 
range of factors, including the importance of fuel diversity 
and look at a long-range future for their State. In the 
deregulated, or market environments, that is certainly much 
more challenging.
    We certainly have been exploring this from a departmental 
perspective. It is extremely hard to find a single solution 
from a Federal level that would address the diverse market 
factors across the country, although we continue to seek that.
    There are, in a number of cases, actions that States have 
taken to work with utilities within their States. And those 
appear to be quite effective in a number of cases and there has 
been publicity about several ongoing negotiations between 
States and nuclear power plants within those States perhaps 
looking at long-term power purchase agreements.
    Ms. Kaptur. Thank you for that clarification. This remains 
a deep concern for those of us that represent nuclear power 
plants in States like Ohio. I just want to place that on the 
record.
    I also wanted to ask you, in the 2014 omnibus bill, there 
was direction to the Department to evaluate the State of 
nuclear tradecraft and prepare a report by July of 2014. I 
don't know what the status of that report is, and that is the 
reason for my question.
    And, attendant to that, I just wanted to invite you out, or 
any of your associates, to the region that I represent to look 
at the various trade schools that our building trades have 
created for plumbers and pipe fitters, boilermakers, and 
electrical workers that work in nuclear power plants. I was 
talking to Senator Feinstein. She doesn't have anything like 
that in her region, which was quite a surprise to me.
    I am interested in the Department becoming aware of the 
incredible training in capacity building that is done in these 
trade schools. And I am not sure that the Department is. I just 
wanted to put that on your horizon, as you travel around the 
country. And I would like to draw your attention to them.
    Mr. Lyons. Thank you for that comment and question.
    We are proceeding to work on the requested report. We are 
involving both nationalized and industry through NEI and EPRI 
in developing a comprehensive report. And we anticipate having 
that report for you as requested in July.
    With respect to some of the trade school comments, I have 
not visited trade schools in Ohio, I don't believe. I have 
participated in a number of forums at the Ohio State University 
at which a number of those schools have also been represented. 
And I am somewhat aware, but I would like to learn more about 
the excellent work that is being done as you said, in preparing 
trades for these important skills.
    Ms. Kaptur. Thank you very much. I look forward to that 
opportunity.
    Mr. Chairman, I will save my questions for the next round.
    Mr. Simpson. Thank you. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. And welcome, 
everybody. I want to thank this entire panel. Ms. Hoffman, good 
to see you.
    I want to particularly thank Dr. Lyons for spending a 
tremendous amount of time with me over the past couple years, 
he has brought me up to speed.
    Dr. Danielson, I want to thank you as well. And I want the 
committee to know, Dr. Danielson has not only been to Oak Ridge 
to see our carbon fiber research, but just last month, he came 
to Chattanooga and then went to Oak Ridge. And in Chattanooga, 
I want to thank you, sir, for speaking to the Tennessee 
Advanced Energy Business Council, and then also going back to 
ORNL to see the lab's manufacturing demonstration facility. So 
really appreciate your-all's work with us.
    Secretary Danielson, can you please give the subcommittee 
your thoughts on the impact that facilities like the Oak Ridge 
MDF will have on U.S. manufacturing leadership? And then as a 
follow-up to that, what are your plans, sir, to prioritize 
these unique user facilities and provide base funding for 
continued operation.
    Mr. Danielson. Thank you, Congressman. You know, one thing 
I will point out is that I think we should all be optimistic 
that the winds are blowing in the direction in the United 
States for manufacturing competitiveness perspective. Talking 
to the private sector, you look at issues like rising wages 
overseas, especially in China, issues around IP protection in 
China and other countries, or rising inflation rates, and also 
an appreciation, a new found appreciation with businesses in 
the U.S. that you can't--you can't just have R&D here and do 
manufacturing elsewhere and continue to be a leader.
    So we are seeing positive indications. And part of our 
strategy for kind of catalyzing more U.S. Manufacturing 
competitiveness is developing R&D facilities that allow a wide 
range of small and medium enterprises to tap in to cutting-edge 
manufacturing capabilities related to energy that they wouldn't 
be able to on their own.
    And so the carbon fiber technology facility at Oak Ridge 
National Lab is a great example of that. And we have seen 
dozens of companies form a consortia around that facility, and 
we are seeing companies sprout up around that. So we are seeing 
some positive momentum, and we want to continue that with our 
work with Oak Ridge.
    And I will say our work with NREL, our national laboratory, 
the National Renewable Energy Laboratory, for the first time we 
have designated a formal user facility, the Energy Systems 
Integration Facility, where we are providing base funding for 
that facility to help make it more accessible and affordable 
for companies and researchers. And that is something we are 
going to be looking very seriously at over the next year. It is 
considered--strong consideration of applying that across the 
board to our user facilities.
    Mr. Fleischmann. Okay. As a follow-up to that, you made a 
statement in Chattanooga, which I really liked, and I am 
quoting, ``We are in a fierce race with China, so we have to 
have all hands on deck.''
    How does the U.S. stack up against the rest of the world, 
Mr. Secretary, in manufacturing innovation? And what measures 
are other governments taking to help their industrial sectors 
compete against us, sir?
    Mr. Danielson. Thanks for that question. It is an important 
one. We have definitely seen strong support in other nations, 
whether it be, you know, long-term tax abatements or, you know, 
multiyear plans in China to then motivate--in my visit to China 
recently, I learned that, you know, it is not direct funding 
from the centralized government, but it is actually a multi-
year plan they put out, a 5-year plan that then inspires local 
mayors and governors to invest to achieve those goals so that 
they are looked on favorably.
    So there is a lot of strong policy support in other nations 
for advanced manufacturing. But I think we are seeing, with the 
standup of the National Network for Manufacturing Innovation 
and a user facility like manufacturing demonstration facility 
in Oak Ridge National Lab, we are seeing those as magnets for 
manufacturing innovation and manufacturing jobs. And I think we 
are seeing positive indications that companies are locating 
here and choosing to locate here. A company called Silevo, a 
high-end, high-efficient solar company, recently chose to put a 
200-megawatt facility in upstate New York. And advanced LED 
company called Soraa recently made a commitment to put a 
facility, a large facility for advanced LEDS in the United 
States. And we just saw a big announcement from Tesla Motors 
that they are planning on building a multi-billion dollar 
battery factory somewhere in the southwest United States.
    So I think we are seeing a lot of positive indications, but 
we are in a fierce race, and I think we have to keep at it in 
partnership with this committee.
    Mr. Fleischmann. Mr. Chairman, how much time do I have? Am 
I close?
    Mr. Simpson. Getting there. Go ahead.
    Mr. Fleischmann. Okay. Thank you.
    One more followup, Dr. Danielson. Other than the 
intellectual property protection that you have alluded to, how 
could the U.S. tackle the challenge of supporting research, at 
least the domestic manufacturing, and how do we keep American 
jobs here, sir?
    Mr. Danielson. Thank you. That is a great question, and it 
has been on the forefront of my mind since I began my job 2 
years ago, in large part, inspired by the report language in 
the seriousness with which this committee takes manufacturing 
competitiveness.
    One year ago, in Oak Ridge National Lab, we launched Clean 
Energy Manufacturing Initiative, that is seeking to kind of 
strategically integrate, prioritize, coordinate efforts at EERE 
around manufacturing competitiveness. We have more than $554 
million in specific manufacturing-focused R&D in this budget. 
And also, we have launched a comprehensive approach to clean 
energy manufacturing competitiveness analysis. And so we have 
been going through our portfolio and identifying the intrinsic 
cost structure of manufacturing various products and various 
parts of value chains in clean energy in the United States 
trying to identify the areas where we have strong opportunity 
to gain market share areas where, perhaps because of the 
importance of low-cost labor, we won't likely compete. So we 
have identified a number of opportunities.
    Just to give you one example of an action we have taken is 
we learned in solar that Chinese modules and other modules were 
exhibiting lower quality than American-made high-quality goods. 
So they were degrading faster in the field. So we have worked 
with our National Renewable Energy Laboratory to create a new 
certification standard, which we call Qualification Plus, which 
is raising the game for being able to do a set of standard 
tests that allow investors to actually understand the 
difference between a high-
quality module and a low-quality module. So that a high-quality 
module made by, for example, an American manufacturer would 
fetch a higher price instead of having to compete with a low-
quality, Chinese module price.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back. 
Thank you.
    Mr. Simpson. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    I authored a lot of that report language and have been very 
focused on this issue about connecting off of American 
discoveries of American jobs. I think it is important that as 
we finance research that we connect it to jobs. So I am very 
pleased to hear about where you are headed and what you are 
doing already with the cooperative agreements that require 
domestic manufacturing. And we have also done that, Mr. 
Chairman, in the CJS bill, to require the same type of 
connection between scientific investment and domestic 
manufacturing.
    But I wanted to talk to you about the energy efficiency 
building industry, where you see that at globally? And I ask 
you this relative to the future of the energy efficiency 
building hub in Philadelphia. As I understand it, we are not 
where our international competitors are in this global market 
about making builders more energy efficient. The DOE wanted to 
make a significant move in this direction. And I want to know 
how you see this going forward, given where we are?
    Mr. Danielson. Thank you, Congressman. Thank you for your 
leadership and support for clean energy over the years. Greatly 
appreciate that.
    You know, in the building sector, you know, if you look at 
efficiency, our big national goal is to double our energy 
productivity of this country by 2030. And so a big part of that 
is going to be achieving, ideally, 50 percent more efficient 
buildings to make that goal occur. Interestingly, we have the 
technologies today. We have seen LEDs and other technologies 
dramatically come down in costs. Where an LED light bulb is 
being sold for about $10 at Wal-Mart today, when it gets into 
that $3 to $5 range, is when it really takes off like a rocket 
ship.
    But we have the technologies to achieve about 20 percent 
efficiency improvement in our buildings today. A lot of 
challenges are developing integrated packages and solutions 
that can be readily and easily adopted by the industry.
    And, as you know, we have refocused the effort with Penn 
State into the Penn State energy efficient--sorry--Penn State 
Consortium for Building Energy Efficiency, where we focused it 
down to what we consider to be a very high opportunity area 
that is not covered, while one of the more difficult areas to 
access is small and medium commercial building. Because there 
is a lot of diversity in those buildings. So we are working 
with that Penn State consortium. We have a bold goal of 50 
percent. Develop a wide range of implementable solutions that 
can reduce the energy use and drive 50 percent in small and 
medium commercial buildings.
    This is an area where we have historically, I think, been 
underinvesting. And also, I would say that the effort at Penn 
State is going to be the most significant national effort in 
this area, and we are excited to continue forward with that 
work.
    Mr. Fattah. Where does the U.S. stand relative to the 
industry internationally? Are we ahead? Are we behind? Where 
are we?
    Mr. Danielson. Could I ask you a clarifying question?
    Mr. Fattah. The industry, the money being made on 
developing more energy efficient buildings.
    Mr. Danielson. You know, the building industry--you know, 
the building industry--building stock in Europe is more 
efficient than our building stock. We have a great opportunity 
to move forward. My office develops a national model building 
code standards, which really is trying to show what can be done 
cost effectively and ensure that that gets adopted by the 
States. And this budget puts forward increased investments in 
working with our State partners to develop ways to enforce 
building codes more effectively, which has been a challenge in 
the United States and has resulted in less deployment of 
building efficiency than we think is possible.
    Mr. Fattah. Let me thank you for what you have done. I have 
met with the chairman on this. You know, I have every intention 
of trying to encourage the Department to fully embrace as a hub 
this focus on energy-efficient buildings. So we will continue 
to work with you as we go forward. And I have been quite 
engaged in the work of this subcommittee for a very long time 
and on a whole range of issues important to the Department, 
including the labs and the manufacturing work. This is very 
important to me. And I intend to revisit it as we go through 
the markup process.
    Ms. Kaptur. Would the gentleman yield?
    Mr. Fattah. I would be glad to yield.
    Ms. Kaptur. I just wanted to put on the record that I was 
out at Argonne this past week. And what was interesting about 
that was that I was handed a report about energy efficiency and 
redevelopment in America's urban communities. And though 
Congresswoman Barbara Lee of Oakland, along with Congressman 
Fattah have been leaders on many fronts for American cities, I 
was actually surprised the Department of Energy had produced 
that report. But when I was out at Livermore, of course, they 
didn't give me that report. Because the report came out of 
Argonne.
    So the point I want to make here is, I think, Congressman 
Fattah, through your leadership, things are beginning to bubble 
up inside the Department of Energy, but they do seem to need a 
focus. And in engaging the built environment, and particularly 
where it is older and needs to be upgraded. But I see the 
Department trying to get there. And I support you in your 
efforts. And I just wanted to put that on the record, because I 
think there could be more focus at the national office to help 
these individual labs work together.
    Mr. Fattah. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Mr. Smith, we all watched over the last few years an 
enormous economic activity associated with the recovery of 
natural gas and the promise that our country can build a 
liquefaction infrastructure to sell part of our excess gas to 
our friends and allies around the world. This has a broad 
economic impact in the United States. We have been reminded by 
global events over the last few months, if not the last few 
weeks, of the importance of trade with this product with our 
partners in Europe and elsewhere.
    So as I look at the budget for fossil energy, I note there 
is a $68 million decrease in the President's budget for fossil 
energy. If I am reading this budget correctly, the 
administration has asked for $2 million in fiscal year 2015 for 
import/export authorization which is a small decrease over the 
2014 level.
    This funding is just to handle the export licenses, not any 
of the safety or technical construction aspects, which are 
overseen in a much more comprehensive process at the Federal 
Energy Regulatory Commission.
    Now, I was pleased to see the Department yesterday make 
progress toward the backlog when you issued the permit. But I 
also understand we have 20 pending applications right now from 
the Department. There are eight that have been at Department of 
Energy for more than 555 days. So, is this budget request 
sufficient to process the significant backlog for permit 
applications for the Department?
    Mr. Smith. Well, thank you very much, Congressman, for that 
question. First of all, I think you raise a good and very 
important point in that over recent years, we have certainly 
gone from a period of relative scarcity to a period of relative 
abundance in terms of natural gas that is available for 
domestic economy to create jobs in the United States. We see 
that in unambiguously positive. That also creates an 
opportunity to potentially take natural gas and export it from 
the United States externally, which also potentially brings 
some benefits in terms of job creation, balance of trade, and 
some other areas.
    We have a process within the Department of Energy of 
looking at balancing that important public interest 
determination that goes behind each of these export 
applications. Section 3 of the Natural Gas Act dictates the 
public interest requirements for exporting natural gas to free-
trade agreement countries. So we have established a process 
that we want to be open, we want it to be transparent. We have 
to take into account the varying views of stakeholders that are 
important for our economy. And we want to proceed on this on a 
case-by-case basis in a meticulous way that is going to 
withstand the scrutiny that it is certain to face.
    You point out that we just released an order yesterday for 
a Jordan Cove that was the seventh order that we processed 
within the last couple years. We are moving through a queue 
that we have published. So it is our intent to move forward 
with that process in a way that is expeditious, but which also 
recognizes the complex and important public-interest 
determination that we have to make for each of these 
applicants.
    Mr. Nunnelee. All right. Thank you.
    Ms. Hoffman, Dr. Lyons, there have been a large number of 
baseload nuclear plants that have recently announced closures. 
Are you concerned about this trend? And will this impact our 
Nation's grid reliability?
    Mr. Lyons. Well, to start the response, certainly we are 
concerned from the perspective of it is reducing the Nation's 
clean energy resources, making any future plans for our 
particular goals in clean energy that much more difficult.
    I should probably let Pat Hoffman talk about the grid's 
reliability.
    Ms. Hoffman. From the reliability perspective, the Nation 
needs a diversity of energy resources. We need baseload energy, 
intermediate energy, and energy to provide peaking resources. 
First, with the shutdown of the nuclear power plant, a large 
megawatt capacity is going off on the grid. This means 
compensatory resources have to be built to fill in for that 
capacity that is missing. So it is getting that capacity built 
and putting in the necessary infrastructure that is a concern. 
The timing of the shut down of the capacity as well as some of 
the other adjustments that have occurred in the energy mix can 
make things challenging. We have to watch very closely to 
understand potential reliability implications and system 
requirements.
    Mr. Nunnelee. Have I got time for another one, Mr. Chair?
    Mr. Simpson. Go ahead.
    Mr. Nunnelee. Let me just also briefly ask, recently, the 
Electric Power Research Institute released a study that 
addressed the issue of being ``off the grid.'' And in that 
study, they talked about the startup energy that is required, 
which can be as great as five times that of normal operation. 
So while the administration is looking at making 
recommendations, have you factored into this startup 
requirements in terms of the baseload?
    Ms. Hoffman. So with respect to black start capabilities, 
reliability coordinators must include the resources needed for 
startup requirements. However, incentivizing generators to have 
that black start capability is challenging because in 
competitive markets people want to provide power resources and 
have limited ability in getting compensation for black start 
capabilities. We are looking at that, but it is a concern that 
will be growing in the future, of having that resource that is 
available for black start.
    Mr. Nunnelee. Thank you, Mr. Chairman. I yield back.
    Mr. Simpson. Thank you.
    And now for a new member of our subcommittee. Welcome. We 
are glad to have you on this subcommittee. Look forward to 
working with you, Mr. Graves from Georgia.
    Mr. Graves. Thank you, Mr. Chairman. Happy to be a part of 
the subcommittee. And thank you, panel, for being here. First, 
Dr. Lyons, let me thank you for your positive words as they 
relate to Plant Vogtle in Georgia. Not only is the plant 
important to our State, but it and the precedent it sets are 
certainly important to our Nation. Want to give you due credit. 
Thank you for all your work towards its progress.
    And, Dr. Danielson, just a quick question as it relates to 
large-capacity water heaters and the efficiency standards that 
were adopted in 2010. There is a little bit of concern with 
some electric cooperatives about the standards and some 
unintended consequences that you are trying to address through 
some proposed rulemakings that are coming up in the near 
future.
    Can you share with us a little bit about what your plans 
are and what can be expected as far as those rules go to 
eliminate some of the unintended consequences that are looming?
    Mr. Danielson. Thanks for that question. It is an important 
example of including not only static efficiency in our 
considerations, but also grid dynamic operations. So we have 
had a lot of discussions with the rural folks that they are 
using water heaters as a way essentially to thermally store 
energy to balance out their grid. And so, you know, we are in 
ongoing discussions with them. And we are taking their concerns 
very seriously. But I would like to take that question for the 
record and follow up with you in greater detail.
    Mr. Graves. Okay. So from the subcommittee's perspective, 
is it safe to say that you are taking their input and working 
with them to try to find a positive solution?
    Mr. Danielson. Absolutely. We are in conversations with 
them. We are not being inflexible, and we are going to take all 
of their considerations into account.
    Mr. Graves. Thank you for that. And do you have any idea 
what your timeline is for any rulemaking? Is there a goal?
    Mr. Danielson. I am not certain on that. So I would like to 
take that question for the record. Follow up with you and your 
office directly.
    Mr. Graves. Thank you.
    That is all I have, Mr. Chairman. Thank you.
    Mr. Simpson. Thank you.
    Mr. Hoffman, this year's budget request contains an 
increase for infrastructure security, $15 million to be exact, 
to establish an operational energy and resilience program. This 
proposal, similar to last year's, would consist of a strategic 
operations center at the Department's headquarters and 17 staff 
to coordinate emergency responses during extreme events that 
affect the electricity grid.
    Could you discuss what capabilities this would provide you 
that your office does not currently possess? And also along 
those same lines, your request also includes a staffing 
proposal, seven people at headquarters, 10 people embedded in 
each of FEMA's 10 regional offices. The committee has 
questioned this in the past. From what I understand, this is 
the minimum staffing needed and could likely grow in future 
years.
    To put this in some perspective, your current budget 
supports only 80 employees overall for the entire office. We 
had similar questions last year about the need to embed staff 
in FEMA regions. Can you explain what has changed with your 
proposal since last year? And if your proposal is brought to 
its logical conclusion, what is your vision of the OER program? 
What does it look like when fully staffed to your satisfaction? 
How many people will be in the field? And how many people will 
be needed to staff the strategic operation center 24/7?
    Ms. Hoffman. Thank you, Mr. Chairman.
    Mr. Simpson. I know that was a lot of questions.
    Ms. Hoffman. A lot of questions. I think I caught most of 
them. I'm writing it down.
    First of all, let me say that the Department of Energy 
responds to a significant amount of energy events that occur on 
an annual basis. Most of the events that occurred have an 
energy component to it, whether it be a weather event, an ice 
storm, or like a fire event that occurred in California.
    What we have done is over the years, since 2006, have 
produced over 181 situational awareness reports. The goal in 
what we do is to provide information to industry and to other 
Federal agencies on the status of the energy infrastructure to 
aid in the restoration timeline, and to build confidence out 
there during an emergency.
    One thing is you want to make sure that the population, 
that the State and Federal agencies, that the industry is aware 
of what is going on and what needs to be done.
    In addition to that, we have developed visualization tools 
that have provided support for the interagency process, looking 
at the status of power availability across the energy 
infrastructure, with over 350 users across the Federal 
agencies.
    What we need to do is continue to support that 
visualization capability, but make it more real-time. Make it 
so that decisions can be more effective. Some of the 
capabilities that we are trying to build is more real-time 
information in areas that we didn't have the information during 
Hurricane Sandy. There were a lot of questions asked of the 
Department of which gasoline stations had power, had fuel. We 
weren't able to provide response in a timely fashion. And that 
is unacceptable from our perspective. Therefore we need to 
engage in the resources that are necessary to build some of 
those capabilities and have that information available to the 
States, to the Federal government, for the decisions that need 
to be made.
    With respect to the additional staffing, it is important to 
have people in the field to understand what is happening on the 
ground. It is very hard, sitting in Washington, D.C., to 
actually be able to understand what is happening in the field, 
where some of the difficulties are in the restoration process. 
What we need is to have that link to the States and to the 
State emergency operations centers to be able to provide 
information directly to them for some of their decisions that 
they need to make in addition to the Washington, D.C. questions 
and the environment that occurs in the D.C. area.
    So having people in the field is absolutely critical for us 
to get that on-the-ground information. But it also streamlines 
communication flow. We know when we had Hurricane Sandy, we had 
direct communications with CEOs in the Washington, D.C., area, 
but what we also needed was communications to the people in the 
field that were doing the work and prioritizing efforts. So 
this will allow us to have streamlined communication.
    With respect to the priorities of the Department and the 
number of people, what we hope to do is build a capability and 
expand the mission within the Department of Energy, so 
utilizing the Department's staff as well as a couple of 
additional staff to fulfill that effort. We are looking at all 
kinds of options for supporting this mission, including the 
field offices, including supporting FEMA. And so I would like 
to talk to you in more detail or later to discuss some of the 
options we are considering in this need.
    Mr. Simpson. One of the things that this committee is 
always looking at is not only, when we approve something, what 
it means in the current fiscal year but what it means in future 
fiscal years. Do you anticipate that aspect of this would be 
growing and a higher request, more personnel, in the future?
    Ms. Hoffman. So depending on the path that we take, with 
the initial investment of staffing, we want to place at least 
one person, at each of the FEMA regions, whether it is at the 
DOE field office or at the FEMA site. Future needs will be 
dependent on how we look at utilization of the National 
Laboratories, and our DOE field offices in adding to our 
mission set, so we are looking at both options.
    Mr. Simpson. Okay. Now the question for you, and this one 
has a little bit of a pretext for it so you will have to listen 
to this. But it is important to the question.
    Earlier this month, several news outlets picked up on a 
Federal Energy Regulatory Commission, FERC, study that the 
entire U.S. electrical grid could be brought down by taking out 
just nine critical electric transmission substations out of the 
country's nearly 55,000. The FERC study has a powerful analysis 
that identified 30 critical substations under a stressed 
electrical grid, such as on a hot summer day. FERC found that 
taking out particular substations could lead to a national 
blackout in one scenario involving highly-coordinated small-
scale attacks. FERC concluded that the entire U.S. grid could 
be brought down for at least 18 months by destroying nine 
interconnected substations, due in large part because so few 
U.S. factories build transformers.
    Reports like these underscore the critical risk associated 
with the interreliability of our current centralized power 
infrastructure and the need to integrate the electrical grid. 
Can you discuss the Department's efforts to integrate its grid 
and to protect us against these types of physical attacks? Does 
the U.S. have an interagency process that adequately mitigates 
the risk to our current electrical grid, and what role does the 
Department of Energy play with the Department of Homeland 
Security utilities and the Federal Energy Regulatory 
Commission?
    Ms. Hoffman. Thank you. Many questions there. With respect 
to the FERC report and the substation issues, it is important 
to understand that the grid can't be 100 percent secure. So 
what we have to do is look at all----
    Mr. Simpson. It is a little scary when you are talking 
about nine, you know.
    Ms. Hoffman. It is scary when you talk about nine 
substations, but the thing that I would like to point out is, 
the FERC study was a static study, and it was one scenario. The 
grid is very dynamic in nature, and it has protections built 
into the operation of the grid, the reliability councils. It is 
a very dynamic environment. So as we look at the infrastructure 
security, we shouldn't think about just one scenario. It is the 
operation of the grid as a whole. Going forward, we are looking 
at ways to protect the infrastructure. We are working with the 
interagency community and doing substation briefings across the 
United States with the Department of Homeland Security, the 
FBI, and FERC, and educating grid owners and operators of what 
happened at the Metcalf Substation, but also on the issues with 
substations.
    In the past, we have been mostly worried about copper 
theft. In 2013, the dynamics in the United States changed with 
more of a focus on utilizing substations to send messages of 
people being frustrated, whether it be for different reasons, 
but for frustration. What we need to do is make sure that we 
are proactive. One of the things is hardening the system, 
looking at how can we just harden the system with walls, with 
protective measures that build security in the substations 
directly.
    The second thing is, we know that some parts of the system 
may go down, so how can we quickly restore the system? Your 
reference to the transformers is absolutely critical. 
Transformers are the key component of this system. We need to 
have additional manufacturing capability in the United States. 
We need to develop advanced transformers. We need to look at 
technologies that can help with the transformer issues.
    I will say, though, the difference between now and 5 years 
ago is we did not have any manufacturing capacity in the United 
States. So at least we do have some manufacturers that have 
come to the United States. The last component of what I would 
think our strategy should be is looking at new technologies. 
How can we make substations less critical? How can we look at 
additional protection schemes, power flow control in the 
system, and other advanced technologies that will help mitigate 
some of the criticality of some of those substations.
    Mr. Simpson. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I am glad you asked 
some of the questions of Secretary Hoffman. I was going to ask 
some of the same ones, so I will move on to Secretaries 
Danielson and Smith.
    And before I do that, I would like to place on the record a 
story that was in an Air Force magazine back 2 years ago about 
Ohio's F-16s go green by using alternative fuels and a blend of 
camelina, and it was our unit, F-16 unit in the Ninth District 
of Ohio, that did this test flight with the Air Force research 
labs watching over their shoulder. And I do this to inform our 
witnesses that this actually occurred. The Air Force spends $8 
billion a year on fuel. They are the largest consumer in the 
Department of Defense of fuel. And they actually lag behind the 
Marine Corps and other branches in trying to become more fuel-
efficient. So we are really happy with this progress by Air 
Force, and I just wanted to bring it to the attention of the 
subcommittee, and of our guests today.
    So I ask unanimous consent that it be placed into the 
record.
    Mr. Simpson. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. And my question really goes to what is 
happening in different places in our country with adjustments 
in the private sector commercial energy industry? So, for 
example, for a coal-fired utility, Secretary Smith I don't 
really have a map of where all coal-fired utilities are that 
are being rotated off the grid and shut down. That would be a 
very interesting map to look at. And when I talked with Dr. 
Lyons about what is going on with the competition from natural 
gas to our nuclear facility, it would be interesting to see 
where, in an unregulated environment, those nuclear power 
plants are located. That would give you a sense of where there 
is fragility in the local economy related to energy. And in the 
bill that--the budget that you have come forward with, that the 
energy efficiency and renewable energy division of energy, you 
talk about certain programs like $14 million included for a 
competitive clean energy economic development and partnership 
program to assist regions in creating economic development 
roadmaps in sustainable shale gas growth zones, for example. I 
am interested in the Department of Energy stepping back from 
any particular program and taking a look at the impact of these 
major shifts in power production facilities, and even though 
shale gas may be coming on, it is not necessarily true that the 
economic impact of that, full economic impact of that, will 
accrue to the locality. A lot of that is being--the product is 
being shipped out or workers are being brought in from out of 
State.
    So one of my concerns is how do we weather through in 
communities across this country that are seeing declining 
employment because of adjustments in energy? How do we help 
these communities and workers adjust? We are seeing this in 
coal country. We are seeing it, I mentioned the coal-fired 
utility shutdowns, we are seeing it in nuclear. Does the 
Department work across the Federal Government to try to help 
these communities adjust to that change? As you consider 
programs like your clean energy program partnership, do you 
think about how to work in those regions that are being 
hollowed out because--that it isn't your job directly, you 
think it will be somebody else's job, except it is happening so 
fast.
    In Ohio, we face the bankruptcy of USEC. I don't know what 
is going to happen to all of those workers, but they are the 
highest unemployment counties in Ohio. These are adjustments 
because of what is happening in energy, and I am very concerned 
about what is happening in those communities and the people 
that live there. So could you provide some explanation of how 
you look at this or how you could look at this scenario 
connecting the programs over which you have jurisdiction?
    Mr. Danielson. That is a really important question, and I--
we have activities in this area, but I know we can do more and 
we can do better. To speak to the first question or comment you 
had around the shifting landscape, you know, one important 
activity at the DOE-wide level through the newly stood up EPSA 
office, Energy Policy and Strategic Analysis, which is the DOE-
wide body focused on really developing comprehensive analyses 
related to energy, they are the executive secretariat for whole 
of government-wide quadrennial energy review, which is why I 
think, in 2015, will deliver its first results on really 
looking at energy infrastructure issues as it relates to the 
changing landscapes and what our future energy infrastructure 
issues are and ways that those can be mitigated. So there is a 
comprehensive whole-of-government approach underway through the 
quadrennial energy review right now.
    You mentioned the clean energy economic development 
partnerships in our budget is an attempt to address exactly 
what you are talking about. We are looking at shale gas 
communities, you know, providing technical assistance to them 
through our extensive State energy network in EERE to enable 
them to do planning both for near-term infrastructure in the 
economic development issues that they are facing and also long-
term issues to help them avoid the boom-bust cycle that you 
mentioned. And this is an area where it will be a DOE-wide 
effort, but leveraged through our State energy network, working 
closely with Secretary Smith and others to address that, and 
then that is $10 million in this budget request and there is $4 
million to work with State and locals around economic 
development planning, around energy efficiency and renewable 
energy. And in recent years, we have used our State Energy 
Program Competitive Awards to fund regions to develop long-term 
economic development strategies that relate to the energy 
sector around energy efficiency and renewable energy 
technologies as well.
    Ms. Kaptur. What was the $10 million for, Dr. Danielson?
    Mr. Danielson. $10 million for sustainable shale gas 
partnerships with communities, and then $4 million for 
engagement with local and regional leaders on their issues 
around economic development and energy efficiency and renewable 
energy.
    Ms. Kaptur. Thank you very much.
    Secretary Smith.
    Mr. Smith. So I will perhaps just emphasize a couple of the 
points that Dr. Danielson made. Your question is a very broad 
one and an important one, and, you know, one of the things I 
would highlight is when we talk about an all-of-the-above 
strategy. We truly are trying to ensure that all of the 
components of energy security and diversity to energy suppliers 
are being focused upon. So you have got the four leaders of the 
applied departments here at the table in front of you, and we 
actually spent a lot of time together not only working on our 
individual programs, but also Secretary Moniz is broadening a 
new focus on crosscutting initiatives, which really brings 
together these four applied programs. So much of what I talk 
about in terms of safe and sustainable and reliable use of 
natural gas, ensuring that we are prudently developing our 
resources of trying to reduce the price volatility through good 
science to quantify the risks and concerns of unconventional 
gas and oil production, it directly affects issues of grid 
stability, directly affects competitiveness in the nuclear 
industry, directly impacts competitiveness of the issues that 
are of importance in Dr. Danielson's portfolio.
    So we do truly have to work together. We want to make sure 
that all of these energy sources are available, and they are 
being put forward, and that is our focus. And we do that not 
only through our individual programs but also by working 
together appropriately.
    Ms. Kaptur. I am glad to hear about the crosscutting 
initiatives because I think the communities across our country 
that have bottomed out because of transition, somebody needs to 
pay attention.
    Yes, Secretary Hoffman.
    Ms. Hoffman. If I can just add to the conversation, I think 
it is very important that we work with the States on energy 
planning, and I think it is necessary as the States look at 
their future generation mix and understand the diversity of 
generation, it is important for energy assurance requirements 
for the State and the services they provide. As we move 
forward, what we are doing is working with the transmission 
operators and the reliability councils to make sure that we 
look at the reliability of the electricity system and the 
diversity of the resources. Part of that is the development of 
State energy assurance plans, and enhancing the resilience and 
the reliability through that energy planning activity.
    Ms. Kaptur. How is Ohio doing?
    Ms. Hoffman. Ohio is doing fine.
    Ms. Kaptur. I have another question, Mr. Chairman, but I 
can save it for the next round.
    Mr. Simpson. Go ahead.
    Ms. Kaptur. I wanted to ask Secretary Smith, could you give 
us a logical framework to understand what is happening with LNG 
and the possibilities of the legal requirements to only use it 
domestically versus the potential ultimately for export? I had 
an amazing conversation recently with someone, and I said to 
them the shortest distance between Northern Europe and the 
United States for the shipment of product is shipments through 
the Great Lakes, and they were very, very surprised. And to 
ports like Bremerhaven in Germany, a nation that has had a 
little bit of difficulty with us recently in standing strong 
with us--they finally are--in terms of standing up to what 
Russia has done in Central Europe.
    And when you face an international crisis like that, is 
there anything in the authorizing legislation that would permit 
us to export, to take some of the pressure off of Europe, and 
how long would it take us to stage shipments? How would we 
evaluate? If we did, how would it harm the domestic industry? 
What is the framework in which Members can understand their 
latitude in voting one way or another on that?
    Mr. Smith. Well, thank you very much Ranking Member Kaptur 
for that question, and again, a lot of really big important 
themes there. So what I will try to do is give a broad 
framework of the regulatory, statutory responsibility of the 
Department compared to other agencies, a little bit about how 
we think about these important public interest determinations 
and then I will try to touch on current, you know, issues at 
home and abroad.
    So section 3 of the Natural Gas Act dictates that the 
Department of Energy has to do a public interest determination 
for all natural gas that is exported to non-Free Trade 
Agreement countries. Essentially, that law creates, above 
presumption, that exports are in the public interest, which 
means for each individual applicant, we need to look at the 
application. If we determine that approving a given application 
would be deleterious to the U.S. interest and we are compelled 
to deny it; otherwise we are compelled to move forward.
    For Free Trade Agreement countries, there is an assumption 
in the law, since those are defined as being in the public 
interest, so those are approved without delay or modification 
by the Department. Of note, essentially all of the major LNG 
importers throughout the world are non-FTA, non-Free Trade 
Agreement countries, with the notable exception of South Korea.
    So, essentially, for all of the main importers of natural 
gas, we have to go through this free trade, we have to go 
through this public interest determination.
    What the Department of Energy does is, we provide the 
authorization to export the molecule. What the FERC does, is 
they provide the authorization to actually build the terminals. 
So they are responsible for the footprint of the site. So can 
the site be built in a way that is staged and environmentally 
sustainable? So ours is the issue of whether or not gas should 
be exported. So, essentially, we are going through a--we have 
got a queue of applicants that are before us, you know, I will 
say just, you know, as caveat to that, or a prelude, just the 
fact that we are talking about LNG exports, you know, some of 
which will be coming from shale gas resources, really 
emphasizes the remarkable shift that we have had in our country 
in terms of going from scarcity to potential abundance. So we 
see that as being a truly important evolving marketplace. But 
in looking at each of the applicants, we are required to look 
at a number of public interest factors. We look at job 
creation. We look at environmental issues. We look at 
international issues. We look at balances of trade. We look at 
impact of prices on domestic consumers, be it American 
businesses, American families. We have to look at all of these 
things as part of our public interest determination. These are 
long-term, long-range considerations. These are decadal 
investments. They cost billions of dollars to build. They will 
be in place for tens of years. And so it is our process to make 
sure that we are looking at each of these on a case-by-case 
basis, that we are getting the analysis right. Each of these 
orders undergo an intense scrutiny in terms of looking at the 
rationale that we use to arrive at our decision. So it is our 
interest to make sure that we are taking the appropriate care 
for each of these analyses and that we are getting the decision 
right, such that we are putting out a decision that will 
withstand scrutiny and should we approve any given applicant, 
and thus far we have approved seven, that that applicant can 
then with confidence go and spend the billions dollars that 
they would need to spend in building a terminal because they 
are seeing an analysis that is done by the Department of Energy 
that is going to withstand this scrutiny that it is sure to 
receive.
    Ms. Kaptur. What would be the geographic distribution of 
those terminals?
    Mr. Smith. The terminals primarily are located in the Gulf 
of Mexico. There are some on the East Coast and some on the 
West Coast, but certainly, the Gulf of Mexico has been the 
primary location. The terminal that we approved yesterday was 
the first terminal that we approved on the West Coast, and that 
is in Oregon, that is Jordan Cove terminal so that is the first 
West Coast terminal.
    Ms. Kaptur. Where is that?
    Mr. Smith. Jordan Cove? In Oregon.
    Ms. Kaptur. In Oregon. All right, do you have any 
applications from the Great Lakes region?
    Mr. Smith. We do not. At the current time, we don't have 
any applications from the Great Lakes region.
    Mr. Simpson. Would the gentlelady yield for just a minute?
    Ms. Kaptur. Yes.
    Mr. Simpson. If you want to build an exporting terminal, 
who all do you have to go through?
    Ms. Kaptur. Yeah.
    Mr. Simpson. How many permits do you have to get? How many 
agencies have to sign off on it? And I understand that Congress 
has recently authorized legislation--the Transportation 
Department is also involved in this, and have you or the 
Department of Energy had any coordination with the Department 
of Transportation on this? How complicated are we making this?
    Mr. Smith. So for the, again, this is the Department 
filling our role under current statute, so following the spirit 
and the letter of the law. There are two primary agencies that 
are involved, again, the Department of Energy that has the 
public interest determination about should the molecule be 
exported from the United States, and the FERC, which has----
    Mr. Simpson. And you make that determination based on, 
levels of natural gas, and whether we have extra, so then we 
might as well export to a country that we like?
    Mr. Smith. So two things there: First of all, we look at a 
broad number of public interest criteria, everything from job 
creation to impact on prices to environmental issues to balance 
of trade, so international effect, so there are a lot of things 
we look at.
    Mr. Simpson. Okay.
    Mr. Smith. Secondly, once an applicant has the right to 
export LNG, the applicant, the private sector, essentially, the 
company that builds the terminal has the control over the 
throughput of that terminal. That private-sector company makes 
a decision about where the LNG would go. So the government does 
not determine the destination of natural gas that is exported 
from the United States. That determination is made by the 
private sector.
    Mr. Simpson. Okay.
    Ms. Kaptur. I wanted to just take 30 seconds to ask here, 
has the Department gamed the impact that exports to Europe to 
displace Russian gas would have inside our economy?
    Mr. Smith. Thank you for the question, Ranking Member 
Kaptur. A couple of points there: First of all, for all LNG 
exports, we do take a close look at impacts on the American 
businesses and the American families, on the price impacts that 
might be caused by that increased demand. That is one of the 
important things that we modelled, we look at and consider it 
in all of our applications, regardless of where the natural gas 
might be headed. And again, once an applicant is given the 
authorization to export LNG, that applicant then determines 
where that LNG goes. That is not determined by the Federal 
Government.
    Secondly, you know, again, these are decadal challenges. 
They are multibillion dollar investments that will be in place 
for tens of years, you know, for decades. And so certainly, as 
you have prices internationally that require immediate 
response, you know, there are a variety of things you can do on 
that front, but when we are looking at our public interest 
determination, first of all, the gas that would be arriving 
anywhere from the world would be happening in 2016, 2017, for 
new applications that we would be approving having this current 
time frame.
    So, overall, I think the important thing that I would like 
to emphasize is that for any applicant, for any molecules that 
leave the U.S., we do a broad public interest determination 
that looks at price impacts, regardless of where the private 
sector might decide to take that gas.
    Ms. Kaptur. What does it take in terms of money to build 
one of these staging terminals, and are any of them fully 
operational now?
    Mr. Smith. So there is one fully operational terminal in 
Kenai, in Australia--I am sorry, in Alaska. That is a terminal 
that has been in place for a long time. That is taking Alaskan 
gas, which is not connected to the lower 48, so that is sort of 
a different sort of market determinant for that gas because 
that gas does not have access to markets in the lower 48. There 
are terminals that are in the course of being built, but this 
is a new phenomenon, so literally, the terminal that is being 
built right now in the Gulf of Mexico, and in Louisiana, was 
previously an LNG import terminal and that was a terminal that 
was built with the idea of bringing in natural gas from other 
countries to serve the U.S. economy. Such has been the impact 
of the rise of shale gas here, that there are no LNG imports 
coming through that terminal, and now it is being repurposed 
for an export terminal and that is a multibillion dollar 
investment that is being made right now.
    Ms. Kaptur. Is that all private sector?
    Mr. Smith. That is all being done by the private sector. We 
do not make any investments. We simply do the public 
determinations to allow the companies to export the molecules.
    Ms. Kaptur. Thank you.
    Mr. Simpson. Thank you.
    Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    I want to continue the line of questioning brought up by 
Ms. Kaptur, dealing with economic development partnerships in 
these shale gas growth zones. I had a mentor in business who 
taught me early that if you fail to plan, you are planning to 
fail. And so I commend you for being forward looking and 
helping us make plans here.
    I just have three questions for Mr. Smith and Dr. 
Danielson. Number one, what specific actions are you going to 
be taking to assist in these economic development partnerships? 
Number two, how will the communities be selected? And number 
three, how will outside stakeholders be able to participate in 
generating these roadmaps?
    Mr. Danielson. Chris, I think I should take that one. So, 
in the near term, the kind of challenges that we are seeing 
some of these communities face relate to water treatment 
infrastructure, road infrastructure, and the impact that that 
is having on the communities. So that is one area. In the 
longer term, you know, I think it is about what are the other 
economic development opportunities for these communities to 
begin to plan for as the shale peaks and then ultimately trails 
off. So those are the kind of areas we will be looking at.
    These will be competitive awards. You know, if 
appropriated, this program will have a series of stakeholder 
workshops to inform the criteria by which we would award these 
awards under this new program.
    Mr. Smith. And I will build on that. One of the challenges 
here is that, you know, first of all, when you look at the 
opportunities that come out of the development of shale gas, 
there are still some things that we have to focus on to make 
sure that the practice is demonstrated to be appropriate and 
that it is accepted in communities throughout the United 
States. And that is important work that we have to do. It is 
probably the most important thing that we can do to ensure that 
the resource continues to be abundant and that those molecules 
can get to consumers where they are useful.
    What we see is that as practices move from places--so I 
grew up in Fort Worth, Texas, right in the middle of the 
Barnett Shale, which was not around when I was there. But in 
places where you have a history of oil and gas production, some 
of these practices are more easily assimilated into local 
communities. As you have opportunities to move that resource 
development into areas that are frontier areas, you know, 
perhaps some places like Ohio or Pennsylvania or elsewhere, you 
can have challenges in terms of demonstrating to those local 
communities that the concerns that they have are being taken 
seriously, that they are being appropriately mitigated through 
effective regulations and that concerns that communities have 
are being addressed by the producers and by the local 
regulators. That is important work that we have to do.
    There are things that we have learned as shale gas is moved 
from one region to the other, that I think we can have a role 
in helping new communities, new local leaders, new mayors, new 
municipal leaders who are having to deal with the opportunities 
to pick up some of the learnings that we have seen in other 
parts of the country. So we will being looking at, you know, 
areas in which you have got new development, places in which we 
think that sharing best practices might be useful. This can be 
an important collaboration between government and private 
sector, between the Federal Government and local governments. 
And you know, we will be working together with the existing 
infrastructure that we have within EERE, and the knowledge and 
expertise that we have through the Office of Fossil Energy and 
the National Energy Technology Laboratory, to make sure that we 
are selecting areas where it is effective and that we are 
reaching out to communities and we have got a real two-way 
conversation.
    Mr. Nunnelee. All right, thank you. Do I have time for one 
more, or am I out of time?
    Mr. Simpson. Go ahead.
    Mr. Nunnelee. Dr. Lyons, I have several questions relating 
to the Advanced Research Concepts Program, but in the interest 
of time, I will submit most of them for the record. But I do 
have one question. In your budget, you are changing the account 
title from Advanced Reactor Concepts to Advanced Reactor 
Technologies, and then they combine two older accounts. I 
understand this is going to give you some more flexibility. I 
just want the assurances that this is not going to allow you to 
shift money from Advanced Reactor Research to light water small 
modular reactor research without a reprogramming request.
    Mr. Lyons. Thank you for the question, Mr. Nunnelee. We are 
interested in combining those two issues, because--or those two 
areas from the standpoint that as we look at advanced reactors, 
different coolants, for example, it is frequently a challenge 
to decide whether the concept, if it is fully fleshed out and 
eventually developed, will be appropriate to a small modular 
reactor or a larger reactor. And we had a somewhat artificial 
breakdown in the previous structure. Our intent is to focus 
that research primarily on non-light-water coolants, but 
included within that the general area of reactor concepts is 
the light water reactor sustainability program. That is a 
separate line. That continues. And the advanced reactors will 
be focusing on non-light-water coolants.
    Mr. Nunnelee. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Dr. Lyons, good to see you again.
    Mr. Lyons. Yes.
    Mr. Fleischmann. The chairman and I have discussed the 
importance, Dr. Lyons, of investing in our nuclear facility 
infrastructure, and maintenance within the DOE complex. Could 
you please tell the committee--and I have a four-part 
question--what you see as the main needs for the nuclear energy 
infrastructure at Oak Ridge? And if those needs are being 
funded by this year's request, would you commit to working with 
me and Chairman Simpson on a path forward? And then lastly, 
what is your strategy for sustaining the nuclear infrastructure 
required to support the R&D agenda outlined by your 
organization, sir?
    Mr. Lyons. That is a complicated question, Mr. Fleischmann, 
and one that probably does deserve a fair bit of discussion 
offline. Certainly, I would look forward to the opportunity to 
work with you and Chairman Simpson on the issues that you 
raise.
    One of the areas of at least challenge in the question that 
you raised is that, as you are probably well aware, the space 
power activities have transitioned out of this budget into the 
NASA budget. In the past, when those activities were funded 
within the energy and water budget, that did include some of 
the radiological infrastructure, including at Oak Ridge. With 
the transition to NASA, it is going to require more 
coordination both probably between the Department of Energy and 
NASA as well as perhaps between your Appropriations Committees. 
But it is an excellent question, a complicated question, and 
one that I would be happy to continue to work on with both of 
you.
    Mr. Fleischmann. Okay, thank you, sir.
    Dr. Lyons, by all reviews I have seen, the nuclear energy 
hub, CASL, at Oak Ridge has been doing quite well, and the 
project could be extended for an additional 5 years, sir. Are 
you pleased with the hub, and what are the next steps for 
renewing this hub? And as a follow up to that, would you also 
discuss the possibility of expanding high performance computing 
to support any of these programs?
    Mr. Lyons. The proposed budget for fiscal year 2015, Mr. 
Fleischmann, does include funding to continue the CASL hub for 
an additional 5 years. Now, we anticipate that later in fiscal 
year 2014, this fiscal year, we will complete a careful review 
to make sure that CASL has met the various criteria that were 
laid out at the start that would be taken into account for 
continuation.
    As you note, CASL has performed, in my estimation, 
extremely well. They have been very effective in their primary 
focus in bringing high-performance computational tools to 
industry. The industry involvement is superb, and their ability 
to transfer tools to industry has been excellent.
    As far as additional high-performance computing, and 
modelling, and simulation, we also propose in this budget a 
significant expansion in the so-called NEAMS program, the 
Nuclear Energy Advanced Modeling and Simulation program, which 
I view as highly complementary to the hub or the CASL program. 
Within the NEAMS program, we developed the advanced tools 
which, in turn, transition to the CASL program for more 
involvement with industry.
    Several different laboratories are involved in both NEAMS 
and CASL. CASL has lead to Oak Ridge, but other laboratories 
participate and in the NEAMS program. There are strong roles 
for Oak Ridge, Idaho, and Argonne are the three main 
contributors to NEAMS, but there are other labs that also have 
smaller roles.
    Mr. Fleischmann. Thank you, Dr. Lyons.
    Mr. Chairman, I yield back.
    Mr. Simpson. Thank you. This year's request includes a new 
crosscutting proposal to accelerate commercialization of 
electrical power generation using super critical carbon 
dioxide. As I understand it, this is a collaborative effort 
among the Offices of Nuclear Energy, Energy Efficiency and 
Renewable Energy and Fossil Energy for a total of $57 million.
    The questions, and I will ask all of them, and then we can 
go down the line: Dr. Lyons, your office budget request 
includes $28 million for a pilot demonstration project, and $3 
million in research for this effort. Can you explain to us how 
this technology is important and, if successful, the impact it 
will have on making electrical power generation more efficient, 
and how quickly would the Department proceed with this 
demonstration project in fiscal year 2015 if it were approved, 
and what type of technologies are you most likely to consider? 
And can you explain why the pilot demonstration is in your 
office's budget and not, say, in EERE's?
    Dr. Danielson, as I understand it, there is also $25 
million in your budget for this initiative within the solar 
energy program. Can you explain what this research funding will 
support, and how you plan to collaborate with the Office of 
Nuclear Energy in this respect.
    And Mr. Smith, if successful, this program would seem to 
have a transformational impact on improving the electrical 
power generation of natural gas-fired power plants, yet your 
office is only investing $2 million into this crosscutting 
research. Can you describe what your research will support, and 
how would you propose to spend additional funds if they were 
provided for this initiative?
    First, Dr. Lyons.
    Mr. Lyons. Thank you, sir. An important question and that 
is a very important program. In past years, there have been 
activities within three offices that you outlined, and while 
there has been some degree of coordination among the offices, 
our intent with this proposal is to bring about a much more 
focused coordination among the efforts in the three offices. 
This is another example that is referred to earlier of the 
Secretary's very strong interest in looking at crosscutting 
technologies that have impact in a number of different areas.
    Super critical CO<INF>2</INF>, so-called Brayton cycle, has 
the potential to increase the power conversion efficiency very 
substantially. Right now, with nuclear power plants, light 
water coolants, our conversion efficiency of heat to 
electricity is about 33 percent. Using the Brayton cycle with 
super critical CO<INF>2</INF>, and with advanced reactors, we 
anticipate raising that up into the range of, perhaps, 45 
percent or even higher. That is a very, very substantial 
improvement in the conversion efficiency and, therefore, the 
overall efficiency of producing electricity.
    The funding probably could have been placed within any of 
the three offices. However, we have had a strong effort within 
the Office of Nuclear Energy in the past in the Brayton cycle 
work. So has Dr. Danielson in his office. The intent is to 
coordinate this very completely among the three offices and to 
assure that any activities that are taken, some that are 
specific to our interest in nuclear energy, or EERE, perhaps, 
for Dave's programs, that funding is within each office. But 
then the demonstration program is the $27 million that is 
proposed for the step crosscutting initiative, within NE, but 
that will lead to a demonstration that will benefit all three 
offices and allow us to hopefully prove that this technology 
can advance in America.
    This is another example of an area where there is an 
opportunity for American leadership in an important energy 
field. And one of the goals of this program is to encourage 
U.S. energy, U.S. energy companies, through cost sharing with 
us in this demonstration to advance and move ahead, hopefully 
to build U.S. competitiveness in what we think may be a very 
important new approach to power conversion. Maybe that is 
enough for my office, and--
    Mr. Danielson. Thank you for your question, Chairman. I 
think we, you know, anything like this you need a good solid 
leader, so we are seeing the nuclear office as it really is 
taking a lead role here in this cross cut with the rest of us 
working collaborating very closely. You know, the demo 
occurring in nuclear is going to be a really important full 
system scale demonstration in addition to the nuclear-specific 
R&D. The focus at EERE, you know, so this effort, you know, 
increasing the thermal to power conversion efficiency for 
concentrated solar thermal plants is critical for us to achieve 
our 2020 goal of having directly cross-competitive concentrated 
solar power by 2020. And our efforts are really going to focus 
on research and development of components at the--that would be 
relevant for the 10-megawatt scale that are more specific, that 
are quite specific to our unique application requirements, 
which are higher temperatures, in particular, and also the 
requirement that we have high temperature receivers that are 
going to actually receive the concentrated solar power and be 
able to transfer that to energy storage media. And so the high 
temperature components, we are looking at higher temperatures 
than the nuclear office, in addition to the integration with 
solar receivers and with thermal energy storage materials is 
going to be a big part of what we are developing. I think with 
the system level demonstration innovation that nuclear is going 
to demonstrate, you know, after this 3-year program, we will be 
able to evaluate whether this technology is ready to hand off 
completely to the private sector or whether further government 
involvement is required.
    Mr. Simpson. Mr. Smith.
    Mr. Smith. Well, thank you, Mr. Chairman, for the question. 
The Office of Fossil Energy is currently managing eight major 
demonstration projects that are at various levels of 
development throughout our portfolio. We certainly could have, 
you know, potentially managed another one, but we would be, 
will be working very closely with the Office of Nuclear Energy. 
We think this is a great place to put this particular 
demonstration. As Dr. Lyons mentioned, the advanced 
supercritical and the Brayton cycle is applicable to a broad 
range of technologies in terms of increasing efficiency. So we 
have got some work that we are going to be doing that is 
supplementary to the demonstration that is going to be managed 
in the Office of Nuclear Energy. We are going to be looking at 
ways of implementing these results and pressurized oxy-
combustion applications for fossil energy power plants. So we 
are going to learn a tremendous amount from the work that is 
being pioneered by the Office of Nuclear Energy, and on our 
side, we will be doing the appropriate complementary research 
so that we can take the learnings there and apply it to 
ensuring that we are increasing efficiency and safety and 
reducing emissions from coal-fired power plants.
    Mr. Simpson. Thank you. Another issue that is kind of cross 
cutting, I guess, but a key challenge for energy systems of the 
future is the potential for development of hybrid systems, 
coupling a nuclear power plant with another energy system to 
balance the disparities between production and demand. This 
model would enable the integration of various energy 
technologies into a single system to create efficient, stable 
deployment of renewable energy, while expanding nuclear energy 
beyond baseload electrical generation. I understand the Office 
of Nuclear Energy and the Office of EERE are in the initial 
stages of collaboration on such a project.
    Would Dr. Lyons and Dr. Danielson like to discuss that for 
a moment?
    Mr. Lyons. Yes, Chairman Simpson. You described it very 
well. And there is very strong interest, I think it is fair to 
say, in both of our offices. Both of us have been encouraging 
that this work proceed between NREL and INL. I think we are in 
the process of changing the name of hybrid energy systems to 
actually another word that you used, of integrated energy 
systems. And I think, in general, the idea of viewing energy 
systems as moving outside the box where you think of nuclear as 
just electricity or renewable as just electricity and, instead, 
asking how for that particular example--but it could be other 
examples--renewables and nuclear can work together in order to 
provide a range of products on the output, not just 
electricity, but maybe liquid fuels or maybe hydrogen.
    We think it is a possibility. It looks very good, certainly 
in paper studies. We are continuing that. And other labs have 
expressed substantial interest in also joining in this work as 
well. So I anticipate that this will be further broadened.
    Mr. Danielson. And just to add a little bit more, you know, 
we are absolutely supportive of this partnership, and it is a 
great example of crosscutting partnership between our National 
labs, in particular, Idaho National Lab, and National Renewable 
Energy Lab, and it is going to leverage the investment 
supported by this committee and the energy systems integration 
facility at the National Renewable Energy Laboratory, which is 
going to be a great facility to allow for collaboration with 
some of the very advanced work that has been going on at Idaho 
National Lab, looking at nuclear integration of the energy 
systems, to break down the barriers between electricity 
infrastructure, thermal infrastructure, and fuels 
infrastructure.
    Mr. Simpson. Dr. Lyons, last year, we, as you know, 
transferred safeguards and securities at the Idaho National Lab 
to your Department. Although it has only been a few months, how 
is that working out?
    Mr. Lyons. First, thank you very much for the committee's 
action in making that change. I believe that gives us far more 
flexibility in optimizing the overall needs of the Idaho 
National Laboratory, and that safeguards and security is 
absolutely essential, of course, if we are going to be running 
a laboratory, and that lab, INL, has a substantial number of 
safeguards and security challenges that have to be 
appropriately met. We appreciate the ability to have a little 
bit more control by having it within the Office of Nuclear 
Energy, although I believe it still stays in an 050 account, 
but it gives us considerably more flexibility. We appreciate 
it, and we believe that this will result in a stronger and 
well--and better integrated approach to safety and security at 
the Idaho National Lab.
    Mr. Simpson. Okay, the fiscal year 2015 budget proposal 
requests an increase of $90 million for the Used Nuclear Fuel 
Disposition subprogram, which is prepared to examine dry cask 
storage at the INL. Please describe in more detail the purposes 
of this funding and what the Department's goals are with 
respect to developing capabilities to examine and evaluate 
spent nuclear fuel contained in dry storage casks.
    Mr. Lyons. Thank you also for that question. A very 
important effort, well underway within the Office of Nuclear 
Energy now, is to develop a stronger and better understanding 
of what could be degradation mechanisms for fuel that is stored 
in dry casks. This is already moving ahead with the strong 
industry involvement and will result in dry casks with so-
called high burnout fuel in dry casks and being carefully 
monitored over a period of many, many years. In order to do 
that monitoring, although we will put some instrumentation 
within the casks, there is going to be a need to open those 
casks under a dry environment. And in general, when such casks 
are handled, they are handled under water in anything but a dry 
environment. But we must develop the capability for dry 
handling of the dry casks, keeping them dry, and then being 
able to evaluate any changes in the fuel structure.
    Idaho has some facilities, so-called INTEC facilities, that 
we believe can be modified to open a dry cask in a safe 
configuration that has a potentially very high radiation 
environment, has to be done very, very carefully, but there are 
facilities in Idaho that we believe can do that and the 
capabilities at Idaho for post-irradiation examination will 
also be very important in allowing us to take samples of that 
fuel as it has been stored for years, or decades, and then 
carefully evaluate any structural changes in the fuel.
    So it is an extremely important program. We are looking 
forward to a key role for Idaho in this project.
    Mr. Simpson. Thank you. One last thing from my perspective, 
and then I will turn to Marcy for any questions that she has 
left.
    But Dr. Danielson, I want to read you a paragraph from your 
testimony that you wrote, I suspect. And you mentioned part of 
it there in your testimony--I don't know if it was the whole 
paragraph or not--and then ask you about it. It says, ``The 
United States has world-class innovation capacity, a unique 
culture of entrepreneurship, well-developed capital markets, 
and the finest scientists, engineers, and workers in the world. 
However, despite this tremendous opportunity, the U.S. energy 
industry is systematically underinvesting in research and 
development (0.4 percent of sales versus 12 percent for the 
aerospace/defense industry, 20 percent in pharmaceuticals, 
according to one estimate). This significant underinvestment in 
energy research and development by the private sector, in spite 
of the highly strategic importance of energy to American 
economic growth, energy security, and the environment, makes 
government support for applied energy R&D critical for our 
future competitiveness and economic prosperity.''
    You and I have talked about this in the past, and I suspect 
you know what the question is. It sounds like if a sector of 
our economy underinvests in its own future, it is an 
opportunity for the government to step in and do it. Why 
wouldn't the aerospace industry or any other industry that you 
have mentioned here, pharmaceuticals or whatever, say, Well, 
let's stop investing because if we do, it is critical; the 
government will step in and fund it. Why isn't the energy 
sector investing in the research and development that other 
sectors of our economy are, and is the government taking its 
place for the private-sector investment? And how do you decide 
when you decide what you are going to do, whether this is 
something that the private sector should really do or whether 
it is a government responsibility or something that we can just 
lend a hand in?
    Mr. Danielson. Mr. Chairman, that is a great question. It 
is very important, and you know, I have enumerated for you the 
five core questions that drive our decisionmaking, our 
prioritization at EERE, one of which is additionality. You 
know, would the private sector invest in this area already? Is 
the private sector or other agencies already investing 
sufficiently so that it wouldn't be a high-impact opportunity 
for EERE to invest taxpayer dollars?
    And then one of the other five core questions is the proper 
role of government. So is this a high-impact proper role of 
government versus something best left to the private sector?
    I come from the private sector. I was a venture capitalist 
before I came to the Department of Energy, so I am very 
familiar with the operation of the private sector and 
industrial technologies and in energy technologies, which are, 
you know, generally large-scale, you know, kind of industrial 
technologies.
    You know, an MIT study on the production of the innovative 
economy recently came out and identified that over the last 25, 
30 years, there has been a systematic reduction in the long-
term R&D in our large industrial companies for a number of 
reasons, one of which was a move toward the financialization of 
corporations where they were no longer thought of as a kind of 
long-term entities that would keep their employees for a long 
time and would be able to monetize a lot of the benefits of the 
research, and resulted in a kind of a loss of our industrial 
commons to a large extent, and so, you know, we work very 
closely with our stakeholders and others to identify where they 
are making their investments, you know, and where they see that 
they are not able to make investments in the private sector. 
And we really emphasize problems that are both high impact and 
where there is high additionality. But I think you make a very 
important point that I take to heart, that government has to be 
very careful about displacing private-sector funding when it 
makes these kind of decisions.
    Mr. Simpson. Well, and I appreciate that. And we have 
discussed this a couple of times in my office. I am one that 
believes there is a role the government can play in advancing a 
lot of these things. And I think Marcy would agree that we hear 
on the floor repeatedly that the government shouldn't be 
involved in a lot of different things. And the private sector 
should take it over, and all we are is displacing private-
sector dollars. And that is an argument that continually hits 
us. So when we have these different types of investments, even 
with nuclear energy, or other things, we have to be able to 
explain to our colleagues and others that this is an investment 
that government ought to properly make. So I appreciate your 
answer on that.
    Ms. Kaptur.
    Ms. Kaptur. Boy, I could make a lot of comments.
    Mr. Simpson. I know. I know you could.
    Ms. Kaptur. If the private sector had done such a good job, 
we wouldn't be importing $2.3 trillion. If you look at amount 
of imports in energy over the last decade, the current system 
we have has placed America at an enormous risk. And it isn't 
just risk at our generating facilities or our transmission 
facilities, but it is the blood, the sort of the energy blood 
that flows through us is all transfusion, and that is not a 
healthy position for the United States.
    In fact, I was sitting here thinking about President Jimmy 
Carter. I served President Carter in the White House during 
those years, not as his energy advisor, but you couldn't 
possibly serve during those years with the first Arab oil 
embargo and not be completely transformed as an American.
    And I was thinking about him and the Department of Energy 
and looking at all of these photos up here as you are 
testifying and thinking about how far we have come as a 
country. We can at least talk about the dimension of the 
challenge, and how far we have come. We have some quantifiables 
now. And I was thinking about each of you, what an excellent 
team you are for our country, and thinking what exciting jobs 
you have and inventing the future. Not every American----
    Mr. Simpson. I bet they sometimes don't think it is like 
that.
    Ms. Kaptur. I am sure. I am sure. But really, how few 
Americans ever have the opportunity to do what you are doing, 
and what a tremendous responsibility you have, and how very 
very important what you are doing is to the country. And we 
still aren't, in my opinion, close to the finish line. We 
haven't--we are not at the goal. We are not at the goal post. 
That is for sure. But at least we have some sense of direction, 
and we are trying to work together.
    In that regard, I wanted to ask you, Dr. Danielson, if I 
asked somebody in the Agriculture Department, you know, where 
do you produce soybeans, they can give me a map right down to 
the acre, and how much per bushel production has increased over 
some period of time. If I were to ask you for the manufacturing 
sector, and I am very grateful for the Department of Energy and 
its focus on the National Network for Manufacturing Innovation, 
but if I were to ask you for a map that would show me on the 
industrial side the relative importance of industrial firms 
that suck energy from our grid, wherever it might happen, could 
you provide me that kind of visual?
    I can't believe--well, now that we have got all of these 
semiconductor, Google and all the rest, sucking up a lot of 
energy, I would be really interested, for instance, how my part 
of America and the industrial spine district that I represent 
compares to the Everglades. I don't have any such information 
that has been made available to me. It would be most 
interesting to compare, for example, ArcelorMittal in 
Cleveland, and Alcoa, their 50,000 press, 50,000-ton press, and 
the energy users along the corridor that I represent versus 
some other part of the country and trying to understand a 
little bit about, okay, so we are here today, and if I wanted 
to--if I really wanted to help those companies become more 
competitive, how do I think about that? We talked to several 
steel companies this morning about becoming more energy 
independent. How do we do that? How do we help them become more 
competitive? Have you ever seen such a map at the Department of 
Energy? Is there some kind of a--I don't even know what to call 
it--user, energy user map of industrial companies with our part 
of America, would the Great Lakes region light up compared to 
Idaho? I think it would.
    Mr. Danielson. It is a great question. I don't have that 
map, you know, fully developed today. But it is definitely 
something we could develop that would show the industrial 
energy usage by State and in addition to industrial energy 
prices.
    But what I will point out is that, you know, in our vast 
manufacturing office, we have a major effort to help energy-
intensive industries reduce their energy costs by--actually 
visited ArcelorMittal and Alcoa to be part of an in-plant 
training, where they were teaching each other some of the best 
solutions that they had achieved. And through our Better Plants 
program, Better Plants Challenge program, since 2010, our 
partners have lowered their energy bills by more than $1 
billion.
    But also on the research and development side of the 
Advanced Manufacturing Office, we are looking to prioritize the 
kind of high-impact opportunities that will help, you know, 
large industrial players and large energy users lower their 
energy costs and be more competitive.
    Be more than happy to follow up with you to deliver on this 
map.
    Ms. Kaptur. I would be very interested to look at the 
geographic distribution of this. And to think about how do we 
make that corridor competitive where we have corridors. Not 
every part of America has a corridor. But, you know, when you 
are building an Abrams tank, you use a lot of energy. It's a 
little different than if you're sewing pajamas. I mean, there 
is a difference there.
    Mr. Simpson. Use a lot more horsepower. Horses.
    Ms. Kaptur. In talking to several automotive manufacturers, 
they can point to where they have problems, you know, put paint 
shop in this place or stamping over here. So I am just real 
interested.
    I am not sure where the map will lead me, but I would sure 
be interested in looking at it.
    I would ask for the record if you could provide information 
about what has happened to the Department of Energy support of 
biorefineries. Secretary Chu, when he was Secretary, and 
Secretary Vilsack from Agriculture, announced three 
biorefineries around the country several years ago, let's say 6 
years ago, whenever it was. So what? Okay. So we did it. They 
are under way. What have we learned from that? Be really great 
to have something back to the record on that.
    Mr. Danielson. Absolutely.
    Ms. Kaptur. I wanted to ask Dr. Lyons also whether the 
Department maintains any bilateral relations with Ukraine on 
Chernobyl and Japan on Fukushima.
    Mr. Lyons. Yes.
    Ms. Kaptur. And if you look at what happened, if there is 
any way you could condense what we have learned in terms of 
environmental degradation, cleanup, zones of--where you can't 
really still go into--I would be very interested. I haven't 
seen reports on that. If you could provide that in some way?
    Mr. Lyons. We can certainly provide some information. We 
don't actually have reports. But we will certainly provide what 
we have. And we are very, very active in Fukushima-related 
activities.
    Ms. Kaptur. What about Chernobyl?
    Mr. Lyons. Chernobyl, not to any substantial extent. There 
are a number of U.S. companies involved in Chernobyl. I am less 
sure that there is work within my office. Now, there has been 
other work within Ukraine on providing fuels and improving 
safety of Ukraine's power plants. But I would have to check on 
Chernobyl. I am not sure that we have been directly involved 
there.
    Ms. Kaptur. Like, you know, what are the long-term 
consequences of what happened there. So if you could dig around 
a little bit, I would be really interested in human health 
impacts as well as environmental, and what is being done 
technologically to either cap or contain or whatever at this 
point so many years later.
    Mr. Lyons. We can certainly provide some information along 
those lines. Some of this also would be within our 
environmental management program----
    Ms. Kaptur. All right.
    Mr. Lyons [continuing]. That has some interactions, both at 
Fukushima and Chernobyl.
    Ms. Kaptur. I think it would be important for the world to 
know.
    Mr. Lyons. I would be happy to talk in great detail about 
what we know about Fukushima and the causes and effects.
    Ms. Kaptur. Very good. I wanted to ask just two more 
questions. One everybody can be thinking about as I direct my 
last question to Dr. Danielson.
    Each of you works in a really exciting part of the future. 
And think about some innovation you could talk about here today 
that you personally witnessed as a result of your work that you 
knew was going to carry America forward into a new age. And 
share it with us. And share it with those who will read the 
record here today.
    But my question to Dr. Danielson, as you all are thinking, 
is, you have made a proposal for a National Network for 
Manufacturing Innovation. And I am interested in some of the 
topical areas that the Department has focussed on. Could you 
discuss that a little bit, and will there be additional topical 
areas that the administration will select? And how will you 
work to make sure there is no duplication with other Federal 
agencies?
    And how long do you think these partnerships will last?
    Mr. Danielson. Great. Thank you for that question. So the 
National Network for Manufacturing Innovation is a centrally--
coordinated by the Advanced Manufacturing National Program 
office in the National Institute for Science and Technology--
for Standards and Technologies, NIST, and Commerce.
    And so they really are pulling us all together, all the 
agencies, to ensure no duplication, to make sure we have best 
practices. These are meant to be 5-year, $70 million awards. 
And at the end of 5 years, our expectation is that these 
facilities, cutting-edge emerging manufacturing facilities, 
should be transitioned fully to private sector support. That is 
kind of the nature of these funding areas.
    So there are a number of areas that we have under 
consideration. Just brought in a new advanced manufacturing 
office director from ARPA-E, who is going to be doing a series 
of stakeholder engagement workshops, requests for information, 
over the next 6 months to identify a set of high opportunity 
topics that we will then workshop out with key stakeholders.
    Areas of interest include roll-to-roll manufacturing for 
battery technology, for membrane technology, for efficient 
separations for fuel cell membranes and other areas; process 
intensification to enable chemical industry to dramatically 
lower their energy footprint; applying big data, high 
performance computing, and smart manufacturing to energy 
intensive industries to dramatically lower their energy 
footprint; and a number of other areas that I would be more 
than happy to submit for the record to the committee.
    Ms. Kaptur. Thank you. And if we could just go, something 
you have seen that maybe the average American hasn't seen that 
you would view is an innovation that you have witnessed, maybe 
something that is not completed but in process that you think 
will be really transformative. Doctor.
    Mr. Lyons. This committee strongly cites the NP 2010 
program that enabled a new generation of passively safe nuclear 
reactors to be licensed. That has led to the Westinghouse AP 
1000 reactor, which is passively safe. Under construction the 
United States, China, will be constructed in the U.K. Was being 
viewed in a number of places around the world. That program 
also supported a General Electric passively safe design that I 
hope will also achieve design certification.
    ``Passively safe'' means that in an accident scenario, you 
do not require the operator to do anything quickly. In an 
actively safe plant, the operators are trained, but they have 
to respond within time scales of half an hour. An AP 1000 
Westinghouse plant requires no operator actions for 3 days. The 
SMRs, small modular reactors that we are supporting, the mPower 
requires no operator action for a week, NuScale requires no 
operator action, period. Indefinitely.
    Those are dramatic changes in nuclear safety.
    Mr. Danielson. The technology I would put forward is an 
area of next generation power electronics based on a new 
generation of semiconductors beyond silicon, which is a 
traditional material we have today in all of our phones. So 
silicon carbide, gallium nitride, these are areas the 
Department of Defense invested in materials development for a 
couple decades. And now through--and manufacturing innovation 
we are helping bring this next generation, very efficient, very 
low cost power electronics technology to a wide array of 
applications.
    One very exciting application is in variable speed drive 
motors. Maybe it doesn't sound like the hottest topic ever, but 
more than 40 percent of the electricity we use in this country 
goes through motors. And we can reduce the energy usage of an 
industrial motor by 40 percent with this kind of technology. So 
this technology alone, that application alone, could lower our 
electricity usage by 10 percent. But it is also used in next 
generation electric vehicles, solid state transformers, which 
would you think of as, like the next generation Internet router 
for the grid, and a number of other high impact applications.
    Ms. Kaptur. Thank you.
    Ms. Hoffman. Thank you. I appreciate the opportunity to 
talk about innovation because most of the time I talk about 
what scares me at night or keeps me up at night. So I 
appreciate the opportunity.
    One of the things that this committee has invested in is 
information technology for the grid, which I think has opened a 
huge opportunity for development both on the transmission and 
distribution system.
    What we have done is we have placed sensors--I should back 
up. In the 2003 blackout in the Northeast, there was a 
recommendation that came out of that followup report that the 
system needed wide area visibility, that grid operators needed 
to be able to talk to each other during an emergency, during an 
event.
    What we have done is we have placed over a thousand sensors 
across the transmission system. We are developing real-time 
visualization technologies for grid operators to see what is 
happening to the system to be able to understand the 
characteristics of the transmission system so that they can 
proactively mitigate any sort of disturbance that has occurred.
    Having that access to the information technologies and more 
transparency of data and information across the electric grid 
has led to a series of innovations. But that is one that I am 
particularly proud of.
    Mr. Smith. Thank you very much for the question.
    So I would highlight the work that we are doing in our 
Office of Clean Coal in terms of working to reduce the cost of 
capture out of existing sources of carbon pollution. And 
ensuring that all of our sources of energy are going to be 
relevant to the clean energy economy of the future. So we are 
doing tremendous groundbreaking work in terms of sponsoring 
major demonstrations to accomplish those things around 
capturing CO<INF>2</INF> that is coming out of coal fire power 
plants. That does a couple of important things. First, it 
ensures that we have got a diverse source of energy, not only 
now, but also in the future for American businesses and 
American families.
    And also, if--you know, an important thing for us is that 
if you care about reducing carbon pollution, if you care about 
tackling the problem of anthropogenic CO<INF>2</INF>, doing 
something about climate, then dealing with CO<INF>2</INF> that 
is coming out of coal fire power plants, not only domestically 
but abroad, is something that is tremendously important. So we 
think that in the global clean energy economy of the future 
there is going to be two types of countries, going to be those 
countries that invest, that innovate, that create the new 
technologies, and then there are going to be those countries 
that buy those technologies from the first category.
    So we are very much in the first category. We've government 
great collaborative partnerships between government and 
industry. We are working with companies like Southern, with 
Archer Daniels Midland, with Air Products, with Summit Energy. 
And we are making great progress to not only showing the 
feasibility of these concepts, but also to drive down the costs 
and make sure that they are applicable to the challenges that 
are facing us. So I think that is tremendous work that the 
Department and the National Energy Technology Laboratory is 
leading on a global scale.
    Ms. Kaptur. Thank you.
    Mr. Chairman, I just have to say for the record I don't 
know about Idaho, but for the region that I represent, what has 
happened in my lifetime is a complete transformation in the way 
that we produce energy. So, for example, when I was growing up, 
we had a locally-owned Edison company that got its coal from 
southern Ohio. And it brought it up. And we had a massive power 
plant down to the river. It drew the water from there with big 
stacks. And all of the people that built the plant and worked 
in the plant and repaired the lines were all from our 
community. And there was a lot of local capability. We may not 
have had the most clean producer, but it was local.
    And what I have seen happen over the years is a 
transformation to where now the actual control, command and 
control sits in New Jersey. And the original facilities are 
being dismantled or have been dismantled. So all the skills 
that went with it have migrated and transformed. And our 
power--we are dependent on, I would say, in some cases, distant 
producers or producers where the talent is located far away 
from our region.
    I don't know what that means across America. But I am just 
not somebody who is comfortable with things that are so far 
away. And I like to in-source talent, I like to in-source 
material control and so forth. Because wealth creation then 
accrues with that.
    And so sort of like our airports, you know. You have to go 
to these huge airports now, and our medium-size and smaller 
airports have been diminished in the national context. It has 
been a real big transformation since World War II. And it is 
just the way we do things now, but I can see the change, I have 
lived the change. And I am concerned about distant control over 
life in given places and the ability in the event of tragedy or 
difficulty the ability of local communities to respond, and 
what happens in that regard.
    So I just wanted to place that on the record and thank the 
witnesses this morning. Mr. Chairman, you have been very fair 
with the gavel and generous with your time. Thank you.
    Mr. Simpson. Thank you. Thank you all for being here. I 
don't know if it was the first law or third law of dynamics or 
something that was for every action there was an equal and 
opposite reaction. Something like that. Just remember, when you 
are out making cars more efficient, fuel efficient, with better 
batteries, all those improvements, you are screwing up our 
funding source to pay for those roads. We have to find a way to 
do this.
    But anyway, thank you all. Thank you for the job you are 
doing. Be sure that you get the questions answered back to us 
within 4 days because we are going to be marking up fairly 
early this year, and we do want your responses so that we can 
take those into consideration as we do markup.
    Thank you all very much. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Tuesday, March 25, 2014.

                         SCIENCE FY 2015 BUDGET

                                WITNESS

PATRICIA DEHMER, ACTING DIRECTOR, OFFICE OF SCIENCE, U.S. DEPARTMENT OF 
    ENERGY
    Mr. Nunnelee [presiding]. This hearing will come to order. 
I am Alan Nunnelee, the vice chair of the subcommittee, and Mr. 
Simpson is required to be in two places at this moment, so he 
asked me to go ahead and gavel the committee in, and then he 
will be here as quickly as he can.
    So I welcome our witness, Dr. Pat Dehmer, the Acting 
Director of the Department of Energy's Office of Science. Dr. 
Dehmer, this morning the subcommittee heard from the 
Department's applied energy programs. One of the challenges 
they continually face from the committee and from Congress is 
to justify how their programs are able to support this Nation's 
energy sector without displacing or duplicating work the 
private sector is or should be doing. It is a question that has 
no easy answer, but we need to be mindful of staying on the 
right side of that line.
    The challenge you will be facing this afternoon is not an 
entirely different one: to explain to this subcommittee, 
populated as it is with nonscientists like me, why investing in 
your programs is good use of our taxpayer dollars.
    Your program has, of course, generally received broad 
bipartisan support; however, as budgets continue to be 
constrained, you and your colleagues will have to work even 
harder to find ways to illustrate the importance of your 
programs as they compete with others for funding.
    This challenge is made even harder because it seems as if 
the very nature of scientific investment has changed over the 
last couple of decades. Cutting-edge science is even more 
reliant than ever before on multibillion-dollar facilities that 
few, if any, countries are willing to fully support alone. That 
means investing in the biggest scientific questions of our day 
relies at least partly on multinational teams. At the same 
time, it is difficult to justify spending billions of U.S. 
taxpayer dollars on international efforts abroad while our 
constituents here at home need jobs and support.
    Yet even our domestic facilities, many of which are among 
the best in the world, face an uncertain future. Realistically, 
your outyear budgets are more likely flat, if not declining. We 
have been telling you this for years, yet your budgets are 
increasingly consumed by operating your existing machines and 
constructing new ones. I hope we will hear today what you feel 
to be the correct balance between facility operations and 
investments on one hand and, on the other hand, investing in 
the highly trained workforce needed to preserve our country's 
position leading the international scientific community.
    Dr. Dehmer, please ensure that the hearing record questions 
for the record and any supporting information requested by this 
subcommittee are delivered in final form to us no later than 4 
weeks from the time you receive them.
    Members who have additional questions for the record will 
have until the close of business tomorrow to provide them to 
the subcommittee office.
    With that, we will ask Ranking Member Kaptur for her 
opening statement.
    [The statement of Mr. Simpson follows:] 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Kaptur. Thank you, Mr. Chairman, very much, and 
welcome, Dr. Dehmer. It is really a pleasure to have you with 
us today. And the Secretary of Energy Dr. Moniz has repeatedly 
stated his belief in an all-of-the-above strategy for our 
country that promotes production of domestic energy, creates 
jobs and opportunities for American families, and addresses the 
serious issues imposed by climate change. I believe that much 
of the inspiration to overcome these challenges must come from 
your Office of Science.
    Last week there was an interesting New York Times article 
that I will ask unanimous consent to insert in the record 
entitled ``Billionaires with Big Ideas Are Privatizing American 
Science.'' And I admire the motivation to give back to society, 
and we can certainly all use the help in this time of budget 
austerity; however, I am concerned that this trend points to 
the fact that the United States Government is failing in an 
area critical for future economic growth, and that is high 
science.
    Innovation is one of the last frontiers where the United 
States has and continues to clearly lead. We cannot become 
complacent believing that these philanthropic-minded citizens 
are able or will continue to fund the Nation's needs, or even 
will figure out the most important arenas in the national 
interest.
    Moreover, innovation outside the public sphere threatens 
our ability to ensure the work of our best and brightest leads 
to domestic growth and manufacturing in America's interests; 
not just in some subset of us.
    Recognizing the budgets that are the current reality, the 
Department must approach its science portfolio with even more 
rigor than before, and we know you are. There is evidence of 
such an effort in this administration's request, and I hope 
today you will help the committee understand the trade-offs we 
are making in the name of scarcity. Our leadership in many 
areas of science and technology depends in part on the 
continued availability of the most advanced scientific 
facilities for our researchers, and as we discussed last year, 
many of the Department's infrastructure plans were developed 
with a far more optimistic funding profile than current reality 
will support.
    Now that you have had several years to reorient your 
program, I hope today you will take time to discuss both the 
hard choices made by this budget request and those challenges 
yet to come under a flat budget scenario. I want to touch 
briefly on the national labs which are rightly viewed as a 
national treasure. However, coming from an area without a 
national lab, as most Members do, I continue to wrestle with 
how the labs can play a transformational role for organizations 
beyond their boundaries and help jump-start sectors of our 
economy that so desperately need their technology, beginning 
with American manufacturing. I look forward to your insights.
    Thank you, Mr. Chairman, for this time, and we look forward 
to your testimony.
    Mr. Simpson. Thank you.
    Ms. Dehmer, we are looking forward to your testimony.
    Ms. Dehmer. Okay, thank you so much. Thank you, Chairman 
Simpson, Ranking Member Kaptur and members of the committee. I 
am pleased to come before you today to discuss the President's 
fiscal year 2015 budget request for the Office of Science. I 
first want to thank you all and everyone on the committee for 
your continued support for the Office of Science, and 
especially for your support in the 2014 omnibus.
    In formulating our budget this year, our decisions were 
based on several considerations. The first priority is the 
pursuit of leadership in areas judged to be critical for the 
U.S. and for the Department of Energy's mission. At the top of 
this list is high-performance computing.
    The Office of Science is on a path to deliver a capable 
exascale machine by early in the next decade. We expect that in 
the coming decades, computational modeling and simulation will 
play an integral and essential role in all facets of science 
and engineering.
    We cannot cede the discoveries afforded by high-performance 
computing to others, and, indeed, other countries are now 
aggressively pursuing exascale computing using indigenous 
components.
    Today modeling and simulation already have enabled us to 
examine subatomic phenomena such as the quark-gluon plasma at 
the Relativistic Heavy Ion Collider; to develop new materials 
such as superconductors; and to understand the workings of 
proteins, the perfect and still largely inscrutable 
biomolecular machines that power life.
    In the world of engineering and manufacturing, today's 
leadership computing facilities at Argonne and Oak Ridge 
National Laboratories have modeled neutron transport in reactor 
cores to predict the behavior of nuclear fuels; have conducted 
combustion simulations to increase fuel efficiency in vehicles; 
have made U.S. airplane engines quieter, more fuel efficient, 
and less polluting; and have simulated ice formation in water 
drops to reduce the wind turbine downtime in cold climates.
    The next generations of computers promise even greater 
understanding and predictivity, permitting engineering design 
with confidence and without prototyping; permitting materials 
design without an experimental laboratory; and permitting the 
understanding of complex coupled phenomena. So what do I mean 
by that? That sounds pretty techie. For example, can we predict 
the flocking patterns of birds, knowing only how a single bird 
flies? This is a trivial example of perhaps one of the greatest 
challenges we will put to computers, that of understanding 
complexity, how the behavior of a system derives from its 
parts. The U.S. needs to be the first to benefit from the next 
generation of computers.
    Our second priority includes selected increases for 
research and for instrument and facility construction. Even in 
constrained budgets, we must move forward with new things, and 
we are willing to do so. The fiscal year 2015 request includes 
a new activity in the Basic Energy Sciences program for the 
development of computer modeling in material sciences. Though a 
leader in the development of many, if not most, scientific 
modeling codes, the U.S. researchers still rely on materials 
modeling codes developed outside the United States. Our 
researchers must pay to use the codes. They do not have access 
to the source code, and the codes do not run very well, very 
efficiently on machines with multiple processors like our 
Leadership Computing Facilities. This is completely 
unacceptable in a field as important to innovation as materials 
design.
    The 2015 request also includes increases for ongoing major 
construction projects such as the Linac Coherent Light Source 
and the Facility for Rare Isotope Beams. It includes increases 
for detector upgrades of the Large Hadron Collider and for new 
buildings or infrastructure upgrades at four of our 
laboratories.
    Our third priority is the optimal operation of our 
scientific user facilities, which together serve 28,000 users 
annually. Again, we give priority to those facilities that 
align with areas judged most critical. Facilities that are 
operated at 100 percent optimal are the Leadership Computing 
Facilities and NERSC, and the Basic Energy Sciences X-Ray Light 
Sources Neutron-Scattering Facilities, and Nanoscale Science 
Research Centers, which together support materials design, 
development and characterization.
    Finally, our fourth priority is maintaining a balance 
between research and facilities. Overall, 40 percent of our 
budget is invested in the support of researchers in academia 
and in the DOE laboratories. This percentage has been steady 
for many years, and we commit to continuing this.
    Finally, our budget was informed by considerable external 
advice. Our choices were informed by important advice from the 
Federal advisory committees and also by the year-long activity 
to prioritize existing and proposed scientific user facilities. 
This activity also involved all six of our Federal advisory 
committees.
    In the near future, indeed 2 months from now, at the end of 
May, we are looking forward to receiving input on the strategic 
plan for the High Energy Physics program from the High Energy 
Physics Advisory Panel.
    In formulating this budget, we did, indeed, make hard 
decisions. Overall, we are confident that the budget will 
advance science, will provide 21st century tools and facilities 
for our research communities, and will maintain U.S. leadership 
in key areas important to U.S. competitiveness.
    Thank you. I look forward to your questions.
    Mr. Simpson [presiding]. Thank you.
    [The information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Doctor, could you just out of curiosity tell 
me what an exascale machine is?
    Ms. Dehmer. An exascale machine is a machine that runs at 
10 to the 18th operations per second. And so let us see if we 
can tell you what 10 to the 18 is.
    Mr. Simpson. That is a lot.
    Ms. Dehmer. Okay, it is a lot. So you know what a million 
is, and you know what a billion is because you deal with those 
dollar amounts, right?
    Mr. Simpson. We even deal with trillions.
    Ms. Dehmer. That is where I was going. You know what a 
trillion is because you deal with deficits. So the next one up 
is 1,000 up from that, and that is a quadrillion. That is a 
petascale, and we have petascale computers now. And 1,000 up 
from that is quintillion, and that is exascale. So it is 1 
million up from the dollar amounts you are used to dealing 
with.
    Mr. Simpson. That is a bunch.
    Ms. Dehmer. That is a bunch.
    Mr. Simpson. That is a pretty fast machine, isn't it?
    Ms. Dehmer. Yes, it is. Yes, it is. And the world is in a 
race to make those.
    Mr. Simpson. Just out of curiosity, what are the 
advantages, disadvantages if we do or don't do that?
    Ms. Dehmer. Oh----
    Mr. Simpson. What does that give us the capability to do 
that we can't do now?
    Ms. Dehmer. Yeah. I think I tried to touch on that in the 
opening statement. It gives us a predictability to look at 
real-world systems and to model and simulate them without 
having to prototype them. So, for example, if you are trying to 
create an engine, if you are Ford Motor Company or GM and you 
are trying to create an engine, in principle you will be able 
to start prototyping these what they call in silico using the 
computer without having to make prototypes. You will be able to 
understand parts of the world that are inaccessible to you 
because they are too dangerous, they are too far away, so 
forth.
    So the faster computers get, the closer you can get to 
simulating the real world without approximations, and that is 
the power of these computers, and that is why the world is in a 
race to approach exascale.
    Mr. Simpson. That is fascinating. Kind of blows your mind.
    The Office of Science is one of our bill's top priorities. 
It obviously drives American innovation, keeps our science and 
engineering workforce competitive, and leads to tomorrow's jobs 
in manufacturing and other sectors. In the Department, the 
Office of Science supports remarkable research, and there are 
great opportunities that you have mentioned that are out there, 
but we also face a stark fiscal reality. This year's request 
proposes to reprioritize funding within the science portfolio 
by cutting the Fusion and High Energy Physics Programs in favor 
of Basic Energy Sciences and Nuclear Physics. In these times of 
fiscal austerity, can you walk us through the difficult trade-
offs these programs face in the coming years?
    Ms. Dehmer. Sure.
    Mr. Simpson. Because I don't see our budget getting any 
better for the next while, frankly.
    Ms. Dehmer. Right.
    The decrease in High Energy Physics was driven by a couple 
of factors. One, some of the construction projects were rolling 
off, and so funding decreased. Second, we are not going forward 
with major new starts, and the major new start under discussion 
is the Long-Baseline Neutrino Experiment, until we hear the 
priorities put forward by the High Energy Physics Advisory 
Panel. So that is the decision on major increases in the High 
Energy Physics Program is essentially delayed until we get that 
advice.
    In Fusion Energy Sciences, we want to keep a vigorous 
domestic program. This year we had a cut in the ITER 
construction in response to what is happening in the ITER 
Organization. The administration absolutely maintains its 
commitment to the joint implementing agreement that was put in 
place in approximately 2006, but realistically we believe that 
our request this year will provide the ITER project with what 
it needs this year.
    Mr. Simpson. And we, in fusion energy, we cut the ITER by 
$15 million, and domestic fusion energy research by what, $40 
million?
    Ms. Dehmer. It is less than that, I believe. I would have 
to look at the numbers. I don't have them.
    Mr. Simpson. Overall, it was about 90--$90 million cut on 
that.
    But nevertheless, the fiscal year 2012 bill directed the 
Department's energy programs to transition away from awarding 
multiyear grants that mortgage future years' appropriations 
unless absolutely necessary as in the case for large 
construction projects that we simply cannot fund in 1 fiscal 
year. We find tremendous value in fully funding projects up 
front, particularly small grants, so that we can more adeptly 
handle the fiscal environment in which we find ourselves in in 
any given year.
    I am happy to report that the bulk of the Department's 
energy programs made this transition quickly, and now these 
programs are in a position to react more quickly to changes in 
funding and market conditions. The Office of Science, however, 
was never as nimble on this subject. Of the 43 multiyear awards 
made by the Department's energy programs in the first 2 months 
of this fiscal year, 41 were made by the Office of Science, or 
95 percent of them. And to clarify, these were not large 
projects. The average total science award was only $952,000. 
This has been consistent with your office's previous practices. 
As a result, last year's omnibus appropriations bill included a 
requirement to fully fund awards and grants less than $1 
million. And can you provide us with an update on how that 
transition to fully fund projects of under $1 million is going?
    Ms. Dehmer. We are absolutely following the direction to 
the letter.
    Mr. Simpson. Okay. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    And thank you for your testimony, Doctor. I was just going 
over the last page of your testimony where you talk about 
Science Laboratories Infrastructure, and you talk about funding 
requested for 2015 to complete construction of Science and User 
Support Building at the SLAC National Accelerator Facility. 
Where is that located?
    Ms. Dehmer. California.
    Ms. Kaptur. California.
    And then it talks about infrastructure at Princeton----
    Ms. Dehmer. Yes.
    Ms. Kaptur [continuing]. New Jersey, and completing design 
studies from materials design at Argonne, an existing 
laboratory, and then Photon Sciences Lab, again at SLAC, and an 
Integrative Genomics Building at LBNL.
    Ms. Dehmer. Yes, that is the Berkeley lab.
    Ms. Kaptur. Also at Berkeley.
    I just wanted to step back for a second and say to you in 
your position, you know, if you were to overlay the Nation of 
various academic institutions and how we disburse Federal funds 
for research, I remember when I was first elected many years 
ago, and we didn't even have a phone connected on the 6th floor 
of Longworth, and the first visitor in the office was from MIT, 
the MIT lobbyist. And I actually studied at MIT, so I 
appreciate it, but they didn't even know that. They were just 
there to lobby a freshman. And I thought, my gosh, my 
university people don't even know what my office number is yet 
from out in Ohio.
    And I guess my request to you is, as I visit these various 
laboratories, and I look at the infrastructure and the fine 
minds that are working there, and then I look at the parts of 
the country that have been economically hurting for a long 
time, all I would ask you to do is find a way to find the 
universities in places that aren't the favorite few here in 
Washington and to do some affirmative effort to find what is 
there, and to see, whether it is engineering, whether it is 
math, whether there are ways that with all of the duties you 
have that you could really look at parts of the country that 
have major, major challenges, and not all professors in those 
regions are inadequate. Many are there for various reasons, and 
they have something to contribute.
    But I found, for instance, when I was on the National 
Science Foundation Committee, it was the same universities all 
the time. And I just look at the flow of funds over, you know, 
25 years, and I think, okay, it is great for the country, but 
it is not so great for many other regions of the country.
    So if there is anything you could do to broaden the 
umbrella--we are not even asking for buildings; we are just 
asking for inclusion--and to particularly look at those places 
in the country that have had serious outwashes of production, 
and where the people are still struggling to obtain work.
    The role of these incredible institutions can really make a 
difference, and we have had really good--made some good efforts 
in our area to sign an agreement with Argonne, for example, 
with a NASA facility, which is the only Federal research 
facility we have in northern Ohio.
    But I just look around the country, and I think, you know, 
it is a good life working at Berkeley. Man, you look out over 
the Pacific, you know, and fog comes in, and the sun comes up, 
and places for lunch, and comfortable. And, you know, everybody 
has got an IQ above, what, 120, 150--2,000, probably. And I 
just look at the places in the country. Our chairman of the 
full committee comes from Kentucky. I look at some of the 
struggles that he has in Kentucky, and I think in the high 
sciences they ought to at least be surveying the horizon and 
taking jewels that exist in different parts of the country, 
including them.
    I remember when I was on one of the veterans subcommittees 
and I said, you know, you have got a problem with all of these 
veterans who are sick in the beds every day in these hospitals, 
and let us take a look at who is on your protocols, which 
scientists are coming in to make decisions about where to give 
grants for this or that within the VA. It was the same thing.
    So I see a Federal pattern across different departments, 
and I am just trying to sensitize you to my concern that there 
be inclusion, and that somebody be thinking about that 
somewhere in your shop and at least provide opportunities to 
include people on peer review panels, places that the 
Department of Labor can tell you exactly where these 
communities are, and there are whole regions that lack the kind 
of capacity that many of these facilities that you have 
mentioned in your testimony have.
    So I just wanted to make that point. I just want to go to 
my questions here. I wanted to ask you a question about other 
countries, and when you talk about everybody wanting to get 
into certain types of high science. In the way you look at the 
world, how would you rank those countries and in which areas of 
inquiry?
    Ms. Dehmer. Okay. Let me back up a little bit. When I 
started in science, it was a very long time ago, probably 40 
years ago, the United States was the place to be. The United 
States has not diminished at all. We still have outstanding 
researchers who are well funded. The change has been that other 
countries, other areas of the world recognize that science and 
engineering are incredibly important for their economic 
development.
    So now I would say that, for example, in high-performance 
computing, big competitors are in China-- China actually has 
the number one top-performing computer right now; in Japan and 
in Europe.
    In light sources, light sources are incredibly important 
because they can examine materials at the atomic level. And if 
you know how materials are made at the atomic level, you can 
start building new ones. We were dominant. The United States 
was dominant in light sources for decades, and I know because I 
used some of the early ones in the early days of light sources 
in the 1980s. Today China, Japan, Europe, South America are all 
building light sources that are competitive with ours. It is 
not that we aren't well funded, and building outstanding 
machines, and having outstanding people work; it is that the 
rest of the world has figured out that they have to do this, 
too.
    And so we are in a race in the important technological 
areas that drive innovation with other parts of the world.
    Ms. Kaptur. Where is Russia?
    Ms. Dehmer. Russia is not at the same level in computing. 
It is not at the same level in materials characterization using 
these very advanced tools, but they have some outstanding 
researchers, and they have outstanding facilities for particle 
physics and high-energy physics. Novosibirsk is one that comes 
to mind.
    Ms. Kaptur. You have talked about material science.
    Ms. Dehmer. Yes.
    Ms. Kaptur. And we know that that is critical for the 
advancement of our Nation's manufacturing base. Can you take a 
few moments to delve a bit more into what the Office of Science 
is doing in the area of material science?
    Ms. Dehmer. We have one of the biggest material science 
programs, basic research material science programs, in the 
government. And I think taken as a whole, the Department of 
Energy is probably the lead in material sciences if you include 
the technology offices.
    What we have done over the past decade is we have worked 
very hard to understand how materials are constructed from the 
bottom up using nanoscale science. We built five nanoscale 
science research centers in the mid-2000s, and what we are 
doing now is trying to develop new materials with new 
properties and new functionality that can actually be put into 
production for things like batteries, and solar cells, and 
catalysts, and so forth. So we are one of the leads in material 
sciences, and we are very aggressive about pursuing new ways of 
doing business.
    Ms. Kaptur. Does that include metals as well as composites?
    Ms. Dehmer. Absolutely. Metals, alloys, composites, soft 
material, everything.
    Ms. Kaptur. All right. That is my first round, Mr. 
Chairman.
    Mr. Simpson. Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Well, this is the second time today that the ranking member 
and I are so much along the same line of questioning that I 
think we must be working off the same notes.
    To be honest, while I do consider her a friend and 
respected member of this committee, I think it is more 
indicative of the bipartisan nature of the work on this 
committee, because the issues that we are confronting really 
don't know partisan boundaries.
    In my opinion, we are standing on the shoulders today of 
the people who came before us that made the decision to invest 
in research and those who actually conducted that research. And 
almost every aspect of every one of our daily lives has been 
impacted by the work they did before we got here. I am thinking 
I have friends who work every day in careers that once did not 
exist--In fact, there was not even terminology for these 
careers when my grandparents were my age. And with that 
foundation, I look forward to knowing that my children, my 
grandchildren, and their grandchildren are going to be impacted 
every day in their life by decisions that we make collectively 
on this committee by projects that we either embrace or 
projects that we reject. That is a heavy responsibility.
    With that in mind, following on what the ranking member had 
to say, I would just like you to continue to put in context our 
Nation's investment in research as compared to that investment 
being done by other global powers. Where do we fit?
    Ms. Dehmer. Perhaps an example. Some years ago when I was 
still the director of the Basic Energy Sciences Program we made 
the decision to invest in the Linac Coherent Light Source, 
which is an X-ray free-electron laser. It was throwing long. No 
one, no one believed that an X-ray free-electron laser would 
work, but we used the SLAC Linac, and it turns out that the day 
of commissioning, many people said it will never work; it will 
take 6 months to commission. It commissioned in 2 hours.
    But that is not the real point of the story. The real point 
of the story is that Germany was also heavily invested in free-
electron lasers, and one of the things that we did was have 
collaborations with our German colleagues, and they had very 
advanced instrumentation and detectors. And had it not been for 
their bringing their instrumentation and detectors over, we 
never would have made such a huge impact on day one of the 
commissioning of the Linac Coherent Light Source.
    If you go back, say, 20 years, we never could have said 
that story. There never would have been a Germany that was 
equal to us and in competition with us at that level. That is 
becoming more and more true. And I think it is necessary to 
pick areas of science where the United States wants to be 
number one and make aggressive investments.
    Mr. Simpson. Will the gentleman yield for 1 second?
    Mr. Nunnelee. Sure.
    Mr. Simpson. What does that mean? Not the last statement, 
but the light source that you are talking about. I mean, 
practical terms to the American people, the average individual, 
what does----
    Ms. Dehmer. So what do light sources do? Okay, they examine 
materials at very high resolution through something called 
scattering, and they can tell you the atomic composition and 
the placement of atoms in materials. For example, biomolecules, 
right? Biomolecules are very important, and drug manufacturers 
are very keen to know the structure of proteins because they 
can then make drugs that bind to the proteins, right? So the 
Linac Coherent Light Source is different than conventional 
light sources. Conventional light sources need tiny crystals in 
order to do X-ray scattering and get structures of proteins. 
The Linac Coherent Light Source actually is so bright and so 
powerful that you can drop a protein, not in a crystal, but you 
can drop a protein in a little jet of water down in front of 
the beam, and without a crystal, one molecule at a time, you 
can begin to get structures.
    Now, why is that important? Why is it important to do that 
fast? It is important to do that fast, because many, many 
proteins, the majority of the proteins, won't crystallize. So 
now you suddenly have a tool that does single-molecule 
imaging--that was one of the stretch goals of this machine--
single-molecule imaging of proteins that don't crystallize, and 
so it opens up a whole new world of science for the users.
    Mr. Nunnelee. All right. You talked about collaboration 
with other countries.
    Ms. Dehmer. Yes.
    Mr. Nunnelee. So much of what we do does require that 
collaboration.
    Ms. Dehmer. Right.
    Mr. Nunnelee. How do we achieve that and at the same time 
maintain our country's global position, scientific leadership, 
and our own national interest?
    Ms. Dehmer. Well, there are cases where collaboration is 
necessary and is good; where an instrument is too expensive, 
too technologically difficult for a single country to build. 
And the one that comes to mind is the Large Hadron Collider at 
CERN. We are essentially out of the business in the United 
States of collider physics, high-energy collider physics, but 
its perfectly acceptable to us and to the rest of the world to 
be users at CERN. In fact, a third of the users at the Large 
Hadron Collider are U.S.
    So, okay, but do you want to do that? Do you want to have a 
central facility in the world that does high-performance 
computing with you not having access to it or control of it? As 
far as I am concerned, I don't think so, and that is reflected 
in our budget. Do you want to have facilities for materials 
characterization which drives new materials discovery and 
development that is somewhere other than here? I really don't 
think so.
    So there are places where you collaborate, and there are 
places where you have to have your own tools. That is how I 
look at it.
    Mr. Nunnelee. Mr. Chairman, four semesters of calculus got 
me out of the engineering school and into the business school, 
but this fascinates me.
    Mr. Simpson. I agree with the gentleman. This is 
fascinating stuff, and fortunately, or unfortunately, it is way 
above my pay level, it is up there, but it is interesting. And 
that is why I ask on the practical level, how do I explain some 
of this stuff to the average Joe that wonders why we invest in 
this stuff? So I appreciate your answers.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, and thank you for 
welcoming me to the committee.
    Doctor, I have some particular concerns I would like to ask 
you. I assume in nuclear experiments that chaos is not a good 
thing. And yet I have delved a little bit into this ITER 
facility, the international organization that runs this ITER 
facility, and it appears to be pretty chaotic. And I think that 
that is affirmed by the budget request which is lower for 
Fusion Energy Sciences. And in one particular sentence that you 
have in your testimony, it says, our present assessment of the 
international project is that it cannot under current 
conditions meet the most recent schedule put forward by the 
ITER Organization.
    Is this a waste of money?
    Ms. Dehmer. No. That is not our position. You know, as I 
said at the beginning, the United States, the administration, 
maintains its commitment to the agreements that we made in 
2006, the joint implementing agreement. I have built a lot of 
projects in my years in the Department of Energy. I spent 12 
years as the Director of Basic Energy Sciences, building very 
large projects, the Spallation Neutron Source and several 
others, and I know that projects run into trouble. And the 
management assessor's report on ITER has indicated that ITER is 
now in one of those periods.
    What we expect is for the ITER Organization to accept the 
recommendations of the management assessor's report, to create 
a corrective action plan, and to begin to implement that 
corrective action plan, and at that point I think it is 
possible for this project to turn around and build ITER. But at 
this point the $150 million request is what we believe is an 
appropriate request for this project at this moment in time.
    Mr. Fortenberry. I am sorry if I am confused about the 
number. I am reading $225 million.
    Ms. Dehmer. No, that was----
    Mr. Fortenberry. This year's implemented number?
    Ms. Dehmer. In 2014?
    Mr. Fortenberry. Yes.
    Ms. Dehmer. In 2014 the number is $200 million.
    Mr. Fortenberry. And it will drop to $150?
    Ms. Dehmer. Correct.
    Mr. Fortenberry. Okay. I guess the point, then, is affirmed 
that here we are lowering our commitment because we are 
basically suggesting that the organization, this organizational 
structure and the trajectory towards some outcome here appears 
less and less probable.
    Is this money better invested elsewhere? Should this be 
revisited? This is a lot of money.
    Ms. Dehmer. This is a lot of money. I think this year, 
under these circumstances, $150 million is the correct request.
    Mr. Fortenberry. Okay. Are we putting a Band-Aid over 
something that is bleeding, and then next year we will have 
another consideration as to whether or not we are going to be a 
part of this at all? And when is the projected project 
conclusion; 2024, did I read that correctly in another article?
    Ms. Dehmer. I don't know what article you are referring to, 
but the ITER Organization has committed to provide a baseline 
which is the schedule for the project by summer of next year, 
by summer of 2015. I don't particularly want to preclude, you 
know, obviate their work by suggesting what an end date might 
be for first plasma.
    Mr. Fortenberry. Okay, then that is when it gets hard for 
decisionmakers, because we are committed to something that 
appears to be open-ended, is not going well at the moment. 
There is no defined outcome. I recognize this is experimental 
in nature, and it has got international ramifications.
    When did this start, and when were the initial assessments 
that we would actually have some conclusive data or project 
that was usable, implementable, because it was a lot earlier 
than this?
    Ms. Dehmer. I am sorry, I don't understand the question. 
When did----
    Mr. Fortenberry. When did the organization start, and when 
were the initial timelines and projections for outcomes?
    Ms. Dehmer. The ITER Organization became an organization in 
2007. And the----
    Mr. Fortenberry. But the idea was much earlier than that.
    Ms. Dehmer. Oh, yes.
    Mr. Fortenberry. And I assume money spent on it much 
earlier than this.
    Ms. Dehmer. We rejoined, the United States rejoined the 
ITER Organization at that time. We had been in it much earlier.
    Mr. Fortenberry. And then suspended our membership. And why 
did we do that?
    Ms. Dehmer. I am not a historian in this particular case, 
but I believe because of the--you know, the design and 
schedule.
    Mr. Fortenberry. So we are bumping maybe perhaps into the 
same problem here?
    Ms. Dehmer. I think it is a very different project at this 
moment in time than it was at the time we got----
    Mr. Fortenberry. What is it going to produce and when?
    Ms. Dehmer. It is going to produce ITER, which is the first 
worldwide experiment to create a burning plasma, and probably 
the earliest--my personal guess, not an administration guess--
is late 2023.
    But again, the ITER Organization has committed to provide 
us with a baseline by summer of next year.
    Mr. Fortenberry. Do we have some sort of probability 
assessment of what a 2023 outcome is going to look like?
    Ms. Dehmer. No.
    Mr. Fortenberry. And then how much money will we project to 
have spent by then on this?
    Ms. Dehmer. So last year when we submitted the 2014 budget, 
we said that we would spend up to $225 million a year, up to 
$2.4 billion, but we would reassess as we approach first 
plasma.
    Mr. Fortenberry. Who are the largest contributors to this?
    Ms. Dehmer. The E.U. is the largest contributor.
    Mr. Fortenberry. And how much have they contributed?
    Ms. Dehmer. They have 45 percent of the project, and the 
other members have 9.09 percent each.
    Mr. Fortenberry. So we contribute 9 percent to the total?
    Ms. Dehmer. Correct.
    Mr. Fortenberry. All right. Thank you, Mr. Chairman.
    Mr. Simpson. Let me ask you, when these large international 
joint ventures, I guess you will call them, whether it is the 
accelerator at CERN or ITER, are they proprietary, the people 
that do the research there, or is it shared with all of the 
members?
    Ms. Dehmer. No, at CERN the work is not proprietary. The 
expectation is that the researchers will publish their work.
    Mr. Simpson. And will that be the same at ITER?
    Ms. Dehmer. I would have to go back and look at the ITER 
agreement. I don't know the answer to that.
    Mr. Simpson. Is it generally the standard that we use on 
these types of the facilities?
    Ms. Dehmer. Yes, sure.
    Mr. Simpson. If it is proprietary work, they end up having 
to pay for it?
    Ms. Dehmer. Yes. For virtually all of our scientific user 
facilities, there is no cost for nonproprietary work, and the 
expectation is that the researchers will publish their work. A 
very small fraction, very small fraction, a few percent of the 
work is proprietary, and then the user pays full cost recovery.
    Mr. Simpson. Okay. Several years ago the Department of 
Energy transitioned all isotope-production programs to the 
Office of Science, a transition that was ordered by Congress a 
number of years prior to that. In your view is the isotope 
program operating well under the Office of Science, and is the 
Office of Science working to ensure that commercial isotope 
producers have direct working relationships with user 
facilities on a day-to-day operational matter as it continues 
its effort to coordinate isotope-production activities across 
the DOE complex?
    Ms. Dehmer. Yes, we think it is working well. There is an 
isotope office at Oak Ridge National Laboratory, and that is 
the day-to-day contact for most people who would interact with 
the program, but others do interact directly with headquarters.
    Mr. Simpson. The office is authorized to charge its 
customers fees to recover its costs on the isotope program.
    Ms. Dehmer. Yes.
    Mr. Simpson. And I am told that it also imposes an 
additional surcharge on all or most customers, which the office 
says is to pay for infrastructure across all isotope 
facilities.
    Do you believe the pricing, including the surcharges, is 
well justified and fair to both the taxpayer and the isotope 
customer?
    Ms. Dehmer. I am not familiar with the surcharge. I will 
have to provide an answer for the record on that.
    Mr. Simpson. Okay. And I apologize, Mr. Fleischmann. You 
came back in, and I was thinking we were going right down the 
line, and--time is yours.
    Mr. Fleischmann. Well, thank you. I appreciate the line of 
questioning from the chairman, and I thank you for this 
opportunity.
    And, Doctor, the sentiments of this subcommittee, I think 
are very clear. We are truly amazed with what is going on in 
your field. I have the great privilege of representing the city 
of Oak Ridge. Any time I go to the lab and see Dr. Mason, I am 
just amazed with the tremendous strides that we are making 
across the board in science. It is so important.
    I have a few questions, though. The Spallation Neutron 
Source and HFIR at Oak Ridge National Laboratory make Oak Ridge 
the world leader when it comes to neutron science, neutron-
scattering materials for study, and the production of isotopes 
and irradiated materials with neutrons. Does the budget request 
adequately support a continued infrastructure--support the 
continued infrastructure needs of the neutron facilities at Oak 
Ridge?
    Ms. Dehmer. Yes, it does.
    Mr. Fleischmann. Okay, thank you.
    Do you foresee an increased role for the neutron facilities 
at Oak Ridge, especially in light of the closure of the Lujan 
Center at Los Alamos?
    Ms. Dehmer. Yes. The budget that we provided for High Flux 
Isotope Reactor and Spallation Neutron Source will allow them 
to accommodate a couple hundred more users, and that is roughly 
the number of users that will be displaced at the Lujan Center.
    Mr. Fleischmann. Okay. Doctor, as you are no doubt aware, 
the Oak Ridge National Lab is required to maintain an increased 
security footprint due to the presence of U-233, a fissile 
material, in building 3019. Although the removal of U-233 from 
the building 3019 is primarily the responsibility of the 
Environmental Management, security is the responsibility of the 
Office of Science.
    How much does the Office of Science expect to spend to keep 
building 3019 secure until the materials are removed?
    Ms. Dehmer. I will have to get that answer for you.
    Mr. Fleischmann. Okay. If you would provide that for us, I 
would appreciate that.
    Ms. Dehmer. Certainly.
    Mr. Fleischmann. A follow-up to that, I know there have 
been some issues with the removal of U-233 to the Nevada test 
site. Can you tell the committee about some of the issues 
encountered and provide with us an updated timeline, please?
    Ms. Dehmer. I know that the Department of Energy is working 
with the State of Nevada to try and reconcile this. I don't 
know what the timeline is for an outcome of that.
    Mr. Fleischmann. Okay. We discussed earlier and I 
appreciate your going into some of the supercomputing issues, 
which are tremendous. I wanted to talk with you about that. As 
you are no doubt aware, Titan at Oak Ridge was the fastest 
computer in the world until recently being eclipsed by a 
Chinese computer.
    Ms. Dehmer. Yes.
    Mr. Fleischmann. Could you please tell us what the 
Department's plan is in order to remain a world leader in 
supercomputing?
    Ms. Dehmer. Well, I talked a little bit in the oral 
statement about exascale. We have a plan to produce an exascale 
machine by the early 2020s that will be 500 to 1,000 times more 
powerful than the ones we have today.
    Moreover, it will be a capable exascale machine is the 
wording that we use, and what that means is it will be 
programmable, and it will be usable by the scientific 
communities. That is a big difference between building an 
exascale machine that just runs at exaflops per second.
    So our goal is to make an exascale machine that is 
programmable, that has reasonable power requirements, and that 
is made from commercial components. And we have two or three 
generations of computers that will be installed at Oak Ridge in 
the intervening years before we get to, say, 2022, 2023. So we 
are aggressively going forward with that. It is our highest 
priority in the Office of Science to make that happen.
    Mr. Fleischmann. Thank you very much. I think you and I 
agree that supercomputing is a superpriority for our Nation.
    Ms. Dehmer. It is.
    Mr. Fleischmann. And I appreciate your passion for that.
    If I may in my last question, again, you have touched on it 
earlier, can you please tell the committee and reemphasize just 
how important this is with supercomputing to enhance and 
improve other programs within the Office of Science?
    Ms. Dehmer. One of the things that our Advanced Scientific 
Computing Research Program does is it reaches out to all of the 
programs in the Office of Science on a regular basis; has joint 
workshops to find out what those programs need in terms of 
capability, hardware capability; and also works with every one 
of the programs in the Office of Science to advance their 
scientific computing needs.
    In addition, that program has reached out to the technology 
offices that you talked with this morning, and is working with 
them as well.
    Mr. Fleischmann. Thank you, Doctor.
    Chairman, I yield back.
    Mr. Simpson. Thank you.
    I guess the reason people like Mr. Nunnelee and I find this 
all so fascinating is you are sitting here talking about these 
supercomputers. I can still remember when I was taking college 
chemistry and physics classes when I bought my first HP 
computer that added, subtracted, multiplied, and divided. And 
the thing is you would use it taking a test, but you didn't 
trust it. So you would do it with pencil, you know. And that is 
what is so stunning to us when we see all of this stuff.
    I should have said this earlier, and welcome, Mr. 
Fortenberry, to our subcommittee. It is good to have you on the 
subcommittee, the Congressman from Nebraska, First District, 
and we are glad you are with us here.
    Mr. Fortenberry. Thank you.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I wanted to, Dr. Dehmer, go to the area of bioenergy a 
little bit, and the Department is currently supporting three 
Bioenergy Research Centers, and they are in their second 5-year 
term.
    Ms. Dehmer. Yes.
    Ms. Kaptur. And my question really is can you bring us up 
to date on the progress in those three centers, where are they 
located, and what breakthroughs have you accomplished during 
that time, and how do you work with the Department of 
Agriculture? I can assure you that I was on the Agriculture 
Subcommittee, and Senator Harkin and I wrote the first title to 
push the Department of Agriculture into energy, and they didn't 
want to go there. And we did it in an appropriation bill as the 
authorizers, so it is really interesting to see where the 
momentum is.
    Now some have discovered that, oh, gosh, there is a future 
in unlocking the carbohydrate molecule. But my senses were at 
the beginning of that science, so this morning I put an article 
in the record dealing with an F-16 unit in our region that 
flew, the first one, using a blend of canola and other petro 
blends, and it didn't crash.
    But I am interested in, what can you tell us about those 
three centers? Where are they located? Where are you headed 
with all of that? What are some of the breakthroughs you have 
noted, and how do you work with the Department of Agriculture?
    Ms. Dehmer. So first the centers are located at Oak Ridge 
National Laboratory. They have multiple partners. Each center 
has a number of partners, but the lead institution for the 
first one is Oak Ridge National Laboratory. For the second one 
is the University of Wisconsin, and for the third one is 
Lawrence Berkeley National Laboratory. And like I said, each 
one of these----
    Ms. Kaptur. The third was Lawrence?
    Ms. Dehmer. Lawrence Berkeley National Laboratory.
    Each one of these has probably 10 or 15 partners, 
universities, you know, local industries, whatever.
    The Bioenergy Research Centers were established in 2007, 
and they were established to produce ethanol from cellulose. At 
the time cellulosic ethanol was a stretch. Most ethanol was 
produced from crops, food crops, that assembled the raw 
material into a part of the plant that was easily obtained; 
corn, for example, corn kernels, or soybeans. Cellulosic 
ethanol is very different because the feedstock cellulose is 
entwined inside the woody stems of the plant, and it is hard to 
get out. It is not a food crop, so it doesn't compete with food 
crops.
    So there were three challenges for the Bioenergy Research 
Centers when they were started. One is to look at feedstocks, 
alternate plants. The second was what we call recalcitrance, 
and that is the process of getting the cellulose out of the 
plant. The plant doesn't want to give up the cellulose. The 
plants have woody stalks that are very stiff, and Mother Nature 
made them that way so they wouldn't fall down, and now we are 
trying to get the cellulose out of those woody plants. And the 
third challenge was microbial synthesis of biofuels, mostly 
ethanol, but it could be higher alcohols or fuels as well.
    So each center picked certain areas to emphasize. In a 
sense, all of the centers touch on each one of these, but in 
the area of feedstocks, there has been a tremendous effort to 
look at wild-type feedstocks, for example, looking at thousands 
of poplar varieties, looking at all kinds of grasses, so just 
looking at what Mother Nature gives us, but second, doing 
genetic engineering to make those plants have more cellulose 
and make the plants release their cellulose easier. So that is 
the first feedstocks.
    The second is recalcitrance, so how do we get the cellulose 
out of a woody plant? And there were pretreatment innovations 
made. There was microbial decomposition of plants to get the 
cellulose out. So in each one of these three areas, there has 
been major advances made.
    And the final is microbial synthesis of fuels, and a couple 
of the Bioenergy Research Centers have worked very hard to 
modify microbes to make fuels in a single step, or make heavier 
fuels. So I think the first 5 years of these Bioenergy Research 
Centers have been incredibly successful in addressing the three 
main goals of the BRCs, the Bioenergy Research Centers, when 
they were formed. Now they are into their second 5-year period 
with even more ambitious goals, but, again, along these same 
three areas.
    Ms. Kaptur. But cellulosic has undergirded--it is your 
fundamental material, from what you are saying?
    Ms. Dehmer. Yes.
    Ms. Kaptur. You focused on the alcohol side. What about the 
oil side?
    Ms. Kaptur. So the Bioenergy Research Centers have also 
worked on modifying plants to produce oil so that the oils 
would be easier to extract, but in general, their goal was not 
to make plants that have oil that could be immediately 
chemically altered to be alcohols.
    Ms. Kaptur. And is that because that is more expensive?
    Ms. Dehmer. I don't know. I don't know the answer to that, 
but I do know that the fundamental goal of these centers was to 
use nonfood crops that could be grown in weaker soils so that 
they wouldn't compete with the soils that we use for food 
crops, and make it--modify the plants, modify the microbes, 
modify pretreatment conditions to make it easier to pull the 
cellulose out of the plants, and then to modify that to make 
sugars, and then to ferment the sugars.
    Ms. Kaptur. It would be really interesting to look at the 
sugar versus the oil. I don't know if you can find somebody 
there who thinks about that.
    Ms. Dehmer. I can certainly have a little short white 
paper, you know, a page or two white paper written on using 
oils versus using sugars to produce alcohols----
    Ms. Kaptur. Right.
    Ms. Dehmer [continuing]. Versus using cellulose.
    Ms. Kaptur. I have a listing in my office one of my seed 
dealers gave me with all of the oil content of seeds, and some 
of them are not really edible seeds, but they produce a lot of 
oil. And so I was just curious for our biodiesel market, for 
example, how much research is going on there. I am trying to 
get a sense of what is happening on the sugar side and what is 
happening on the oil side. So any clarification you can provide 
would be most interesting.
    Ms. Dehmer. Okay. Okay.
    Ms. Kaptur. And I wanted to ask a question I asked this 
morning of our witnesses from the Department, and that is that 
of everything you have seen in developing research, for the 
record, are there any particular fields that, when you have 
seen what is happening, it has been particularly rewarding for 
you as a scientist, say, that is really going to mature quickly 
and is going to make a huge difference? It sounds like 
supercomputing is where you put a lot of your marbles, but 
maybe there is something else.
    Ms. Dehmer. I think when I look back on my time in the 
Department of Energy, one of the things I am proudest of is 5 
years of workshops with community input and advice from the 
advisory committee that eventually led to 46 Energy Frontier 
Research Centers. They are just little engines of discovery.
    We recently had the Secretary of Energy's Advisory Board, 
SEAB, look at the Bioenergy Research Centers, the Energy 
Frontier Research Centers, the hubs, and the draft report was 
just posted on the Web, and the Energy Frontier Research 
Centers have fared extremely well. So I am very proud of that.
    In terms of my later years here, I think one of the biggest 
surprises to come out of the research that is done in the 
Department of Energy was the Nobel Prize to Saul Perlmutter a 
few years back for his discovery of the accelerating universe. 
It is rare in science that a single--a single discovery or a 
single event changes the way we think about the world around 
us, and this discovery of the accelerating universe did that. 
So that is a key point.
    The other thing, the third thing, that I would like to 
mention has to do with our light sources. Every 3 years the 
Nobel Prize in chemistry is awarded to biochemistry, and the 
last four prizes in this area were awarded to investigators who 
used the light sources to learn the protein structures of 
extremely important proteins. And I think it is remarkable that 
we haven't missed a Nobel Prize using a light source in four of 
those, in a set of four of those.
    So I think, you know, these are the kinds of things that I 
think of when I think about what has really changed the way 
people think.
    Ms. Kaptur. That perspective is most interesting. Thank you 
for sharing it.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman. You and I both have 
been reflecting on our university career.
    Ms. Dehmer, if you would walk me through the relationship 
between the Office of Science, the various research 
universities--we have four in my State--and the national labs. 
How do you integrate them? How do they fit together? And what 
are their roles? What is your role?
    Ms. Dehmer. So in the Office of Science, we support about 
300 institutions, and because there are only 17 labs, most of 
those institutions are universities.
    Increasingly, over the last several years, the laboratories 
and the universities have partnered in big activities. The 
Bioenergy Research Centers is one. All three of them have 
university partners, and two of them are run by labs, but have 
significant university partners.
    Of the Energy Frontier Research Centers, three-quarters of 
them are hosted by universities, and they will reach out to 
labs and have lab partners.
    So what I have seen happen is over the last 10 years that 
the university community and the laboratory community have 
become much more interactive, much more collaborative. The labs 
have been more collaborative with one another. And the 
university community has relied on the laboratories for its big 
tools.
    Twenty-five, thirty years ago--so I go back with the labs a 
long ways--there was no such thing as a scientific user 
facility that was wide open. Today the scientific user 
facilities have redefined what a laboratory is. We touch as 
many people by funding them directly as we do by those going to 
our scientific user facilities at the labs, roughly 28- to 
30,000 each. So the labs and the universities have really 
become partners, each doing what it does best and each needing 
the other.
    Mr. Nunnelee. So how do you go about deciding whether we 
need this university to partner with this lab as opposed to 
that university?
    Ms. Dehmer. Typically it is done by a funding opportunity 
announcement, and the partnering is self-partnering.
    Mr. Nunnelee. So there is an announcement, the universities 
know about it, and then they just work----
    Ms. Dehmer. Typically groups at universities and 
laboratories will reach out to one another to form a 
partnership. It is not directed by headquarters.
    Mr. Nunnelee. All right. Thank you.
    Yield back, Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    I want to return to some of what my colleague Ms. Kaptur 
was talking about regarding biofuels research and ask you to 
point to some specific outcomes.
    And then I do have a concern of trying to get an 
understanding of what research is going on across multiple 
disciplines.
    For instance, when I was on the Agricultural Committee, we 
had asked for a summary of all of the research going on across 
the government into renewable biofuels, and we don't think we 
ever got it, because it looked like to be a pretty complicated 
piece of information to try to obtain. So that suggests there 
might be some duplication going on. Is there a coordinated 
effort here with the Department of Agriculture?
    And then could you be specific in terms of what we are 
looking at producing? I understand that the next generation of 
ethanol was to be cellulosic, and there is some advancements 
being made internationally. It is my impression is we are 
lagging, though, here in the United States in that regard.
    And then regarding your microbial synthesis of fuels, does 
that mean algae?
    Ms. Dehmer. No, it does not mean algae.
    Mr. Fortenberry. Okay. Well, tell me what that means.
    Ms. Dehmer. The Bioenergy Research Centers in general do 
not work on algae. They work on other kinds of feedstocks. So 
it would be other feedstocks using microbes to generate 
alcohols directly.
    I don't know enough about this to be as informed as I am on 
some other subjects.
    Mr. Fortenberry. Well, I think that is part of my question, 
and neither do I. And I would like to know what the government 
is doing everywhere, not just right here, in this regard to 
ensure that we are coordinating properly, that we have not 
unproductively stovepiped this between you, the Department of 
Agriculture, and the Department of Defense, all of whom have 
interest in this.
    Ms. Dehmer. Well, I know that there are coordinating 
committees, Federal coordinating committees, that do look at 
this. I also know that the former Director of Biological and 
Environmental Research, she retired not very long ago, came 
from the U.S. Department of Agriculture. And so she reached out 
very often to USDA to form collaborations.
    In general, in the Department of Energy, in the Office of 
Science, we have a good understanding of what our counterparts 
are doing, whether it be USDA, the National Science Foundation, 
the National Institutes of Health, or the DOD agencies.
    We have a good understanding, and I have not seen an 
example where partnering doesn't happen when it ought to 
happen.
    I am happy to get you the information on biofuels across 
the government to give you a sense of where the Department of 
Energy fits and where other agencies fit.
    Mr. Fortenberry. That would be helpful, because--to not 
only understand who is doing what and then who is making the 
decision about who is going to collaborate with whom. That 
would also be helpful.
    Ms. Dehmer. Okay.
    Mr. Fortenberry. I think that way we ensure that the proper 
specialization is supported, and we are clearly always looking 
for areas in which we can consolidate or make things more 
effective and efficient.
    But in terms of the outcomes, is my statement correct that 
we are lagging in cellulosic--the next generation of cellulosic 
production, whereas there are some other countries who have 
integrated this more successfully into commercial outcomes?
    Ms. Dehmer. I don't know the answer to that, but I will get 
you the answer.
    Mr. Fortenberry. It is my understanding that China may be 
as--and I'm going off memory here--but Brazil, I think, has 
made some advances as well.
    Ms. Dehmer. Okay. Again, I don't know. Brazil, of course, 
is very heavy into sugar.
    Mr. Fortenberry. Right. Right.
    All right. Thank you, Mr. Chairman.
    Mr. Simpson. Last thing I want to touch on with you is that 
Congress funded the first three energy innovation hubs in 
fiscal year 2010. The Committee funded a limited number of 
these hubs because of their potential to deliver more per 
taxpayer dollar, but we also funded them with the understanding 
that the progress must be tracked closely, and that only hubs 
demonstrating exceptional results should be extended beyond 
their initial 5 years.
    One of the three hubs, the Joint Center for Artificial 
Photosynthesis at Cal Tech and Lawrence Berkeley National Lab, 
is under your purview. In laymen's terms, this hub aims to 
create a device that creates transportation fuels from 
sunlight. The budget request includes funding to renew the hub 
for another 5-year term.
    How has this hub performed so far, and will you look to 
recompete it or simply renew it?
    While hubs are originally pitched by the Secretary of 
Energy as initiatives under one roof, this hub is actually 
under two roofs, Cal Tech and Lawrence Berkeley Laboratory. Is 
that model proving effective? And what are its challenges? And 
what have you learned from the hub model of this experience?
    Ms. Dehmer. This particular hub has produced to date some 
very interesting results, one of which was the development of 
very high-throughput screening for parts of what will become 
the artificial photosynthetic device. It has developed 
apparatus for screening tens of thousands of catalysts, for 
photoabsorbers and so forth quickly and rapidly, and that is a 
big step in creating a device. And they have also done some 
very excellent work at the beginnings of trying to assemble 
components into a device.
    This hub, as probably you are aware, had some management 
challenges in the middle of its life. The Basic Energy Science 
Program, which runs the hub, which oversees the hub, is going 
in for the final annual review of the hub in April of this 
year. Based on that review, guidance will be provided to the 
hub director, and that guidance can span a wide array.
    I can tell you that the likelihood of recompetition is 
extremely small, because starting a new hub in the same area, 
we would have to go through the same growing pains. I mentioned 
earlier the Secretary of Energy's Advisory Board review of 
hubs, Energy Frontier Research Centers, Bioenergy Research 
Centers, and NRBE, that report is in draft on the SEAB Web 
site. It just came out this weekend.
    One of the comments that it makes about hubs is that when 
the renewal time comes, the options should be, for example--I 
may not get this totally correct--termination, full funding, or 
something in between. And----
    Mr. Simpson. That leaves it pretty wide open.
    Ms. Dehmer. But recompetition is not one of the options. 
Recompetition is not one of the options.
    The hub owner can also put out less funding, as we have 
seen with the hub, the buildings hub, and dehubify it. But 
recompetition is not an option.
    So based on this review that will happen in April, the 
program will provide direction to the hub for its renewal 
proposal. And we have requested full funding for the hub, but 
that is a placeholder. Once we know what direction we have 
given to the hub management, we will inform this committee.
    Mr. Simpson. So if those are the options, full funding or 
defunding, dehubifying, whatever you want to call it, or 
anything in between----
    Ms. Dehmer. Anything in between.
    Mr. Simpson [continuing]. Does that suggest if we--what do 
you do if you have a subject matter that is potentially very, 
very valuable, like this Joint Center for Artificial 
Photosynthesis? Let us assume that that is a subject we ought 
to be investing in and so forth, but the hub just does a poor 
job, so you want to defund it. You still have the subject that 
you think is important. You don't recompete it? You just say, 
we picked the wrong subject? I don't know that I am explaining 
it well.
    Ms. Dehmer. No. I do understand what you are saying.
    I don't think that will be the outcome, first, knowing a 
lot about this particular hub.
    There may be areas within the hub that are extremely high 
functioning and ought to continue. The entire hub might well 
ought to continue, but you have to--one thing that is important 
to understand is that this hub is built on an incredibly large 
research portfolio that the Basic Energy Sciences Program funds 
in artificial photosynthesis, essentially in all of the small 
components of artificial photosynthesis, light absorbers, 
catalysts, so forth. And this is completely hypothetical and 
has nothing whatsoever to do with how this hub will review.
    Mr. Simpson. My question was hypothetical, too.
    Ms. Dehmer. But, for example, let us say there were a 
hublike entity, and we discovered after 5 years, after the 5-
year review, that there were parts of it that were so important 
and had made such great progress that we had to continue those. 
We could probably continue it within the existing hub, or we 
could have some kind of other activity, you know, a set of 
small Energy Frontier Research Centers that work on pieces of 
it.
    So I think that what the Secretary of Energy's Advisory 
Board was saying is keep your options open. Not everything 
needs to be a hub. Don't start over, trying to build up all the 
same infrastructure all over again after 5 years. And consider 
how this particular funding mechanism might work as we go into 
the future.
    Mr. Simpson. The batteries and energy storage hub is also 
in the Office of Science----
    Ms. Dehmer. Right.
    Mr. Simpson [continuing]. But was funded in fiscal year 
2012 and awarded at the Argonne National Laboratory. This 
battery hub also involves four other national labs, five 
universities, and four companies.
    While the strong interest is encouraging, this does leave 
us wondering whether the involvement of 14 entities will spread 
funds thin and create a hub under 14 roofs. And is this what we 
were originally talking about when we were talking about hubs, 
trying to bring things together under one roof for a single 
subject?
    Ms. Dehmer. Some of the 14 are very small partners. I 
think, looking at the experience of the Energy Frontier 
Research Centers, honestly, I had thought that they are small, 
they are 2- to $5 million. I thought that they would be largely 
under-one-roof entities, and it turned out that they are not. 
And they work extremely well.
    The challenge when you have multiple entities is 
management. The management has to very strictly and very 
sternly use the partners in a way that you get an outcome in 
the requisite period of time. The hub itself, or the Energy 
Frontier Research Center itself, cannot be a funding agency 
that doles out money to 14 partners. It has to be a strongly 
organized, centrally managed entity that pulls basic research 
in from its partners in order to produce a product.
    Mr. Simpson. Okay. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. I am going to switch to a totally different 
plain here for a second.
    When we were out at Berkeley Livermore, Congresswoman 
Barbara Lee of Oakland joined us for some of those meetings. 
And we were very enthralled with all of the work being done on 
the expanding universe there and the laser research nearby, and 
left viewing the property on which a $100 million solar 
research facility would be built.
    But one of the topics that we discussed was the growing 
social and commercial bifurcation in our own society, and those 
that have meager options, and the pull that is occurring within 
this country right now in many, many communities. And we began 
to engage in a discussion about how the Department of Energy 
and its vast research resources might serve as an integrator of 
capabilities that could help improve life in some of the most 
forgotten corners of this country.
    And we wrote a letter to the Department of Energy and to 
Livermore, and we got a very good answer back, and this letter 
came from the Congresswoman and myself. But we have a bit of a 
coalition going here in the House including Congresswoman Fudge 
of Cleveland; Congressman Fattah, who was here this morning, 
from Philadelphia; and Congresswoman Moore of Milwaukee. We are 
finding we share some similar challenges, including many places 
where there are nutrition-short communities in this abundant 
society, and where many individuals live right at the edge.
    And so we started thinking about how we could restore on 
the nutrition front the ability to grow and raise product, and 
to create a growing system that would be the most energy and 
water efficient that exists anywhere in the world. And you 
could almost roll it into any neighborhood, attach it to any 
church, put it up on a lot. And you would think the Department 
of Agriculture would be doing this, but I guarantee you they 
are not.
    And even thinking about advanced systems that are very 
cost-effective, but, for example, where the covering, whatever 
that might be, might be a thin, multilayer creation that would 
have energy capability, and where the source of water would be 
well timed, and you would literally have an easy production 
platform.
    So the reason that I am asking this question is when we 
went to Argonne a few weeks later, it was so interesting, 
because I don't think the people at Berkeley told them what we 
were interested in, but they presented us with this brochure 
about revitalizing urban America, having a role in the 
redevelopment of urban communities. It was interesting to go 
through that. So Argonne is involved, making an effort in the 
Chicago area.
    And my question to you really is is there a way for you to 
take a look at the letter that we wrote to Berkeley, what 
Argonne is doing, and develop a dialogue with the Department to 
find a way to pinpoint some of these smaller efforts in these 
communities that we are talking about, and to develop a concept 
that would really be breakthrough that we could use in this 
country and, frankly, globally? And that is really, I think, 
something that I would like the Office of Science to consider. 
If a couple of your labs are already doing some things out 
there--Mr. Fattah talked about weatherization and some of the 
new energy-efficient technologies that can be integrated into 
our urban communities and some of our rural communities that 
are living at the raw edge.
    I wanted to mention that to you, because I think we want to 
grow, we want to grow this effort, and we want to see what the 
Department of Energy and its incredible scientists could offer 
to meet the other half of America that is not able to travel to 
Berkeley or to Argonne and to see what I saw, and would very 
much appreciate your attention to the letter that we sent and 
some of the materials we are gathering now from the Department. 
Perhaps you could find a way to help us integrate our approach.
    Ms. Dehmer. I am happy to do that. I know that Argonne 
National Laboratory is working with the City of Chicago and the 
University of Chicago to reach out and look at some of these 
issues. I am happy to look at that.
    Ms. Kaptur. Thank you.
    Thank you very much, Mr. Chairman. That is my last 
question.
    Mr. Simpson. If there are no other questions, I thank you, 
Doctor, for being here today. We look forward to working with 
you on these fascinating projects that, frankly, I don't 
understand, but I do like to listen to them.
    Thanks for all you do, and we look forward to working with 
you. I am sure that there will be some questions that will be 
submitted. If you could return them within 4 weeks, because we 
are going to start trying to mark up our bill relatively early, 
so your input would be very valuable.
    Adjourned. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Danielson, David.................................................    71
Dahmer, Patricia.................................................   249
Hoffman, Patricia................................................    71
Huizenga, Dave...................................................     1
Lyons, Pete......................................................    71
Smith, Christopher...............................................    71


                             [all]
                             
</pre></body></html>
